<html>
<title> - OFF-ROAD HIGHWAY VEHICLES</title>
<body><pre>[Senate Hearing 110-546]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-546
 
                       OFF-ROAD HIGHWAY VEHICLES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   TO

 RECEIVE TESTIMONY REGARDING OFF-HIGHWAY VEHICLE MANAGEMENT ON PUBLIC 
                                 LANDS

                               __________

                              JUNE 5, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources


                     U.S. GOVERNMENT PRINTING OFFICE
44-915 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Adams, Frank, Executive Director, Nevada Sheriffs' & Chiefs' 
  Association, Mesquite, NV......................................    50
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Bisson, Henri, Deputy Director, Bureau of Land Management, 
  Department of the Interior; Accompanied by Jayne Belnap, Ph.D., 
  RH Ecologist, Geological Survey, Department of the Interior....     3
Craig, Hon. Larry E., U.S. Senator From Idaho....................    19
Culver, Nada, Senior Counsel, The Wilderness Society, Denver, CO.    38
Holtrop, Joel, Deputy Chief, National Forest System, Forest 
  Service, Department of Agriculture.............................     7
Moreland, Edward, Vice President For Government Relations, 
  American Motorcyclist Association..............................    28
Mumm, Greg, Executive Director, BlueRibbon Coalition, Rapid City, 
  SD.............................................................    32
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................    20
Powell, Bradley, Western Energy and ORV Coordinator, Trout 
  Unlimited, Payson, AZ..........................................    47
Salazar, Hon. Ken, U.S. Senator From Colorado....................     2
Tester, Hon. John, U.S. Senator From Montana.....................    17
Wyden, Hon. Ron, U.S. Senator From Oregon........................    24

                               APPENDIXES

                               APPENDIX I

Responses to additional questions................................    63

                              APPENDIX II

Additional material submitted for the record.....................    81


                       OFF-ROAD HIGHWAY VEHICLES

                              ----------                              


                         THURSDAY, JUNE 5, 2008

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. All right, why don't we go ahead and get 
started. I'm told Senator Domenici is delayed at another 
hearing and some of the other members are on their way. But in 
the interest of time why don't we get going.
    The committee will today be examining the challenges of 
managing off-road vehicle recreation on public lands. While the 
use of off-road vehicles is certainly an appropriate use in 
many places on public lands, its use has grown dramatically in 
recent years. It's been accompanied by significant advances in 
the power and range and capabilities of off-road vehicles. As a 
result, the challenges of managing off-road use also have grown 
dramatically, and it appears questionable to me whether either 
the BLM or the Forest Service have been able to keep up with 
this challenge of properly managing this use.
    A visit to a number of off-road vehicle recreation sites on 
public lands or a review of law enforcement statistics clearly 
demonstrates the scope and the seriousness of the challenges. 
In my State of New Mexico and throughout much of the West, 
there has been vocal concern from virtually the entire array of 
public land users about the issue that we're talking about 
today.
    In this committee we are seeing a growing number of 
legislative proposals that mandate travel planning and off-road 
recreation management, which I think is further evidence of 
these concerns.
    Both the BLM and the Forest Service have shown, at least in 
theory, that they recognize that off-road use is a significant 
management issue. For example, the BLM has identified travel 
management on its lands as, quote, ``one of the greatest 
management challenges'' it faces. Likewise, the Forest Service 
has identified unmanaged recreation, including off-road vehicle 
use, as one of the top four threats to the management and 
health of the National Forest System.
    But despite these statements, it seems to me neither agency 
has been able to successfully manage this off-road use as yet. 
In some cases it appears plans are not being enforced, while in 
others it appears that the agencies are ignoring unregulated 
use of the public lands, with significant consequences for the 
health of public lands and communities and adverse effects on 
other authorized public lands uses.
    Given the history of repeated agency recognitions of the 
problem and the mandate to solve them and the inadequate 
response as yet, we cannot afford to repeat that history again. 
I hope we can use today's hearing for a better understanding of 
these challenges and the agencies' current efforts to address 
them and any ideas that we can garner on ways to improve the 
management of public lands for these purposes.
    Senator Salazar is here, I notice. If he has any opening 
statement, I'll defer to him. Otherwise, we'll start with the 
witnesses. Did you wish to make a statement?

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Just a very short statement. Chairman 
Bingaman, thank you for holding this hearing and for bringing 
attention to this very important issue for those of us from the 
West, where we have huge landholdings of both Forest Service 
and BLM lands. This is a crucial issue.
    On the one hand, in Colorado we very much want to make sure 
that we are protecting the millions of acres that we have under 
BLM and Forest Service jurisdiction, that we're protecting them 
not only for today but for the future, and making sure that the 
ecosystems that are related to those public lands are not ones 
that we're damaging for the future, and that we're providing 
for the use and enjoyment of those lands for the long-term.
    On the other hand, there is a reality that there are 
conflicts with OHVs and we need to make sure that we figure out 
how we continue to allow those uses to continue, but at the 
same time provide the protection that I articulated as our 
first value.
    It's important as we do that to also recognize that off-
highway vehicle users also inject huge amounts of money into 
our economies. In Colorado it's in the millions of dollars. It 
is a way in which many of our citizens and visitors in Colorado 
have an opportunity to have actual enjoyment of our public 
lands. So how we create the right policy and the right 
enforcement of those policies to find that balance is very 
important to me and I look very much, Mr. Chairman, to hearing 
from our witnesses today.
    Senator Akaka. Thank you very much.
    Our first panel is made up of administration witnesses: 
Henry Bisson, who is a frequent witness before our committee. 
We're glad to see you again. He's the Deputy Director of the 
Bureau of Land Management, accompanied by Jayne Belnap, who is 
a Resource Ecologist with the Geological Survey. Thank you for 
being here.
    Our other witness is Joel Holtrop. Joel is the Deputy Chief 
of the National Forest System in the Department of Agriculture. 
Thank you for being here.
    Henry, do you want to start, and then we'll hear from Joel?

  STATEMENT OF HENRI BISSON, DEPUTY DIRECTOR, BUREAU OF LAND 
 MANAGEMENT, DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY JAYNE 
 BELNAP, PH.D., RH ECOLOGIST, GEOLOGICAL SURVEY, DEPARTMENT OF 
                          THE INTERIOR

    Mr. Bisson. Thank you. Mr. Chairman and members of the 
committee: I thank you for inviting me to testify regarding 
motorized recreational use on BLM-managed lands. I'm going to 
briefly summarize my remarks and ask that the entire testimony 
be included in the record.
    I am accompanied, as you said, Senator, by Jayne Belnap of 
the United States Geological Survey, who is prepared to answer 
any questions related to USGS science regarding OHV impacts on 
the land.
    The BLM strives to preserve and protect resources for the 
use and enjoyment of future generations while meeting the needs 
of motorized recreational access today. We at the BLM are 
responsible for more than 258 million acres of public land. 
More than 57 million people now live within 25 miles of those 
lands and the combined effect of population increases in the 
West, unauthorized user-created roads, explosive growth in the 
use of OHVs, advances in motorized technology, and intense 
industry marketing have generated increased social conflicts 
and resource impacts. Wise management of OHVs and balancing the 
needs of all the users of public land is our continuing 
challenge.
    The vast majority of OHV users are law-abiding citizens who 
comply with our rules and regulations and are welcomed by the 
BLM. The USGS and others have conducted considerable research 
on the impacts from OHV use on western arid and forested lands 
and research continues on the impacts of OHV use. The BLM uses 
this information in a comprehensive approach to address travel 
management that considers public access needs while protecting 
resources.
    Continued designation of large areas that remain open to 
unregulated cross-country travel is no longer a practical 
management strategy. The BLM has sought extensive public 
participation and input to designate a travel network that is 
thoughtfully designed and properly managed, and with the 
completion of new or updated plans the amount of land that is 
currently designated as limited to roads and trails has 
dramatically increased and the number of acres of what were 
open areas has decreased.
    Collaboration with our stakeholders and partners continues 
to be a crucial piece of BLMs OHV management strategy. In many 
States, partnerships between user groups, local and State 
governments, and Federal agencies are managing OHV use through 
cooperative education, enforcement, and trail maintenance 
programs. This has allowed for more effective use of limited 
resources to reduce irresponsible use, thus minimizing resource 
damage.
    As part of the BLM's commitment to implementing its land 
use plans and protecting resources, use of law enforcement and 
at times area closures to OHV use are necessary. We deploy 195 
law enforcement rangers and 56 special agents cross the public 
lands, about one for every 1.2 million acres. High-use 
recreation areas such as sand dunes in southern California, 
Utah, Idaho, and Nevada continue to be a primary focus for law 
enforcement, especially on long holiday weekends and during 
major events.
    The BLM works closely with local law enforcement agencies 
on patrols, safety, enforcement, and emergency medical 
responses. We greatly benefit from the strong support of many 
county sheriffs and State highway patrol organizations 
throughout the West.
    We will continue to prioritize and target resources to 
preserve and protect the public land for the use and enjoyment 
of current and future generations.
    I thank you for the opportunity to testify and I'd be happy 
to answer any questions.
    [The prepared statement of Mr. Bisson follows:]

  Prepared Statement of Henri Bisson, Deputy Director, Bureau of Land 
                 Management, Department of the Interior

                              INTRODUCTION

    Thank you for inviting me to testify regarding motorized 
recreational use on the public lands. My testimony today will highlight 
the ongoing efforts within the Bureau of Land Management (BLM) to 
manage off-highway vehicle (OHV) use and will highlight a 2007 United 
States Geological Survey (USGS) study synthesizing the literature 
regarding OHV impacts on the land. The BLM manages public lands to 
sustain the health, diversity, and productivity for the use and 
enjoyment of present and future generations.

OHV Use on BLM-Managed Public Lands
    The BLM strives to preserve and protect resources for use and 
enjoyment of future generations while meeting the need for motorized 
recreational access today. With more than 57 million people living 
within 25 miles of BLM administered public lands, motorized recreation 
on these 258 million acres of public land is managed consistent with 
the multiple-use mandate of the Federal Land Policy and Management Act 
of 1976 (FLPMA). Wise management of OHVs and balancing the needs of all 
the users of the public lands is a continuing challenge.
    This challenge has been building over time. What was once the vast 
and spacious public land of the West that few knew about and fewer 
actively used for recreational purposes has now become something quite 
different. Today, with the suburban sprawl of many western cities and 
the increased pressure for more outdoor recreational opportunities, the 
BLM has had to adjust its management of these lands to ensure their 
health for future generations.

Challenges
    Some facts and figures help to illustrate the reality of our 
management challenges: OHV use has been a major recreational activity 
across the West for the past four decades. The BLM-administered public 
lands will host 58 million recreation visits from across the country 
and other nations this year, a number that has nearly doubled in the 
last 25 years. Many of these visitors will be responsibly riding ATVs 
or motorcycles. The Motorcycle Industry Council conservatively 
estimates there are four times more OHVs in the West than there were a 
decade ago.
    The extensive network of roads and trails, now primarily associated 
with motorized and non-motorized recreation use, has largely been 
inherited from historical access patterns dating back nearly 200 years. 
The majority of roads and trails in use today were originally developed 
for trade, mineral exploration, ranching, forestry and many other 
purposes.
    The combined effect of population increase in the West, 
unauthorized user-created roads, explosive growth in the use of OHVs, 
advances in motorized technology, and intense industry marketing have 
generated increased social conflicts and resource impacts on the public 
land. The BLM faces many challenges--protecting resources, minimizing 
user conflicts, safeguarding visitor safety, and providing reasonable 
and appropriate access.
    Over the last decade, increasing recreational demand has led to an 
increase in legislation, litigation and intense public interest 
regarding BLM's management of OHV travel. The United States Geological 
Survey (USGS) and others have conducted considerable research on the 
impacts from OHV use on western arid and forested lands. Research 
continues on the impacts of OHV use. A synthesis of available 
scientific literature related to the effects of OHV use is available as 
a USGS Open-File Report (USGS OFR 2007-1353, ``Environmental Effects of 
Off-Highway Vehicles on Bureau of Land Management Lands: A Literature 
Synthesis, Annotated Bibliographies, Extensive Bibliographies, and 
Internet Resources''). The report was compiled by the USGS with funding 
from the BLM National Science and Technology Center.
    BLM is addressing travel management as part of a comprehensive 
approach that considers public access needs for all modes of 
transportation. BLM has sought extensive public participation and input 
to designate a travel network that is thoughtfully designed and 
properly managed and makes the best use of resources. Public 
participation is essential to the BLM planning process and serves to 
improve communication, develop enhanced understanding of different 
perspectives, and identify solutions to issues and problems.
    Additionally, in order to help address increased use of BLM lands, 
the 2009 Budget proposes directing approximately $8 million from field 
offices experiencing little or no population growth to field offices in 
or adjacent to expanding communities. Recreation and law enforcement 
are among the programs in which these funding shifts will occur.

BLM Management and Policy
    In 2001, the BLM issued its National Management Strategy for 
Motorized OHV Use on Public Lands to improve our management of this 
recreation activity. This strategy sets comprehensive direction for 
planning and managing motorized recreational use in full compliance 
with Executive Orders, existing regulations, and policy guidance. 
Through the planning and travel management process, public lands are 
designated as ``open'', ``limited'', or ``closed'' to OHV use. Open 
areas are areas where all types of vehicle use are permitted at all 
times, anywhere in the area. Limited areas are lands where OHV use is 
restricted at certain times or use is only authorized on designated 
routes, and closed areas are lands where OHV use is prohibited. This 
2001 strategy recognizes motorized recreational use as a legitimate use 
of public land wherever it is compatible with established resource 
management objectives.
    Building on this strategy, in 2005 the BLM issued a revised ``Land 
Use Planning Handbook,'' which included specific guidance for 
``Comprehensive Travel and Transportation Management.'' It ensures that 
all new land use plans developed by the BLM will address public access, 
travel management and OHV area designations. These land use plans guide 
the management of all of the 258 million acres for which the BLM is 
responsible.
    Finally, in December 2007, the BLM sent guidance to its field 
offices to further clarify travel management decisions in the planning 
process. Specifically, the guidance affirmed that continued designation 
of large areas that remain open to unregulated ``cross-country travel'' 
is not a practical management strategy. Instead, field offices are 
directed to focus OHV travel on designated roads and trails. Field 
offices still can and have designated open areas, where unrestricted 
OHV play is permissible. Additionally, this guidance addresses route 
planning, inventory and evaluation, innovative partnerships, user 
education, mapping, signing, and law enforcement. The guidance will 
result in establishing rational and well-analyzed travel networks, 
permitting OHV users with continued opportunity to recreate on public 
lands.
    With the completion of new or updated plans, the amount of land 
designated as limited has increased and the number of acres of open 
areas has decreased. For example, in the Ely, Nevada, Resource 
Management Plan (RMP) (2008), the number of acres open to cross-country 
OHV use declined from 9.8 million acres to zero acres under the 
preferred management alternative. More than a million acres in the 
District are closed to OHV use. The closed areas consist of 
congressionally designated wilderness and Wilderness Study Areas, which 
is in accordance with the Wilderness Act of 1964 and FLPMA. OHV use on 
the remaining 10.3 million acres in the planning area is limited to 
designated roads and trails. This particular area also benefits from a 
congressionally designated trail system for OHV users.
    Open areas have been retained in other RMPs where historical OHV 
play areas have existed for many years and resource conflicts are 
minimal. Open areas are appropriate for intensive OHV use where there 
are no compelling resource protection needs or public safety issues to 
warrant limiting cross-country use. Examples of areas open to motorized 
recreational use include El Mirage OHV Area in the Mojave Desert of 
California, 12,000 acres of flat lakebed used for land sailing and OHV 
riding, and Hackberry Lake OHV Area in New Mexico, offering 55,000 
acres of rolling dunes used for OHV play. These open areas are 
extremely important local and regional destinations for OHV play with 
minimal impact.
    Closures are sometimes necessary to protect and conserve resources 
or for public safety in a particular area. Closures can be very 
controversial. The BLM frequently attempts to work with affected or 
interested parties to reach agreement on options to address a 
particular challenge before issuing notices of motorized travel 
restrictions or temporary closures. Most closures remain in effect 
until conditions change, impact is reduced or a new decision is 
addressed in a plan.
    For example, to protect public health and safety from exposure to 
asbestos the BLM issued a temporary closure on 31,000 acres of public 
land within the Clear Creek Management Area in California on May 1, 
2008. The temporary closure order was issued simultaneously with the 
Environmental Protection Agency's (EPA) release of the final Asbestos 
Exposure and Human Health Risk Assessment. The findings of the 
assessment indicate that the asbestos exposures that EPA measured at 
CCMA are high and that many of the recreation activities authorized by 
the BLM pose excess lifetime cancer risks above the EPA's acceptable 
risk. This closure will remain in effect until the signing of a Record 
of Decision of the Resource Management Plan for the Clear Creek area. 
The RMP will incorporate the results of the EPA Assessment and analyze 
alternatives to minimize and reduce the human health risk from exposure 
to asbestos from visitor use to ensure public health and safety.
    As part of the BLM's commitment to implementing its land use plans 
and protecting resources, the agency deploys 195 law enforcement 
rangers and 56 special agents across the public lands, about 1 for 
every 1.2 million acres. High-use recreation areas, such as sand dunes 
in Southern California, Utah, Idaho and Nevada, continue to be a 
challenge, especially on long holiday weekends and during major events, 
and are a primary focus of BLM law enforcement. Imperial Sand Dunes in 
California typically has more than 150,000 visitors during winter 
holidays such as Thanksgiving, New Year's and President's Day. Over the 
New Year's weekend this year, law enforcement issued 630 citations, 
arrested 25 individuals. Emergency Medical Services responded to 129 
calls. The BLM works closely with local law enforcement agencies on 
patrols, safety, enforcement and emergency medical responses. We 
greatly benefit from the strong support of many County Sheriffs and 
State Highway Patrol organizations throughout the West. The use of 
short-term work details of BLM officers from other states and officers 
from other agencies, as well as continued support from local law 
enforcement agencies through assistance agreements, has proven 
invaluable.

Partnerships
    The vast majority of OHV users are responsible riders. They share 
the BLM's commitment to the protection of natural and cultural 
resources and leave no lasting trace on the land. Working with local, 
state and national OHV groups, we have improved our ability to inform, 
train and educate the riding public. Partner organizations such as 
Tread Lightly! and Leave No Trace have worked to develop and 
disseminate stewardship education materials and have worked with 
industry to encourage responsible use marketing and messaging.
    Collaboration with our stakeholders and partners continues to be a 
crucial piece of BLM's OHV management strategy. In Colorado, OHV groups 
have stepped forward to assist in the education of OHV users by 
promoting responsible recreation use. The Stay the Trail program, a 
joint project between the Colorado Off-Highway Vehicle Coalition and 
Federal agencies, reinforces and highlights responsible OHV use and 
seeks to reduce irresponsible use, thus minimizing resource damage. In 
Oregon, partnerships have formed between user groups, local and state 
governments and Federal agencies to cooperatively manage OHV use by 
jointly developing and implementing education, enforcement and trail 
maintenance programs. This has allowed for more effective use of 
limited resources to reduce irresponsible use, thus minimizing resource 
damage. In Idaho, BLM partners with the state Fish and Game agency to 
implement the CARE/SHARE program to build awareness and user ethics 
regarding public access across private lands or ranching allotments.
    I would like to share with you some before-and-after photos of 
restoration work being done in Southern California with the Student 
Conservation Association and the BLM. The projects are primarily 
focused on restoring areas defined by travel management implementation 
decisions. The emphasis is to protect the habitat of several endangered 
species, including the desert tortoise, as well as to ensure the 
viability of the designated travel network. As you can see, the efforts 
have been a success. By using a variety of techniques, including 
vertical mulching and re-texturing the ground surface to erase the 
impacts, these crews are successfully restoring habitat and 
rehabilitating degraded trails to prevent erosion.
    The BLM is dedicated to improving the health of the land by 
reducing OHV impacts. Defining a rational network of roads and trails 
on over 258 million acres of land is an enormously complex task. Over 
the next decade, the BLM will work with the public to continue mapping 
the West's public access travel networks. The BLM will continue to 
prioritize and target resources and funding to develop and implement 
travel management plans.
    Through public land user education, law enforcement, resource 
monitoring, public-private partnerships, and continued public 
involvement in the land-use planning process, the BLM will move closer 
toward this goal.
    Thank you again for the opportunity to testify on this significant 
issue. I would be happy to answer any questions.

    The Chairman. Thank you very much.
    Mr. Holtrop, go right ahead.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
       SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Mr. Chairman and committee members: Thank you 
for the opportunity to testify before you today on managing the 
impacts of off-highway vehicles on National Forest System 
lands.
    Today recreation exerts the largest demand on the national 
forests and grasslands, with over 192 million visits annually. 
Motorized recreation has contributed to this boom. Nearly 11.5 
million visits occur each year on National Forest System lands 
by visitors engaged in off-highway vehicle, or OHV, activities. 
Motorized recreation, including operating OHVs, is a legitimate 
use of National Forest System lands in the right places, with 
proper management, and when operated responsibly.
    We have a tremendous obligation and a great opportunity to 
serve these users and, through them, our local communities and 
economies. We see that as an important part of our mission. 
However, unrestricted cross-country travel with motor vehicles 
often results in impacts to sensitive meadows, wetlands, 
wildlife habitat, soils, cultural sites, and stream channels. 
Therefore unrestricted cross-country travel with motor vehicles 
is no longer environmentally sustainable.
    After extensive consultation with others concerned about 
this issue, including motorized recreation groups, we 
instituted a travel management rule in November 2005. The rule 
provides a nationally consistent framework for local 
decisionmaking for motor vehicle use in national forests and 
grasslands. Under the rule we are designating the National 
Forest System roads, trails, and areas that are open to motor 
vehicle use. Once complete, motor vehicle use will be 
restricted to designated routes and areas as identified on a 
motor vehicle use map.
    One of the most challenging aspects of travel management 
planning is managing the public participation process. Interest 
in travel management decisions is high, as is the controversy. 
Conflicts arise because some members of the public are 
concerned about losing motorized recreational opportunities 
they have enjoyed for years, while other members of the public 
are concerned that too many routes and areas will be left open 
to motor vehicle use, resulting in unacceptable environmental 
damage or disruption of their non-motorized recreational 
activities.
    Most national forests and grasslands are involved in the 
route and area designation process or soon will be. In fiscal 
year 2007, 36 national forests and grasslands completed their 
designation decisions and produced a map consistent with the 
travel management rule. This fiscal year an additional 41 units 
are scheduled to be completed, with the remaining units 
scheduled for completion by December 2009.
    However, designating routes and areas is only the 
beginning. To manage OHV use on the ground, we clearly need a 
combination of appropriate law enforcement combined with good 
route location and decision and effective user education, 
supplemented by our partners in the responsible OHV community.
    Many organizations assist the Forest Service with 
disseminating educational messages about responsible recreation 
use. The National Off-Highway Vehicle Conservation Council is 
made up of enthusiasts who promote responsible riding in many 
ways. Let me highlight the off- highway vehicle program of the 
San Bernadino National Forest Association, a collaboration for 
conservation, recreation, and education among the association, 
the San Bernadino National Forest, the State of California, on 
OHV user groups and industry. On this single forest, volunteers 
contribute over 25,000 hours each year.
    One example of the work they do is engaging other OHV 
enthusiasts in the field as peers, encouraging them to ride on 
designated routes, to minimize impacts on native species and 
habitats.
    We believe most OHV users want to do the right thing. With 
effective public education, route location design and signing, 
we can focus law enforcement resources on those users who do 
not heed the law.
    Americans cherish the national forests and grasslands for 
the benefits they provide. The Forest Service must strike an 
appropriate balance in managing all types of recreational 
activities within the capacities of the land. The travel 
management rule enhances and simplifies enforcement with a 
nationally consistent approach, while emphasizing local 
decisionmaking. This will make it easier for OHV users who want 
to do the right thing to be able to do so.
    Mr. Chairman, this concludes my statement and I would be 
happy to answer any questions that you or other members of the 
committee may have.
    [The prepared statement of Mr. Holtrop follows:]

   Prepared Statement of Joel Holtrop, Deputy Chief, National Forest 
           System, Forest Service, Department of Agriculture

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify before you today on managing the impacts of off-
road vehicles on National Forest System lands.

                               BACKGROUND

    The Forest Service manages 155 national forests and 20 national 
grasslands, in 42 States and the Commonwealth of Puerto Rico. By law, 
these lands are managed under multiple use and sustained yield 
principles. The mission of the Forest Service is to sustain the health, 
diversity, and productivity of the Nation's forests and grasslands to 
meet the needs of present and future generations. The Forest Service 
oversees a vast and complex array of natural resources and 
opportunities.
    One of the key opportunities provided on National Forest System 
lands is outdoor recreation. The most recent National Visitor Use 
Monitoring figures show that the national forests and grasslands 
receive 192 million visits each year. Visitors participate in a wide 
range of motorized and non-motorized recreation activities, including 
camping, hunting, fishing, hiking, horseback riding, bicycling, cross-
country skiing, snowmobiling, and operating off-highway vehicles 
(OHVs).
    National forest recreation provides healthy opportunities to enjoy 
the outdoors, connecting people to their federal land and representing 
a significant contribution to the economy of many rural areas. 
Motorized recreation has contributed to that boom. Approximately 11.5 
million visits occur on National Forest System lands each year by 
visitors engaged in OHV activities. Snowmobilers and visitors driving 
forest roads for pleasure add to this total.
    In the past, user impacts and conflicts focused on issues such as 
timber, grazing and mining. Currently, recreation in all of its forms 
places the largest demand on the national
    forests and grasslands, due to the proximity of many national 
forests and grasslands to urban population centers with affluent, 
mobile populations who seek the recreational amenities offered by these 
lands.
    Motorized recreation, including operating OHVs (defined as motor 
vehicles capable of traveling cross-country) are legitimate uses of 
National Forest System lands--in the right places with proper 
management, and when operated responsibly. We have a tremendous 
obligation and a great opportunity to serve these users and, through 
them, our local communities and economies. We see it as an important 
part of our mission.

                           TRAVEL MANAGEMENT

    Nationally, the Forest Service manages approximately 280,000 miles 
of National Forest System roads open to motor vehicle use. In addition, 
approximately 144,000 miles of trails are managed by the Forest 
Service, with an estimated 33 percent or 47,000 miles open to motor 
vehicle use, including over-snow vehicles and motorized watercraft 
operating on water trails.
    This transportation system ranges from paved roads designed for 
passenger cars to single-track trails used by dirt bikes. Many roads 
designed for high-clearance vehicles (such as log trucks and sport 
utility vehicles) also accommodate use by all terrain vehicles (ATVs) 
and other OHVs not normally found on city streets. Almost all National 
Forest System trails serve non-motorized users, including hikers, 
bicyclists, cross-country skiers and equestrians, alone or in 
combination with motorized users. National Forest System roads 
accommodate non-motorized use as well.
    National forests also include public roads managed by state, 
county, and local governments. These roads serve the commercial and 
residential needs of local communities and private lands intermingled 
with and near the lands we manage. Many county roads are cooperatively 
constructed and maintained through cooperative forest road agreements 
executed under the National Forest Roads and Trails Act. State and 
county roads also provide access to National Forest System lands, and 
we continue to work in cooperation with states and counties to manage 
our multi-jurisdictional transportation system.
    In the 1960s, motorized recreational traffic on the National Forest 
System roads was relatively light compared with timber traffic. Today, 
recreational traffic is 90 percent of all traffic on National Forest 
System roads. Much of the road system maintenance needs and resource 
damage concerns are the result of continuous recreation use of roads 
only designed for controlled intermittent commercial use. We consider 
capability to maintain roads in decisions to designate roads for 
motorized use.

                     INCREASING DEMAND FOR OHV USE

    In 1972, President Nixon signed Executive Order 11644 directing 
federal agencies to manage off-road vehicles. At the time, the 
Executive Order estimated 5 million Americans participated in OHV 
recreation. The National Survey on Recreation and the Environment 
estimated that the number of people aged 16 and over participating in 
OHV recreation was 37.6 million in 1999 and 2000, rose to a high of 
51.6 million in 2002 and 2003, and dropped somewhat to just over 44.4 
million for the most recent survey period of 2005 to 2007.
    According to the Motorcycle Industry Council, annual sales of new 
ATVs rose from 278,000 in 1995 to a peak of 813,000 in 2004, and then 
dropped slightly to 748,000 in 2006, the most recent year for which 
information is available. Today, vehicles created for specialized off-
highway uses are marketed and sold as family cars, and are more 
powerful and more capable of off-highway travel than those of a decade 
ago.

                     NEED FOR MANAGEMENT OF OHV USE

    As of January 2008, about 64 million acres of National Forest 
System lands were completely open to cross-country motor vehicle use. 
When OHVs were less popular, this scenario may not have been a problem. 
However, as the sales and technology of ATVs increased, opportunities 
for Americans to enjoy Federal lands grew. The magnitude and intensity 
of motor vehicle use have increased to the point that the intent of 
E.O. 11644, and the subsequent E.O 11989, cannot be met while still 
allowing unrestricted cross-country motor vehicle use. The first motor 
vehicle driving across a particular meadow may not harm the land, but 
by the time 50 motor vehicles have crossed the same path a user-created 
trail will likely be left behind that causes lasting environmental 
impacts on soil, water quality, and wildlife habitat. Additionally, 
some visitors report that their ability to enjoy quiet recreation 
experiences is affected by the noise from motor vehicles.
    We have many miles of user-created roads and trails on the national 
forests and grasslands. These user-created routes are not part of the 
forest transportation system, did not undergo environmental analysis, 
were not designed and constructed for recreational use, and do not 
receive routine maintenance by the Forest Service. Some of these routes 
may merit consideration, with appropriate environmental analysis, as 
potential additions to our transportation system. Others run through 
wetlands, riparian areas, and stream channels, and their use by motor 
vehicles adversely affects water quality, causes erosion, and 
introduces invasive species. User-created routes causing unacceptable 
resource damage should not be designated for motor vehicle use.

                       THE TRAVEL MANAGEMENT RULE

    To address the need for more active management of OHV use, the 
Forest Service promulgated a travel management rule on November 9, 
2005. This rule can be found in 36 CFR 212, Subpart B.
    The travel management rule provides a nationally consistent 
framework for local decision-making regarding motor vehicle use in 
National Forest System roads and trails and in areas on National Forest 
System lands. Decisions are made by local agency officials, who have 
greater knowledge of the affected resources. Local decision-making also 
allows for more effective participation by the public; local, county, 
state, and other federal agencies; and tribal governments.
    The rule requires designation of a national system of National 
Forest System roads, Nationals Forest System trails, and areas on 
National Forest System lands that are open to motor vehicle use. Once 
the system is implemented, motor vehicle use will be restricted to 
designated routes and areas as identified on a motor vehicle use map 
(MVUM).
    The following elements form the framework for the Forest Service's 
national travel management system for motor vehicle use:

  <bullet> Each administrative unit of the National Forest System 
        designates those National Forest System roads, National Forest 
        System trails, and areas on National Forest System lands that 
        are open to motor vehicle use, by class of vehicle and if 
        appropriate, by time of year.
  <bullet> The public must be given the opportunity to participate in 
        the designation process.
  <bullet> Limited motor vehicle use solely for big game retrieval and 
        dispersed camping may be allowed within a specified distance of 
        certain designated routes.
  <bullet> Local managers must coordinate with appropriate federal, 
        state, county and other local government agencies and tribal 
        governments in the designation process.
  <bullet> The rule exempts emergency vehicles and motor vehicles 
        authorized by permit or contract from designations and 
        preserves longstanding authorities for management of over-snow 
        vehicles, which may be allowed, restricted, or prohibited 
        locally.
  <bullet> Specific criteria must be considered when making designation 
        decisions including effects on natural and cultural resources, 
        public safety, provision of recreational opportunities, access 
        needs, conflicts among uses of National Forest System lands, 
        the need for maintenance and administration of roads and trails 
        under consideration for designation, and the availability of 
        resources for that maintenance and administration.
  <bullet> Once designated routes and areas are identified on a motor 
        vehicle use map (MVUM), motor vehicle use inconsistent with the 
        designations is prohibited.
  <bullet> The Forest Service must monitor the effects of motor vehicle 
        use on designated roads and trails and in designated areas.
  <bullet> Designations may be revised as needed to meet changing 
        conditions.

              IMPLEMENTATION OF THE TRAVEL MANAGEMENT RULE

    All national forests and grasslands are either currently involved 
in the route and area designation process, or will begin soon. In 
fiscal year 2007, 36 national forests and grasslands completed their 
designation decisions and produced an MVUM consistent with the travel 
management rule. This represents about 12.5 percent or 23.9 million 
acres of National Forest System lands. In fiscal year 2008, 41 units 
are scheduled to be completed. In fiscal year 2009, 64 units are 
scheduled to be completed, and in the first quarter of fiscal year 
2010, the remaining 35 units are scheduled for completion.

                     CHALLENGES IN MANAGING OHV USE

    One of the most challenging aspects of travel management planning 
is managing the public participation process. Interest in travel 
management decisions is high, as is the controversy. Attendance by over 
100 people at public meetings is not uncommon. Some meetings are quite 
contentious. Conflicts arise because some members of the public are 
concerned about losing motorized recreational opportunities that they 
have enjoyed for years, while other members of the public are concerned 
that too many routes and areas will be left open to motor vehicle use, 
resulting in unacceptable environmental damage or disruption of their 
non-motorized recreational activities.
    Another challenging situation involves areas protected by the 2001 
Roadless Area Conservation Rule. Some people feel that these areas will 
be degraded if motorized travel is increased by allowing user-created 
routes to be designated for motorized use. Other members of the public 
are concerned that they will lose motorized access they currently have 
in these areas. These challenges will be addressed during each unit's 
route and area designation process.

             IMPLEMENTATION OF TRAVEL MANAGEMENT DECISIONS

    Although completing the route and area designation process and 
publishing MVUMs represents a tremendous amount of work for the Forest 
Service, and the public, they represent only the beginning of the 
process to actively manage motor vehicle use. Informing the public 
about where and when they can use various classes of motor vehicles 
will be critical. In some areas we will need to overcome user's 
assumptions developed after many years of unmanaged motor vehicle use.
    For example, in some forests visitors could ride ATVs virtually 
anywhere the vehicle's capability allowed outside designated wilderness 
areas. Once an MVUM is published, motor vehicle use will be allowed 
only on designated routes and in designated areas. Other visitors are 
accustomed to being able to drive cross-country to a dispersed campsite
    in some forests. Once an MVUM is published, driving a motor vehicle 
to a dispersed campsite will be allowed only within a specified 
distance of certain designated routes.
    Public outreach will also involve informing people how to minimize 
their impacts with motor vehicles while they are enjoying the national 
forests. Messages will include staying on designated routes, being 
courteous to other users, and being knowledgeable of agency 
regulations. Education generally will be provided by Forest Service 
employees, but will be routinely supplemented by the many volunteers 
and other partners. The Forest Service's capability to inform and 
educate the public about where and how they may operate motor vehicles 
is greatly enhanced by the many hours of time provided by volunteers 
and partners.
    Education works both ways. Many members of the public have 
extensive historical and practical knowledge of various parts of the 
landscape. Involving them in the process and having them educate us is 
an essential element of the dialogue.
    Several national organizations assist the Forest Service with 
disseminating educational messages about responsible recreation use. 
The National Off-Highway Vehicle Conservation Council (NOHVCC) is made 
up of enthusiasts who promote responsible riding in many ways. 
Recently, they developed and are now delivering Route Designation 
Workshops across the country, with a target audience of Forest Service 
employees and OHV enthusiasts.
    The American Motorcyclist Association helps inform their members 
about the Forest Service route and area designation process, and 
encourages their members to get involved in travel management planning 
processes. They recently partnered with the Motorcycle Industry Council 
to update and produce a brochure on responsible riding. Another example 
is Tread Lightly! Tread Lightly! is a non-profit organization whose 
mission is to protect recreation access and opportunities through 
education and stewardship. Tread Lightly! works with the Forest Service 
and other land management agencies, as well as manufacturers, industry, 
and motorized recreation organizations.
    A forest-level example of the tremendous support we receive from 
cooperators for promoting responsible riding concepts is the Off 
Highway Vehicle Program of the San Bernardino National Forest 
Association, a collaboration for conservation, recreation and education 
among the National Forest Association, San Bernardino National Forest, 
State of California and OHV user groups and industry. The program 
involves 300 volunteers who contribute over 25,000 hours each year.
    The National Forest Association trains the volunteers and organizes 
patrols and work projects in coordination with the San Bernardino 
National Forest. These volunteers engage other OHV enthusiasts in the 
field as peers, encouraging them to ride on designated routes to 
minimize impacts on native species and habitats. The volunteers also 
inform other riders about regulations, provide general information 
about the San Bernardino National Forest and answer questions. 
Volunteers also adopt and maintain motorized routes, provide 
responsible riding presentations to the public, and conduct special 
projects such as elimination of illegal fire rings and trash pick-up.
    Although signs are no longer the primary tool for enforcement of 
motor vehicle restrictions on National Forest System lands, signs 
remain a critical part of OHV management in the National Forest System. 
Signs and route markers are installed, as appropriate, to help the 
public navigate and to identify clearly the routes and areas designated 
for motor vehicle use. In some places the Forest Service may also 
install barriers, such as a berm or a gate, that show that a route is 
closed to motor vehicles.
    The Forest Service will monitor designated routes and areas for 
effects on natural and cultural resources, public safety, and conflicts 
among uses. Monitoring may also focus on the level of compliance and 
route conditions. Revisions to designations may be made based on the 
results of monitoring.

             ENFORCEMENT OF TRAVEL MANAGEMENT RESTRICTIONS

    As shown by these examples of collaborative efforts, most OHV users 
want to do the right thing. We believe with effective public education, 
route design, and signing, we can focus law enforcement resources on 
those few users who do not heed the law.
    Forest Service law enforcement personnel play a critical role in 
ensuring compliance with laws and regulations, protecting public 
safety, and protecting National Forest System resources. Enforcement of 
motor vehicle restrictions has consistently remained one the top five 
priorities for Forest Service law enforcement officers. The Forest 
Service also maintains cooperative law enforcement agreements with 
state and local law enforcement agencies that provide mutual support 
across jurisdictional boundaries.
    Prior to promulgation of the travel management rule, the only way 
for the Forest Service to enforce motor vehicle restrictions was 
through issuance of a forest order. The content of these orders varied 
from unit to unit, and in some cases numerous orders existed on a 
single forest, which caused confusion for the public regarding where 
motor vehicles could legally be operated.
    Another regulation commonly enforced prior to the travel management 
rule was the prohibition on using a vehicle off road in a manner which 
damages the land. Issuance of a violation notice for this offense 
requires a judgment call on the part of the officer, and has been 
difficult to prove in court. The new prohibition clarifies requirements 
and makes it easier for responsible OHV users to comply with the 
regulation since it provides for a more objective enforcement of motor 
vehicle use consistent with the route and area designations identified 
on an MVUM.
    The travel management rule enhances and simplifies enforcement by 
replacing forest orders with issuance of an MVUM, which is posted on 
the World Wide Web and made available at the Forest Supervisor's or 
District Ranger's office, and a nationwide regulatory prohibition 
against motor vehicle use off the designated system. This nationally 
consistent approach will augment public understanding of where a motor 
vehicle may be operated on any national forest or grassland across the 
country, and will enhance the agency's ability to gain compliance. We 
believe this will make it easier for OHV users who want to do the right 
thing to be able to do so.

                               CONCLUSION

    Americans cherish the national forests and grasslands for the 
benefits they provide, which include opportunities for healthy 
recreation and exercise, natural scenic beauty, natural resources, 
protection of rare species, wilderness, a connection with history, and 
opportunities for unparalleled outdoor adventure. The Forest Service 
must strike an appropriate balance in managing all types of 
recreational activities within the capacities of the land. A designated 
system for motor vehicle use, established with public involvement, will 
enhance public enjoyment of the national forests, while maintaining 
other important values and uses of National Forest System lands. 
Effective implementation of designation decisions, through public 
education and appropriate law enforcement, will be critical.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to answer any questions you or other members of the Committee may 
have.

    The Chairman. Thank you both very much.
    Let me just start with a question to you, Mr. Bisson. The 
Forest Service seems to have a fairly clear direction that 
they're headed in of trying to, through this travel management 
rule, have each local forest as I understand it, each 
management unit, designate the routes and areas that are 
appropriate for this kind of off-road vehicle use and then put 
that on maps and educate the public and try to get law 
enforcement.
    Now, there are a lot of questions and I'll try to get to 
them in a minute with Mr. Holtrop about how you actually get 
all that done. But does BLM have anything similar that you're 
doing?
    Mr. Bisson. Senator, there's not a whole lot of difference 
between what the Forest Service process is, what they're doing, 
and what we're doing. We don't have a rule. But we do have 
policies in place which direct our field offices to go through 
a similar process as part of the resource management plans.
    The big difference is that--and I cast no aspersions on the 
Forest Service--our travel management planning involves all 
uses. It's not just OHVs. We're looking at mountain bikes, 
we're looking at hiking trails, we're looking at equestrian. So 
we're trying to develop travel networks for all of the users 
that need to access and go across our lands at the same time 
through our planning process.
    The Chairman. If you work on the assumption, and I guess we 
all have to, that if there are clear rules and people know what 
they are, they'll try to abide by them. I think if we don't 
assume that we're in real trouble.
    Mr. Bisson. I agree with you, sir.
    The Chairman. OK. The Forest Service, I understand, is 
trying toset out what those rules are in each national forest 
unit and then get people a map and do an education program to 
say, this is what's permitted and this is what's not permitted, 
and then also have law enforcement back that up. Does the BLM 
have a similar effort to map and to educate the public and say, 
if you want to come on this BLM tract of land, here is what's 
permitted?
    Mr. Bisson. That's exactly where we're moving. We have--in 
the last 10 years the numbers of acres which were 
undesignated--what we're trying to do is move to a place where 
the bulk of our lands, better than 90 percent of our lands, 99 
percent of our lands, are designated, so that people know what 
routes they can travel on and that they can't go cross-country.
    We will likely always have some small open play areas in 
historic use areas, like in southern California. But for the 
bulk of the public lands, we're moving toward designating and 
limiting access to routes that, working with the public, we've 
identified as suitable places for this activity to happen.
    The Chairman. Now, I understood Mr. Holtrop to say that 
they expect by December 2009 to have all of this done, or at 
least have in place the plans with regard to each national 
forest unit. What is the timeframe for the BLM doing the same 
thing?
    Mr. Bisson. I am informed that, based on our planning 
schedule, we will have ours done in about 10 years.
    The Chairman. Ten years.
    Mr. Bisson. In about 10 years, sir.
    The Chairman. That's a long time.
    Mr. Bisson. It's a very long time. But we're doing the best 
we can with the resources that we have.
    The Chairman. So in order for you to get this done in a 
more timely fashion you just need more planning resources or 
what?
    Mr. Bisson. I think that--again, I'm not lobbying for 
money. But I think that with the funds that we have we have 
built the schedule to complete this work, given our resource 
capability. I think that the process that we use involves 
communities, it involves local citizens. It takes time and it 
takes going to lots of meetings. It takes producing maps, and 
we're going as fast as we can. So resources to support those 
activities obviously would help.
    The Chairman. Let me ask Dr. Belnap. You know, if we're 
talking about 10 years to get this done, get the plans in 
place, as I understand it, on all of the BLM land, what is the 
extent of the damage that we're talking about here? Is there 
some significant damage to public lands that is occurring as we 
sit and discuss this issue?
    Ms. Belnap. Certainly there is, especially in the areas 
that are currently unrestricted. Again, people can be 
responsible users and still be doing some severe impacts. 
Probably one of the biggest issues is soil erosion. It's well 
known that ORVs do increase soil erosion, and this can 
compromise air and water quality, which is the major issue, 
especially in the West.
    To go further with that, dust is a major, major issue there 
because of the impact it has on accelerated melt rates and thus 
delivery of late season water into rivers and streams. Late 
season are already low water flows and so this is something 
that we all really need to be concerned about.
    Ten years is a long time and I would hope that this 
schedule could be moved forward.
    The Chairman. Senator Salazar.
    Senator Salazar. Thank you, Chairman Bingaman.
    It seems to me from your response, Mr. Bisson, to Chairman 
Bingaman's questions that you are working on plans and those 
plans are 10 years out. I'm sure there are parts of those plans 
that are already in place in some areas, but to get to the 
state of completion you're still some years out. I think the 
Forest Service also has plans at different stages of 
development and implementation.
    I want to ask you a question about enforcement of the 
rules. It seems to me that the first thing that needs to be 
done is to have the plans completed and let the public know 
where it is that they can go, where they can't go, what kinds 
of vehicles can be used, what kind they can't use. But then the 
question becomes one of enforcement, and I think in your 
opening statement, Mr. Bisson, you indicated there were, I 
think, less than 200 officials within BLM that have 
responsibility then for enforcing the rules.
    My question to you on behalf of BLM and then to Mr. Holtrop 
on behalf of the Forest Service is how you can work with local 
law enforcement, with the sheriffs in many of these counties 
and others, in mutually cooperative agreements to make sure 
that those laws are enforced? What are we doing? What more 
could we be doing? Henry and then Joel.
    Mr. Bisson. Thank you, Senator. First of all, we could not 
do what we're doing without the support of local law 
enforcement, whether it's county sheriffs or State highway 
patrols. We have a number of agreements already in place. Our 
funds are limited in terms of being able to spread it across 
several hundred counties that we work with.
    But we do have agreements. Where we primarily utilize them 
is where we have what we call hot spots or areas where we have 
a lot of OHV use, and particularly on big weekends we 
supplement our law enforcement work force with local law 
enforcement and we pay for time and a half. We pay appropriate 
overtime for them to work with us on those weekends and to work 
on emergency response and search and rescue and the whole 
thing.
    So we are doing it. We just don't have enough resource to 
be able to do as much as we probably could or should.
    Senator Salazar. I know you're resource-limited now in 
terms of putting those agreements together. But if resources 
were not an issue here, would you try to put together those 
kinds of agreements in every one of the counties where you have 
BLM lands that have some kind of OHV issue, so that you have 
the local law enforcement involved in overseeing the rules?
    Mr. Bisson. I think that if we had resources like that we 
absolutely would increase the numbers of agreements that we 
have out there with the counties in places where we have the 
most significant----
    Senator Salazar. Is there a prototype of those agreements 
that you currently use----
    Mr. Bisson. Yes.
    Senator Salazar [continuing]. Or are they customized? So 
there is a prototype of those agreements?
    Mr. Bisson. We could, as a follow-up to this hearing, we 
could provide copies of some of the agreements that we have in 
place right now.
    Senator Salazar. It would be useful for me and perhaps for 
the committee to have a copy of the prototypes of those 
agreements.
    Let me ask you this. If you were to quantify the resources 
that you would need to be able to develop these enforcement 
agreements with local law enforcement, what would that be?
    Mr. Bisson. I can't answer that today, but I would be happy 
to respond in writing.
    Senator Salazar. I would appreciate getting that response 
in writing, because it seems to me that many times the sheriff 
on the ground or the deputy sheriff, local law enforcement, can 
be a great asset to us. In our State Colorado this last year we 
actually passed through the General Assembly a State law that 
empowers sheriffs and local law enforcement to help out on some 
of these issues on public lands.
    Mr. Holtrop, can you respond to the same series of 
questions concerning the Forest Service?
    Mr. Holtrop. I'd be happy to. First of all, I agree with 
what Mr. Bisson said and what your statement was, that once we 
have our plans in place enforcement is going to be critical to 
the success of this. I'm absolutely committed to making sure 
that we're making a difference on the ground, not just making a 
difference through the planning and the mapping process. So 
that is something that we are spending time and energy and 
thinking about how are we going to be as effective as we can 
possibly be.
    So our law enforcement authorities and our law enforcement 
resources have to be brought to bear on this. Over the past 
many years, enforcement of OHV activities on National Forest 
System lands has been one of the highest priority work that our 
law enforcement officers do. It's in the top five priorities 
every year.
    We also work through cooperative agreements with local, 
usually sheriffs, sheriff departments, and that's critical to 
our success and it will continue to be critical to our success. 
Those are agreements that we use our funds to help pay for----
    Senator Salazar. So you have formalized agreements and 
prototypes?
    Mr. Holtrop. Yes, we do.
    Senator Salazar. Are they similar to what BLM has?
    Mr. Holtrop. I'm not certain, but I suspect that there's a 
great deal of similarity.
    Senator Salazar. If you can get copies of those agreements 
to us, I would appreciate that as well.
    Mr. Holtrop. We'd be happy to.
    Senator Salazar. Do you have the resources that you need in 
order to be able to implement all of these agreements that you 
would want to have across the great swath of Forest Service 
land?
    Mr. Holtrop. If we had more resources, of course we would 
be able to have more agreements and we'd be able to spend those 
resources wisely. Recognizing the large number of people who 
are using off-highway vehicles on the public lands and 
recognizing the need that we have to manage that as wisely and 
as efficiently as possible is one of those things that led us 
to saying we're going to do this travel management rule, we're 
going to come up with a common approach to how we're going to 
manage OHVs across the country. It'll improve our ability to be 
effective with our law enforcement, improve the off-highway 
vehicle community's desire to--those that desire to be law-
abiding, to do so, because we'll have a consistent approach.
    Senator Salazar. Just a final request. If you can do the 
same thing as Mr. Bisson, and that is to provide us with a 
quantification of the necessary resources to implement the law 
enforcement agreements with local law enforcement that would be 
helpful to us as we try to quantify what the need is there.
    Mr. Holtrop. We'll do that.
    Senator Salazar. Thank you very much, Mr. Chairman.
    The Chairman. Senator Tester.

          STATEMENT OF HON. JOHN TESTER, U.S. SENATOR 
                          FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. Thank you for 
holding the hearing.
    I guess one of the biggest concerns I hear when it comes to 
motorized vehicle access in the case of a road that's being 
closed is access for hunting. I was curious to know if you 
consider hunting access or alternative modes of access to areas 
when you're looking at travel management. Both, please.
    Mr. Bisson. Yes, sir. Absolutely. When we go through the 
travel planning process, we look at all types of uses and 
needs, and we meet with people in the communities to discuss 
those before we make decisions on which routes to leave open 
and which routes to close. Sometimes from a hunting standpoint 
it's favorable to leave routes open and sometimes it's 
favorable actually to close them to improve hunter quality. So 
it depends on the situation.
    Mr. Holtrop. I would give the same answer. Absolutely, 
hunting access, all forms of access needs, are taken into 
account in the decisionmaking process.
    Senator Tester. On the other side of the equation, wildlife 
habitat, cultural sites, are they considered when you're 
talking about designating potential roads or trails?
    Mr. Holtrop. Yes, they are.
    Mr. Bisson. Yes.
    Senator Tester. To what degree would better designation and 
signage of the trails and better enforcement of the rules 
reduce conflict between motorized and non-motorized users? 
Would it have an impact at all?
    Mr. Bisson. I personally believe that it is having an 
impact where we're completing the plans and doing the 
designations, and I think it will have a greater impact as we 
complete the process across our lands.
    Senator Tester. OK.
    Mr. Holtrop. I would also like to add. The models that we 
use to put together our national approach to this are models of 
success where that's happened in places around the you, where 
we have had designated routes and how that has helped.
    Senator Tester. All right. Does the Forest Service or BLM 
ever end up designating trails that were illegally created?
    Mr. Holtrop. Our process allows the local line officer to 
look at those trails and make an assessment as to whether those 
make sense to put into the trail system or not to. Some of 
those illegally created trails, of course, are in situations 
where it does not make sense from a natural resource protection 
standpoint to continue to allow those, and our expectation is 
those decisions will be made not to do that.
    In other cases, some of those user-created trails may 
actually have great recreational or access benefit, and we want 
to give the local land officer the opportunity to take a look 
at that, make an assessment, make a decision as to whether they 
should be included or not.
    Mr. Bisson. My response is essentially identical, with one 
exception. If the illegal route were, as an example, in a 
wilderness study area, not on a route that had preexisted 
designation, then we would probably close it regardless because 
it's an illegal route in a WSA.
    Senator Tester. I want to talk a little bit about what 
Senator Salazar talked about somewhat, and Senator Bingaman, 
too, law, or law and order, I should say, in the hills and how 
you're using local sheriffs to do that. How do you reimburse 
them for that? If you're utilizing the local sheriff's 
department, are they doing it free or are you reimbursing them, 
and how do you do it? Is there a required number of patrols on 
trails or a certain numbers of hours per week or month or per 
year, or is it pretty much left open?
    Mr. Holtrop. I may need to get back to you with some more 
detail on that question. Generally, those are worked out on a 
local basis, the local Forest Service official working with 
their sheriff's departments as to what are the priority areas 
where, as Henry said, where are the hot spots that we need to 
focus our attention. In some places that's going to be the OHV 
trails. In other places it might be some other activity.
    Senator Tester. Henry, do you do the same thing?
    Mr. Bisson. We do. I think it's situational. I think in 
some cases there are probably some county agreements where we 
would pay for a deputy sheriff to patrol. In other times it's 
used for those officers for a weekend, where we combine forces.
    Senator Tester. Have you seen destruction--and that's maybe 
a bad word, but it's the only one I can think of right now--
destruction of the resource over the last, let's just pick 5 or 
10 years, one or the other? 5 years; is it on the uptick? Dr. 
Belnap talked about dust. You can answer the question if you'd 
like, Dr. Belnap. It's in your backyard. You talked about dust 
and erosion and those kind of things. Is that simply due to use 
on the trail, or are we seeing an uptick of folks getting off 
the trail? I know it only takes a few bad apples, but there's 
always a few bad apples.
    Ms. Belnap. There's several factors here. One is that, at 
least in the areas that I see, there is an uptick. But I don't 
think there's a greater proportion of people. There's just a 
lot more people and so that proportion stays about the same.
    But one thing that we are seeing is, because of the current 
climate conditions and other things, the use 10 years ago now 
is having a much more profound impact than it did 10 years ago. 
Given future conditions predicted, it's going to be worse.
    Senator Tester. Because of the drought?
    Ms. Belnap. Yes. We've got drought and we're predicted for 
drought for the next 30 years. So we've got to really think 
ahead about something that might not have been such a problem 
10 years ago could be a much bigger problem.
    Senator Tester. So can you give me an insight on what 
that--and I'm going to have to give up here after this 
question--but what that forward thinking may involve? I mean, 
we've got to think ahead. Does that mean closing more roads? 
Truthfully, if tough decisions have to be made, is that what 
we're talking about?
    Ms. Belnap. I think it is, from not just a resource, but 
the dust issue really is going to become a major, major issue. 
It changes the albedo on the snowpacks and we're going to have 
profound impacts on water delivery. Just the presence of the 
roads and trails produces dust. You don't even have to drive on 
them. But when they are driven on, we're literally seeing many 
billions of pounds of dust a year coming off of these trails.
    So just the presence of them is an issue. So we've got to 
be really selective about what we leave open.
    Senator Tester. Just curious, and then I'll kick it over. 
But do you think the dust is the biggest problem or is erosion, 
water erosion I should say?
    Ms. Belnap. Water erosion is bad, too, but it's local. One 
of the big problems with the dust is that we're seeing it's a 
regional impact on water that's going to be limited anyway.
    Senator Tester. Thank you for your answers.
    The Chairman. Senator Craig.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Thank you very much, Mr. Chairman.
    I want to thank you for holding these hearings. There is no 
question that in the West especially and in the large public 
lands States' off-road vehicle use and off-road recreation is a 
major opportunity, resource, and enjoyment today. In my State 
of Idaho, we have more licensed off-road vehicles per capita 
than any other State in the Nation. It is something we view 
with pride because it is part of why people come to live in my 
State, and they enjoy it.
    I live in a suburban part of Boise and it is not unusual on 
a Saturday morning to see a 30-something and a family or a 70-
something and his or her wife or husband loading up their four-
wheelers and heading out.
    So how we balance this is a responsibility of yours, and 
doing it in a way that not only complies with our environmental 
needs, but recognizes that we have those lands also for the 
purpose of recreating on them and enjoying them, not just to 
view them from afar, as if they were a museum piece to be 
constantly coddled and protected.
    I say that because I found it very interesting when the 
Forest Service began its road closures a few years ago, and 
they went in with D-9 Cats and built tank traps and tore up the 
countryside to close roads. One winter a local snowmobiler, not 
knowing that the tank traps had been built--and folks, I'm 
talking about 12-foot berms across roads--flew over the top of 
one on his snowmobile, broke his back, and today is a semi-
invalid in southeastern Idaho. Was it his fault? Could have 
been. Was it the Forest Service's fault? Probably was. Signage? 
Nonexistent.
    We've changed a little of that. But I'm also fascinated 
when we do road closures and road obliteration and it appears 
there is nearly more environmental damage done at the time of 
closure than if you would simply go in and lightly grass them 
over, in which you would sod-base them, and at that point some 
off-road vehicles could continue to use them.
    But the other side of it, of course, is working with off-
road vehicle organizations and groups to develop what the 
average user in Idaho wants to do, and that's access in a 
responsible way, and most want to do it. You're always going to 
have some young renegades on dirt bikes that want to go to the 
highest point anywhere they can find it, and that's a matter of 
signage and discipline and education and law enforcement, and I 
don't dispute that.
    But access is critical to the economy of my State and to 
the economies of the West and large public land States. Whether 
you're hiking, backpacking, horsebacking, or whether you're 
doing it on an off-road vehicle, it really is a matter of 
organization. I have been extremely frustrated over the years 
that there appears to be a growing attitude in our land 
management agencies that the best way to handle a problem is 
simply to keep people off, instead of to try to organize them, 
to try to build trail systems, and to try to sustain trail 
systems in a way that is a responsible take.
    We're in the midst now in three of my major forests in 
Idaho in looking at travel plans, and I have not seen more 
communities more upset at the local forest supervisor because 
he or she is proposing limiting access that has been there for 
50 years or 60 years or 70 years or 100 years, access that has 
been viewed not only as a traditional point of access, but 
almost a right. I don't argue that with them, but strongly they 
believe it, and I can understand why.
    I don't own an off-road vehicle today. I have owned and 
worn out a few of them in my lifetime, in my other life.
    So we watch very closely what is done. But please, in the 
process of protecting the environment, strike the balance that 
says access for recreational purposes on these marvelous lands 
is a part of what we do. There are lands that by designation 
are more fragile than others and therefore gain a greater level 
of protection and a greater level of responsibility. There are 
others, and they are by far the vast majority in sheer acreage 
numbers, in which organized recreational activities remains 
critical to the wellbeing.
    I once had a forest industry in my State. It's gone. Why? 
We changed the policy in Washington. I once had a mining 
industry in my State. It's gone. Why? Because we changed the 
policy in this city.
    I now have a thriving recreational industry in my State--
skiing, hiking, off-road vehicling. Don't destroy it by 
regulation and policy.
    Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Murkowski.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I came in in 
the middle of my colleague's comments, but you talk about so 
many of the issues that resonate in my State back home--access, 
just the limitation of those things that we thought we had a 
privilege, had a right to, and through government policies all 
of a sudden you wake up and things have changed and things have 
changed in a manner that isn't very settling for many of our 
constituents.
    I apologize that I was not here for the testimony of the 
panel. If these questions have been already asked and answered, 
I apologize. But I want to make sure that I understand kind of 
where we are on this discussion as it relates to off-highway 
use on public lands by vehicles. It's been about 36 years, 
exactly 36 years, since President Nixon issued the executive 
order that required the Federal land managers to regulate the 
use on public lands. I guess the question to you, Mr. Bisson, 
and maybe to you, Mr. Holtrop, is whether or not you believe 
that the authorities that you presently have are adequate to 
balance the interests in public use, of public lands, with 
resource protection.
    Do we need legislation in this area or do we have what we 
need in order for you to provide for sufficient regulation? 
Henry?
    Mr. Bisson. Senator, I believe we have what we need. I 
believe the legislation that currently exists, the executive 
orders that are in place, the policies that we have in place, 
give us all the tools that we need. It's a matter of I think 
identifying the appropriate transportation network that, 
working with the people on the ground, that they need to access 
those public lands, reaching agreement on it, and then having 
the resources to enforce it.
    So I believe we have all the tools that we need.
    Senator Murkowski. Mr. Holtrop.
    Mr. Holtrop. I would say the same thing. We have the 
authorities that we need to manage this. I also want to add 
that I appreciate the concerns that Senator Craig and you, 
Senator Murkowski, have raised about the implications of the 
decisions we're making. Our goal with our travel management 
rule was to have a system that allows us to sustain off-road 
vehicle use on the public lands. That's what our goal is.
    Senator Murkowski. You feel that it should be permitted and 
encouraged on public lands?
    Mr. Holtrop. Absolutely. But we believe it has to be 
managed and a system of designated routes is a way to manage 
that, which is--and it's not all that surprising to me that as 
we go about making the actual decisions at the local level 
there are disagreements as to what those decisions are, because 
these are highly valued, highly contentious issues for the 
local folks.
    But the decisions ought to be made locally with public 
involvement.
    Senator Murkowski. Let me ask you, because we have the 
great debate that goes on between the motorized users of the 
public lands versus the non-motorized. You've got the quiet 
ones and you've got the ones that have the engines. We're going 
to have a witness on the next panel that's going to suggest 
that the non-motorized recreational users are concerned that 
the current planning efforts don't provide enough opportunities 
for those who want to recreate more quietly on the public 
lands.
    Do you think that this is a correct statement? Should the 
recreational--should the motorized recreational users be 
concerned that perhaps the tide is turning against them on this 
issue and that they're going to lose their opportunities to 
enjoy the public lands? Where do you see this going?
    Mr. Bisson. That's a difficult question, because I 
personally believe that we have had a huge sea change on the 
public lands in terms of the numbers of people that are out 
there using it for all the different uses. I think that it's a 
challenge for us to maintain all of those uses at the same time 
in the same place.
    So there are some who would argue that we ought to have 
places where certain uses happen and certain uses don't happen. 
That's what wilderness is about. We have a lot of wilderness 
study areas. We have designated wilderness, which are quiet 
places where people can go. We are in fact significantly 
reducing the numbers of routes that people can use on public 
lands, working with local folks to develop a transportation 
network.
    I think we're trying to get there on both fronts. We're 
trying to preserve the opportunity for people to use motorized 
recreation and find those places where they can get quiet. It's 
a challenge for us, but I think it's exactly where we're trying 
to go. We're trying to balance those decisions.
    Mr. Holtrop. I think that's an excellent answer. We have 
between the two agencies, we have hundreds of millions of acres 
of public lands that I think it's our responsibility to look 
for those opportunities to provide opportunities for both the 
off-road vehicle users and the quiet recreationists and do that 
in a way that's sensitive to both their needs, and that's what 
we are engaged in doing.
    I do again believe that the most effective decisions are 
made at the local level, with the affected public involvement 
from all sides of the issue, and that's what both agencies are 
engaged in trying to accomplish, just that.
    Senator Murkowski. Thank you.
    Mr. Chairman, my time is over.
    The Chairman. Let me just ask one or two more questions. I 
think you referred to what is happening on the public lands, as 
a sea change in the extent of the use of public lands, both 
with motorized or off-road vehicles, but other types of uses as 
well. I think both of you said you have the authority you need 
to deal with this, to properly manage this change.
    But it's my strong belief that you don't have the 
resources. I would say the BLM needs more resources in order to 
get the mapping done a lot quicker than 10 years. But even once 
the mapping's done, that's when the resource need even grows 
dramatically. The more off-road or off- highway vehicle use 
we're going to have on the public lands and permit on the 
public lands, the more resources are going to be required to 
properly monitor that and manage that and control that. Is that 
a fair statement?
    Mr. Holtrop. I would agree with that statement. I will tell 
you, Senator, that we are looking very hard at BLM's law 
enforcement program. The program has been managed using a tin 
cup, where there was very little law enforcement money actually 
allocated and the money came from recreation and other 
programs. We're trying to now build a solid program with a base 
of funding for it.
    At the same time, we're doing what we call a capability 
analysis, and we're going through and looking at where 
violations are occurring, what kinds of violations those are, 
how many officers we have, in which counties and which States, 
and we're going to try to develop an assessment of what our 
needs are, and then at some point request appropriate money to 
meet those needs.
    Mr. Holtrop. If I could----
    The Chairman. Yes, go right ahead, please.
    Mr. Holtrop. Because I also think your statement is a fair 
statement. I would like to add a couple of elements to what 
it's going to take to be successful in the long term once 
routes are designated, once maps are produced. We do need to 
have the resources for enforcement. Some of that's going to be 
our own employees that do that law enforcement activity. Some 
of it's going to be through cooperative agreements with local 
authorities, sheriff's departments, etcetera.
    But we also need to continue to rely on our partnerships 
with the responsible OHV community that's going to educate 
their own about what it means to have the right and the 
privilege to operate motor vehicles on the National Forest 
System and on the public lands. I think that's going to 
continue to be even more important over the long run if we're 
going to be successful.
    Again, I think a system of designated routes improves our 
ability to work with those communities effectively.
    Mr. Bisson. Could I add something, Senator?
    The Chairman. Sure.
    Mr. Bisson. A number of States which have been at the 
forefront of addressing how we go about managing appropriate 
use of OHVs have in fact enacted State laws which allow 
licensing of vehicles or some sort of permit fee which the 
State uses to supplement local law enforcement. Some States are 
looking at that possibility as well. So I think some 
combination of State and Federal effort to address the problem 
is what--it can't all just be Federal money. I think that we've 
got to work with the States as well in terms of finding sources 
of revenue to address the problems.
    The Chairman. So you think that State licensing and State 
generation of revenue to help with this issue are good steps as 
well?
    Mr. Bisson. I think where that has occurred it's been very 
helpful.
    The Chairman. OK.
    Yes, Dr. Belnap?
    Ms. Belnap. I just want to add that I think education is 
vitally critical here and probably more than the enforcement, 
because I really do think people want to do good. A lot of 
people just don't understand the impact of their actions. We've 
done tremendous amounts in different areas, different districts 
and field offices, in educating people and watching it really 
work. So I would like to see resources too dedicated toward 
that.
    The Chairman. So the priorities are: get the mapping done, 
designate the areas that off-road vehicle use is permitted so 
that people know what those are, then educate people about that 
so that we have as much of the problem solved through voluntary 
efforts by the public as possible, and then beef up law 
enforcement to deal with those few who are not going to 
voluntarily cooperate? Is that the right set of priorities?
    Mr. Holtrop. That's a very good summary, Senator.
    Mr. Bisson. I would add, and continue to evaluate how 
effective our work has been over time as well and adjust as 
adjustments are called for.
    The Chairman. OK. Let me see if any Senators have any 
additional questions of this panel. We have another panel 
coming. Senator Tester?
    Senator Tester. I just have one. First of all, we've been 
asking a lot about what you need for resources, and I think, 
the resources you need for education. I agree with you, Dr. 
Belnap, it's critically important, and we need to know what 
kind of resources are needed in both of these agencies for 
education, because I agree with you, I think people want to do 
right. They just need to know what the impacts are, because 
sometimes they don't understand them.
    I guess my question revolves around what are the penalties 
for those who don't use their off-road vehicles in an 
appropriate way?
    Mr. Bisson. I can't tell you what that penalty is. There 
are bail schedules that our officers use working with local 
judges that determine how much, and it varies by location, it 
varies by jurisdiction.
    Senator Tester. It's typically a fine, though?
    Mr. Bisson. It's a fine of some sort.
    Senator Tester. Is it ever losing the privilege to be in 
the forest or on public lands, I should say?
    Mr. Bisson. Not that I'm aware of.
    Mr. Holtrop. Not that I'm aware of that would be associated 
specifically with OHV use. It might be what they were using the 
OHV to access the forest to do. There might be something that 
would include the loss of those privileges, or the loss of the 
vehicle.
    Senator Tester. I understand.
    OK, thank you very much, Mr. Chairman.
    The Chairman. Senator Wyden, you have not had any questions 
for this panel. Do you have questions?

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. I did, Mr. Chairman, and I thank you for 
your courtesy, and I apologize to the witnesses. A hectic 
morning.
    In my State, thousands of Oregonians responsibly use off-
road vehicles for work and recreation. But there has been an 
astronomic increase in the popularity of the vehicles that has 
caught a lot of public lands managers unprepared. For example, 
ORV sales in our State has increased 400 percent between 1990 
and 2004. We've got roughly 138,000 active operating permits 
today, and currently travel management plans are pending for 11 
national forests and 9 BLM districts, representing more than 19 
million acres of our public lands in total.
    Given the variety and vastness of the public lands, it 
seems to me that there is room for both motorized and non-
motorized recreation if the agencies, particularly the two 
agencies we have here, Mr. Holtrop and Mr. Bisson, can put in 
place in a comprehensive and responsible way a plan that will 
enhance opportunities for ORV users while keeping the public 
lands safe and accessible for all recreation. This is very much 
on my mind today because I'm introducing legislation that would 
increase recreational opportunities in central Oregon by 
establishing an Oregon Badlands Wilderness program involving 
30,000 acres for wilderness recreation and solitude.
    So my question to you, Mr. Holtrop and Mr. Bisson, is 
essentially this. According to your agency, between 2005 and 
2007 there were more than 5,000 ORV-related law enforcement 
incidents in Oregon and Washington States alone. Now, the 
National Parks have partnered with not-for-profit groups so as 
to supplement Federal funding for park maintenance. Don't you 
think that one possible way to responsibly manage these issues 
I'm discussing and perhaps confront the shortage of agency 
resources is to build more public-private partnerships, the 
kind that we have in Oregon with the hunting community, the ORV 
volunteers, the National Off-Highway Vehicle Conservation 
Council?
    Those kinds of partnerships it seems to me, with a boost by 
your two agencies, could help us get a lot done in terms of 
trail maintenance or a variety of things like that. I'd like to 
hear your thoughts on doing more in that area.
    Mr. Holtrop. I absolutely think that that's an element of 
success in the long run as to how we're going to manage these. 
There are examples in your State and in Washington State and 
throughout the country where we are doing just that. I think we 
need to build on those successes as we look into the future in 
order to have the opportunity to be as effective as we need to 
be in enforcement and in the educational arena.
    The Chairman. Can you be more specific in terms of telling 
me what your agency would like to do?
    Mr. Holtrop. One of the examples that I had in my testimony 
is an example on the San Bernadino National Forest, where we 
have a partnership with OHV user groups and industry and the 
State of California and a private association, nonprofit 
association associated with the San Bernadino National Forest. 
Around 300 volunteers spend a total of 25,000 hours a year 
doing all the same things that you were talking about--
education of other off-highway vehicle users, trail 
maintenance, patrolling to talk to people about the importance 
of managing their vehicles responsibly.
    Senator Wyden. Why don't we do it this way, and I 
appreciate that. You send me a written response to that 
question outlining the future prospects for increasing the 
number of public-private partnerships.
    Mr. Holtrop. Be happy to do so.
    Senator Wyden. Mr. Bisson.
    Mr. Bisson. Senator, we agree also that seeing more public-
private partnerships in terms of education and building trails, 
maintaining trails, is exactly where we need to be going. We 
have a program called Challenge Cost Share. It's tied to our 
recreation program and we're already doing projects which are 
jointly funded between Federal dollars and State and other 
partner dollars to build trails and maintain them. So I don't 
have specific examples in Oregon, but I'd be happy to follow up 
with something in writing to you.
    Senator Wyden. We'll keep the record open for that. I 
understand that it's not possible to list all of the public-
private partnerships that would be under consideration today. 
But I'd like to see us aggressively expand this, and we'll keep 
the record open.
    I think I have time for one additional question. The other 
concern we've heard in Oregon, particularly from the ORV 
community, is that the laws and rules vary as they apply to the 
use of private, county, State, and federally owned lands, and 
so you've got trail riders and others just baffled by what laws 
control.
    What can your two agencies do to better coordinate and 
standardize these rules? I know my time is up and the 
chairman's been very gracious. Just an answer from you, Mr. 
Holtrop and Mr. Bisson: What can we do to kind of get through 
this bureaucratic lingo that's got people so confused?
    Mr. Holtrop. I think a couple of things. One is we can at 
least within our own agency reduce the irregularities of what 
the rules are from one forest to another forest, from one 
ranger district to another. That's one of the things our rules 
apply.
    Then once that has been done, I think that also sets the 
stage for us to be able to continue to work more effectively 
with other entities that also provide those off-highway vehicle 
opportunities, and we then, we should do that and are dedicated 
to doing just that.
    Senator Wyden. Very good.
    Mr. Bisson.
    Mr. Bisson. Senator, in Oregon we are about to begin a 
process to do travel planning for all of the east side 
districts at the same time. What we hope is to avoid that very 
problem, so that by working with local individuals, working 
with the groups that operate statewide we can come up with one 
system of signage and rules and regulations that apply to 
everybody.
    We're doing the same thing in the western Oregon plans as 
well.
    Senator Wyden. It sounds like it could be a good model.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Craig, did you have additional questions for this 
panel?
    Senator Craig. A couple of additional ones.
    First of all, I think the response and dialog of the last 
few moments has been obviously very, very constructive, and I 
agree with you, doctor: Education is key to a lot of this. Most 
who enter our public lands want to treat them well. Oftentimes 
they don't understand the impact of what they do, especially in 
high desert environments that are oftentimes a good deal more 
fragile because of lack of moisture, those types of things.
    Let me talk a minute about law enforcement, because I think 
one of the things that is important in local areas, where it 
isn't a recreationalist coming in from out of State, but it's a 
local community recreating on their public lands, is the 
important area of law enforcement. First of all, respecting the 
law enforcement process is important. I respect a law 
enforcement process that is answerable to someone. That's where 
cooperative law enforcement agreements with local sheriffs and 
deputizing or deputizing in the local area is oftentimes in my 
opinion more effective than the feds coming in.
    They don't see the Forest Service personnel or BLM 
personnel as law enforcement people. They see them as 
conservationists. They see them as land managers. They see them 
as resource contacts for informational purposes. There is 
oftentimes substantial resentment when the feds roll in with 
lights flashing. That's not a role that has been well played 
out in the West in many locations.
    What has worked well is when you have those cooperative law 
enforcement agreements with an accountable elected local law 
enforcement entity and then the educational process, where 
oftentimes it is extended with and through law enforcement, 
becomes increasingly more valuable and, if you will, more 
attended to or attentive of the local community.
    Simply a suggestion, and about 28 years of experience on 
that issue as I have watched the feds gun up, if you will, and 
I have watched local communities resent it, and I've watched a 
decline in cooperative law enforcement agreements, because we 
want our law enforcement community to be not only there 
present, instructional, effective, but we also want them to be 
accountable. When the Forest Service law enforcement person in 
Idaho is accountable to somebody in Ogden, Utah, and not in the 
community adjacent to where the situation happened, there is a 
lack and it's understood and frustrating, and our locals are 
very frustrated by it.
    Joel, how much did you spend, how much did the Forest 
Service spend, developing the Forest Service travel management 
rules and plans? Did you push the total button?
    Mr. Holtrop. We haven't pushed the total button because we 
aren't completed yet. We're in the process. Our estimation is 
that for every national forest unit it's going to take anywhere 
from say $750,00 to $1.5 million to complete the travel 
management rule on each national forest.
    Now, that's the additional work that needs to be done to 
accomplish what we've asked for in the rule. That needs to be 
understood in context of we have an ongoing travel management 
process that we do on a regular basis and have been doing, and 
so that's the additional expense of going through the NEPA 
process, the public involvement process, the preparation of the 
map.
    Senator Craig. Is that why you don't have adequate money to 
implement? You spent more money planning than you have? Or if 
it is such a priority, then why don't you budget for it?
    Mr. Holtrop. I think what we have done with the travel 
management rule is to recognize that as we have the increased 
use that's going on and the increased pressures that's coming 
from that, that we need to come up with an approach that allows 
us to be as cost effective and efficient with the funds that we 
do get, an approach that allows us to work more effectively 
with our partner agencies and partner entities, such as the 
sheriff's departments, and an approach that gives us the 
opportunity to work effectively with our OHV community through 
educational opportunities. That's the approach that we've 
taken.
    We think that the amount of time, effort, energy, money 
that we're putting into this process is going to pay big 
dividends for us in the long run.
    Senator Craig. May I suggest the BLM observe what the 
Forest Service has done. Maybe you can learn to save money if 
you're just beginning that process.
    Mr. Bisson. We've actually been engaged in it for a while, 
Senator. But we're not doing it by rule. We're doing it by 
policy.
    Senator Craig. Yes, there is a difference there.
    Thank you, Mr. Chairman.
    The Chairman. Senator Murkowski, do you have additional 
questions?
    Senator Murkowski. No, I'm fine; thank you.
    The Chairman. Thank you all very much and we'll go ahead 
withthe second panel. Our second panel is made up of: Ed 
Moreland, who is the Vice President for Government Relations 
with the American Motorcyclist Association here in Washington; 
Greg Mumm, who's the Executive Director of the BlueRibbon 
Coalition in Rapid City, South Dakota; Nada Culver--is ``NAE-
duh'' the right pronunciation?
    Ms. Culver. Yes.
    The Chairman. OK. Nada Culver, who is Senior Counsel with 
the Wilderness Society in Denver; Mr. Brad Powell, who's the 
Arizona Public Lands Coordinator with Trout Unlimited in 
Payson, Arizona; and Frank Adams, who is the Executive Director 
of the Nevada Sheriffs' and Chiefs' Association, from Mesquite, 
Nevada.
    Thank you all for being here. Why don't each of you take 5 
minutes and summarize the main points that you'd like us to 
understand from your testimony, and we will include your full 
testimony in the hearing record. We very much appreciate your 
being here.
    Ed, go right ahead.

  STATEMENT OF EDWARD MORELAND, VICE PRESIDENT FOR GOVERNMENT 
          RELATIONS, AMERICAN MOTORCYCLIST ASSOCIATION

    Mr. Moreland. Thank you, sir. Mr. Chairman, members of the 
committee: My name is Ed Moreland. I have the pleasure of 
serving as Vice President of Government Relations for the 
American Motorcyclist Association. AMA is an organization 
representing nearly 300,000 dues-paying enthusiast 
motorcyclists and ATVists. The AMA appreciates the opportunity 
to provide testimony today regarding off- road vehicle 
management on public lands.
    Former U.S. Forest Service Chief Dale Bosworth correctly 
observed that the threat to the health of our public lands was 
not from recreation, as many have asserted, but from unmanaged 
recreation. Recreation, like any other resource, must be 
actively managed. Active management of our public lands 
includes those designated appropriate for motorized--including 
those designated appropriate for motorized recreation, must 
include collaboration from the users of that area, honor the 
mission of multiple use, and provide proper staffing, adequate 
enforcement, and a set of deliverables that includes a 
recreation environment with facilities to meet the unique 
demands of OHV recreation. All these requirements are tied 
directly to the issue of funding.
    OHV recreation is pursued by millions of people each year 
and has steadily been on the rise as a family activity for the 
better part of the past 2 decades. As noted in many of the 
statements today, the national survey on recreation and 
environment reports that nearly 20 percent of the United States 
population will participate in an off-highway vehicle 
experience this year.
    Unfortunately, while interest and participation in off-
highway recreation has rapidly increased in recent years, the 
funding, management, and recreation opportunities themselves 
have just as rapidly decreased. This has led to more 
concentrated impacts on the remaining lands available to OHVs. 
It has increased the burden on land management staff and has 
contributed to user conflicts.
    We recognize that this type of growth represents many 
unique challenges for our public land managers. Additionally, 
as primary stakeholders, the recreation community enjoys an 
impressive track record of collaborating with other users as 
well as land managers to create workable solutions. Indeed, the 
motorized recreation community has authored some of the most 
often used recreation resources. I've brought three of them 
with me today. One is the ``Off-Highway Motorcycle and ATV 
Trails Guidelines for Design, Construction, Maintenance, and 
User Satisfaction,'' commonly referred to as ``the Wernex 
Report.'' This allows land managers to have a guideline for 
construction and maintenance of trail systems.
    Another is ``Park Guidelines for OHVs,'' shared with us 
today from the National Off-Highway Vehicle Conservation 
Council.
    A third document is ``Management Guidelines for OHV 
Recreation,'' This is the bible for managing off-highway 
vehicle recreation areas once they're established.
    Additionally, AMA has supported a recent series of 
workshops sponsored by NOHVC to help people understand the 
travel management rule itself, what it means to them, the 
possible and potential impacts going forward. They plan to host 
a series of follow-up meetings to help people implement the 
plan and what it means for them downstream.
    We've also supported in the past a recreation fee program 
in an effort to create more local revenue for agencies to 
properly manage OHV recreation.
    Additionally, we've been a long-time supporter of the 
recreational trails program. RTP, as most of you know, funded 
exclusively by motorized recreation, also paves the way for 
hikers, bikers, equestrians, and all other users of our public 
lands through a program that allocates funds based on a formula 
of 30 percent motorized, 30 percent non- motorized, and the 
remaining balance of 40 percent from mixed use.
    The off-highway community also continues to actively 
support legislation that will impose stiffer fines and 
penalties for those who knowingly damage our public lands.
    H.R. 1484, sponsored in the House by Representatives 
Tancredo and Udall, is a bipartisan bill that also establishes 
a consistent law enforcement authority for all Federal land 
agencies, including BLM, the Forest Service, and the Park 
Service.
    In recognition of the need for increased active management 
of many of our national forests, the AMA and other motorized 
recreation groups supported the new travel management rule, 
with a number of caveats, not the least of which was our 
opposition to unfunded mandates for the agencies and the 
artificial deadlines that would sacrifice accuracy for 
expediency. That seems to be a popular theme today, that 
without the revenue and artificial deadlines they're unable to 
accomplish the goals and guidelines that are both satisfactory 
to the user groups as well as the agencies themselves.
    It's ironic now, 2 years later, that those very issues 
threaten to undermine the genuine efforts by the Forest Service 
to fully inventory their trail systems. Nowhere is this more 
clearly demonstrated than in the State of Colorado. There, off-
highway enthusiasts from the Colorado Off-Highway Vehicle 
Coalition, COHVCo, have formed trail inventory gap resolution 
teams to systematically collect additional route information 
using state-of-the-art GPS systems to share with the Forest 
Service in the White River, Gunnison, Pike, San Juan National 
Forests and others. Unfortunately, the personnel on those 
forests have cited timing as their No. 1 reason for not being 
able to accept some of that data. They don't have the time to 
process or evaluate the data.
    Our concern is if those trails don't go in the early maps, 
they're not going to ever make the maps and we can lose 
hundreds of miles of trails in that State alone to a travel 
management plan that doesn't allow adequate acceptance of a 
user-based collaborative approach and collection of trail 
systems.
    I share this information with you today as a cautionary 
tale for what we're seeing on many of our forests around the 
country. An inventory system that fails to provide adequate 
time and funding is destined to file. We urge the committee to 
be cautious as you consider similar planning for other land 
management agencies and, while it remains incumbent on the 
agencies to provide a managed setting for recreation, the users 
to engage in the debate and help provide resources, education, 
and expertise, it is the responsibility of Congress to ensure 
that the agencies have sufficient resources to accomplish their 
mission.
    Active management cannot simply be defined as reducing the 
costs of management. We've seen what simply cutting the budget 
can do. Now we've seen what wholesale elimination of trail 
systems can do. In both cases, everybody loses. What we have 
yet to see is the adoption of full-scale active management, a 
truly collaborative approach and the budgets and people to 
accomplish a truly multiple use mission.
    The motorized recreation community has a long history of 
volunteerism and stands ready to help public managers, as we 
have in many of the areas that we've talked about today. San 
Bernadino is a perfect example of the system working correctly. 
Colorado, on the other hand, is an area where it is working as 
poorly as it can.
    The AMA is confident with the continued commitment of the 
recreation community, a renewed commitment from the agencies to 
actively manage, and adequate funding from Congress, the 
challenges facing our public lands can be overcome.
    Thank you for your consideration. We look forward to 
working with members of the committee and I am pleased to 
answer any questions you may have. Thank you.
    [The prepared statement of Mr. Moreland follows:]

 Prepared Statement of Edward Moreland, Vice President for Government 
              Relations, American Motorcyclist Association
    Mr. Chairman and members of the committee, my name is Edward 
Moreland. I have the pleasure of serving as the Vice President of 
Government Relations for the American Motorcyclist Association (AMA). 
AMA is an organization representing nearly 300,000 dues paying 
enthusiasts.
    Established in 1924, the AMA was formed to pursue, promote and 
protect the rights of both on-highway and off-highway motorcyclists 
while addressing the specific needs of its members. The AMA appreciates 
this opportunity to provide testimony regarding off-highway vehicle 
management on public lands.
    Former US Forest Service Chief Dale Bosworth correctly observed 
that the threat to the health of our public lands was not from 
recreation as many have asserted, but from ``unmanaged recreation''. 
Recreation, like any other resource, must be actively managed.
    Active management of all public lands, including those designated 
appropriate for motorized recreation, must include collaboration with 
the users of that area, honor the mission of multiple use, and provide 
proper staffing, adequate enforcement, and a set of deliverables that 
includes a recreation environment with facilities to meet the unique 
demands of OHV recreation. All of these requirements are tied directly 
to the issue of funding.
    OHV recreation is pursued by millions of people each year and has 
steadily been on the rise as a family activity for the better part of 
the past two decades. The National Survey on Recreation and the 
Environment (NSRE) reports that nearly 20% of the US population will 
participate in an off highway vehicle experience this year. 
Unfortunately, while interest and participation in off-highway 
recreation has rapidly increased in recent years, the funding, 
management and recreation opportunities have just as rapidly decreased. 
This has led to more concentrated impacts on those areas where OHV 
recreation is still allowed, an increased burden on land management 
staff and has contributed to user conflicts.
    We recognize that this type of growth presents many unique 
challenges for public land managers. Additionally, as a primary 
stakeholder, the recreation community enjoys an impressive track record 
of collaborating with other users as well as land mangers to create 
workable solutions.
    Indeed, the motorized recreation community has long been a leader 
in developing some of the most widely accepted sustainable guideline 
tools available to land managers. Three documents in particular have 
become the standard for proper trail planning, construction, 
maintenance and ongoing management. In addition to their wide use by 
public land agencies they are quite literally the textbooks that are 
used to teach these specific skills at Marshall University where OHV 
recreation management is a degreed program.
    The Wernex Report, by Mr. Joe Wernex, in conjunction with the 
American Motorcyclist Association, outlines the proper design, 
construction and maintenance of sustainable Off Highway Vehicle (OHV) 
trails. Contributions from national trails experts describe the methods 
and implementations of developing trail systems that minimize habitat 
encroachment and maximize user satisfaction. The goal of the Wernex 
Report is to provide the necessary information to help managers and 
enthusiasts develop responsible trail riding opportunities and to 
maintain and protect those that currently exist.
    Park Guidelines for Off-Highway Vehicles, by Mr. George E. Fogg, is 
a publication offered by the National Off-Highway Vehicle Conservation 
Council (NOHVCC) that serves as a manual to the step-by-step process of 
creating a new OHV park. Recently in its second printing, the manual 
provides information, answers common questions, and offers suggestions 
on creating a successful OHV park that will employ the resources 
available through private interests and government organizations. Park 
Guidelines for OHV is so comprehensive that it is required reading for 
Marshall University students in their OHV recreation management 
program.
    Management Guidelines for OHV Recreation, by Mr. Tom Crimmins, in 
association with NOHVCC, is a crucial tool for land managers and OHV 
club leaders to guide them through proper management of sustainable 
trail systems. The publication helps codify the future of a successful 
trail system by discussing user needs, the four elements of OHV 
management (Education, Engineering, Enforcement, and Evaluation), the 
vision for the trail system and how to maintain active trail 
management.
    Additionally the AMA supported a recent series of workshops held 
around the country led by the National Off Highway Vehicle Conservation 
Coalition (NOHVCC), Americans for Responsible Recreational Access 
(ARRA) and the Specialty Vehicle Institute of America (SVIA). NOHVCC 
conducted over 20 of these workshops to educate the public about the 
Travel Management Rule in an effort to prepare the public for the 
process as well as the anticipated outcomes.
    The OHV community continues to support the Recreational Trails 
Program (RTP). RTP provides critical funding for all trail enthusiasts 
through the collection of a small portion of fuel tax revenues 
generated by the purchase of fuel for use in vehicles that are not 
operated on the road. These funds go directly to support trail 
construction and maintenance. Again, while this program is funded 
exclusively by motorized recreation, all users including hikers, 
bikers, and equestrians benefit through this program that allocates 
funds based on a formula of 30% motorized, 30% non-motorized and 40% 
mixed use.
    We also supported the Recreation Fee Program in an effort to create 
more local revenue for the agencies to properly manage OHV recreation 
facilities.
    The OHV community has worked diligently has sacrificed considerably 
to assist the agencies' requirements for additional revenue. Sadly, 
while many have made good faith efforts to discover new opportunities 
to augment existing program dollars, the base budgets continue to erode 
yearly. The money that was intended to augment federal budget dollars, 
has simply supplanted it.
    The off-highway community also continues to actively support 
legislation that will impose stiffer fines and penalties for those who 
knowingly damage our public lands. H.R. 1484, sponsored by 
Representatives Tancredo and Udall of Colorado is a bipartisan bill 
that also establishes consistent law enforcement authority for all 
federal land agencies including BLM, the Forest Service and the Park 
Service.
    And, in recognition of the need for increased active management on 
many of our national forests, the AMA and other motorized recreation 
groups supported the Forest Service's new Travel Management Rule. We 
did so however with a number of caveats, not the least of which was our 
opposition to unfunded mandates and artificial deadlines that would 
sacrifice accuracy for expediency. Now those very issues threaten to 
undermine any genuine efforts by the Forest Service to fully inventory 
their trail systems.
    Nowhere is this more clearly demonstrated than in the state of 
Colorado. There off highway enthusiasts from the Colorado Off-Highway 
Vehicle Coalition (COHVCO) have formed Trail Inventory Gap Resolution 
(TIGeR) teams to systematically collect route information using state 
of the art Global Positioning Satellite (GPS) information to share with 
the Forest Service in the White River, Gunnison, Pike and San Juan 
National Forests. Unfortunately, the personnel in those forests have 
refused to accept much of the information provided by COHVCO and the 
Trails Preservation Alliance (TPA) citing the agency's inability to 
stay on schedule.
    This is an example of hard deadlines and unfunded mandates 
preventing a truly comprehensive list of trails for consideration in 
the final plans for those forests. While the Forest Service asserts 
that this is simply the start of the process and that all of the trail 
information could still be considered prior to the final rule, many 
remain concerned that if these trails are not documented now, they may 
be lost forever to a process that refused to even review user provided 
input.
    I share this information with you today as a cautionary tale for 
what we are seeing in many Forests around the county. An inventory 
system that fails to provide adequate time and funding to do the job 
right is destined to fail. We urge the Committee to be cautious as you 
consider similar planning for other land management agencies.
    While it remains incumbent upon the agencies to provide a managed 
setting for recreation, the users to engage in the debate and help 
provide resources, education and expertise, it is the responsibility of 
Congress to ensure that the agencies have sufficient resources to 
accomplish their mission.
    Active management can not simply be defined as reducing the costs 
of management. We've seen what simply cutting the budget can do. We've 
now seen what whole sale elimination of trail systems can do. In both 
cases everybody loses. What we have yet to see is the adoption of full 
scale active management, a truly collaborative approach and the budgets 
and people to accomplish a truly multiple use mission.
    The motorized recreation community has a long history of 
volunteerism and stands ready to help public land managers by 
maintaining trails, promoting ethical use and advocating for 
appropriate funding levels.
    The AMA is confident that with the continued commitment of the 
recreation community, a renewed commitment from the agencies to active 
management and adequate funding from Congress the challenges facing our 
public lands can be overcome.
    Thank you for your consideration.

    The Chairman. Thank you.
    Mr. Mumm.

    STATEMENT OF GREG MUMM, EXECUTIVE DIRECTOR, BLUERIBBON 
                   COALITION, RAPID CITY, SD

    Mr. Mumm. Good morning. My name is Greg Mumm. I'm the 
Executive Director of the BlueRibbon Coalition and I'd like to 
thank you for this opportunity to be here today and to provide 
testimony. The BlueRibbon Coalition serves as a leading 
national advocate for responsible OHV recreation and 
management. We have 10,000 individual, business, and 
organizational members collectively representing approximately 
600,000 enthusiasts nationwide. We are grassroots, we are user-
supported, and we promote a strong trail ethic.
    BlueRibbon Coalition recognizes the marked growth in the 
popularity of OHV recreation over the last several decades. 
Most recent information shows that there's 43 million Americans 
who enjoy this type of recreation. Additionally, motorized off-
highway vehicles are also used to reach those remote areas when 
taking part in other forms of recreation on our public lands, 
such as hunting, fishing, dispersed camping, mountain biking, 
and even hiking. The point is that virtually everyone is 
motorized at some point in their visits to our public lands. 
It's simply a question of where they depart from their vehicle.
    The economic benefits of OHV use are substantial. A recent 
California study demonstrated $9 billion for that State's 
economy. A similar study in Arizona, $3 billion. Colorado, $500 
million. The list goes on. You have Iowa, Minnesota, Wisconsin, 
Maine, and many others.
    Through State registration programs, the OHV community 
uniquely contributes substantial funds to implement OHV 
management programs and we volunteer literally hundreds of 
thousands of man-hours a year to accomplish those volunteer 
work projects.
    We understand the popularity of OHV recreation presents 
challenges to land managers and we point to active management 
for OHV recreation as the key to solving those challenges. 
Simply put, if you tell those 43 million Americans who enjoy 
off-road vehicle recreation what they can do instead of what 
they can't, if you provide them with a quality opportunity and 
give them ownership through cooperative involvement and 
management, you can produce sustainable, successful, compliant 
trail systems.
    From the Hatfield-McCoy Trail System in West Virginia to 
the Payute Trail System in Utah to the San Bernadino National 
Forest in California, all across this country there are shining 
examples of how well active management can and does work.
    The current regulation and policies that identify OHV 
recreation as a legitimate use of public lands and national 
forests are important benchmarks that have been a long time in 
coming. Requiring that motorized vehicles be limited to 
designated roads, trails and areas has been a significant step 
toward making managed recreation a top priority of both 
agencies.
    The BlueRibbon Coalition is supportive. The OHV community 
is currently participating in travel management planning across 
this Nation. We do so knowing that such a policy means 
inevitably some areas will no longer be available for OHV use 
because it is our hope that the agencies will formulate 
management plans that provide for recreational opportunity 
while minimizing environmental impact and user conflict.
    Still, we have some concerns. Just as the agencies are 
finally putting years of awareness and study into action 
through their directives, it appears that there's an underlying 
drive from certain anti-access groups to eliminate OHV 
recreation on most public lands, and you cannot continue to try 
and stuff increasing numbers of people into smaller and smaller 
amounts of real estate without further complicating the issues.
    We're only halfway. Folks, we're only halfway into 
implementing these active management solutions that are proven 
to work. We need the time and we need the cooperation to finish 
the job.
    We are also justifably concerned with the agencies' 
commitments to implement their own policies. Good management 
will not flow strictly from the whisk of a pen in Washington, 
DC, alone. Successful policy implementation must be accompanied 
by adequate budget and staffing and, above all, it must be 
accompanied by management's priority to achieve critical on-
the-ground goals like fostering compliant systems, adequate law 
enforcement, collaboration with recreationists and local 
communities, and obviously long-term sustainability.
    So the BlueRibbon Coalition urges this committee to support 
agency efforts to actively manage for OHV recreation, and we 
also urge you to support fiscal appropriations and other 
funding mechanisms to help the Federal agencies meet their 
recreation management objectives.
    Again, I'd like to thank you for this opportunity to be 
here this morning and I'm also happy to answer any questions 
you might have.
    [The prepared statement of Mr. Mumm follows:]

    Prepared Statement of Greg Mumm, Executive Director, Blueribbon 
                       Coalition, Rapid City, SD

    Thank you for the invitation to present personal testimony and for 
the opportunity to submit written comments regarding off-highway 
vehicle management on public lands.
    The BlueRibbon Coalition (BRC) is a national recreational access 
advocacy organization with over 10,000 individual, business and 
organizational members representing approximately 600,000 individuals 
nationwide. BlueRibbon Coalition members use motorized and non-
motorized means, including Off-Highway Vehicles (OHV), snowmobiles, 
equestrian, mountain bikes, and hiking to access and enjoy recreating 
upon state and federally-managed lands throughout the United States, 
including those of the National Forest System and Bureau of Land 
Management (BLM).
    BlueRibbon Coalition serves as a leading advocate for responsible 
management of recreation on public lands. This role has included 
partnering with academia, conservations groups, and the agencies in 
scientific research and supporting educational projects to address 
excessively loud OHV exhaust noise, wildlife research, and other 
issues. We promote a strong trail ethic and work with groups such as 
Treadlightly! and the National Off-Highway Vehicle Conservation Council 
(NOHVCC). BlueRibbon is a grassroots, user-supported nonprofit 
organization and has achieved a surprising prominence in the public 
land management arena.
    BRC recognizes that over the past several decades there has been a 
marked growth in the popularity of motorized wheeled-vehicle based 
recreational pursuits with many contributing factors to that increase 
in popularity.
    According to the most recent information in an ongoing OHV 
recreation study by the Southern Research Station of the Forest 
Service, there are 43 million Americans who enjoy off-highway vehicle 
recreation. Based on the most recent data from the study, 19.2 percent 
of the population 16 years of age and older participated in OHV 
recreation in the past year. Restated, that is nearly one in five 
Americans. Notably, the study also demonstrates that enthusiasts enjoy 
this type of recreational activity on the average of 27.9 days a year; 
or approximately 2 to 3 days per month.\1\
---------------------------------------------------------------------------
    \1\ Off-Highway Vehicle Recreation in the United States and its 
Regions and States: An Update National Report from Nation Survey on 
Recreation and the environment (NSRE) February, 2008.
---------------------------------------------------------------------------
    Additionally, motorized off-highway vehicles are also used to reach 
remote areas when taking part in other forms of recreational activity 
such as hunting, fishing, mountain-biking, and hiking. These 
enthusiasts benefit from using the very same roads, trails, and areas 
as those who enjoy OHV recreation by itself. This ``shared use'' 
activity takes place regularly. Virtually every public land user is 
motorized at some point in their visits to federal lands and it is 
simply a question of where they depart from their vehicle.
    The economic benefits of OHV use deserve equal consideration. A 
compilation of several documented state studies indicates the economic 
benefits are substantial and a source of meaningful support to both 
rural and urban counties. For example, in 2007 the California State 
Parks' Off-Highway Motor Vehicle Recreation Division published a report 
describing the economic impact of OHV recreation in California as ``an 
important element to the state's economy'' which contributes an 
estimated $9 billion annually.\2\ A similar report in Arizona estimated 
that OHV use generated nearly $3 billion in retail sales during 
2002.\3\ A 2001 Colorado study estimated OHV use yielded a $500 million 
in revenue within the state.\4\
---------------------------------------------------------------------------
    \2\ California State Parks Quick Facts 1/23/2007 California State 
Parks' Off-Highway Motor Vehicle Recreation Division
    \3\ The Economic Importance of Off-Highway Vehicle Recreation Study 
Prepared by Jonathan Silberman, PhD School of Management Arizona State 
University West
    \4\ Hazen, S. (2001) Economic Contribution of Off-Highway Vehicle 
Use in Colorado, Colorado Off-Highway Coalition
---------------------------------------------------------------------------
    In Iowa, a state one wouldn't normally think of in terms of OHV 
use, the estimated value of OHVs and related assets exceeds $266 
million. In 2007, the expenditures on new assets were over $41.2 
million and Iowa OHV users spent an estimated $86.4 million per year on 
OHV equipment and activities; $80.1 million is spent in Iowa, $6.3 
million is spent on trips out of state.\5\
---------------------------------------------------------------------------
    \5\ 5 The Economic Impact of Off-Highway Vehicles in Iowa Prepared 
for the Iowa Off-Highway Vehicle Association, Strategic Economics 
Group, Des Moines, Iowa, Daniel Otto and Harvey Siegelman, January, 
2008
---------------------------------------------------------------------------
    An economic impact study in Minnesota focused only on All Terrain 
Vehicles (ATV) in 2006. The study found that resident direct 
expenditures for the average enthusiast household were $172 per riding 
experience. This spending is equivalent to $43 per person per day. The 
combination of these dollars with the number of riding experiences and 
other household factors results in $641.9 million in consumer 
expenditures related strictly to ATV riding. Indeed, the Minnesota 
study indicates the total average impact of ATV related activity 
translates into an average of 14,449 jobs generating $429 million in 
salaries and a total gross state product, or value-added from the ATV 
recreation industry, of $920 million dollars and $86 million in local 
and state tax revenues.\6\
---------------------------------------------------------------------------
    \6\  6 All-terrain Vehicles in Minnesota: Economic impact and 
consumer profile, Prepared by Ingrid E. Schneider, Ph.D., Tony 
Schoenecker, Graduate Research Assistant, With the analytical 
assistance of: Analysis & Evaluation at the Department of Employment & 
Economic Development, March 2006
---------------------------------------------------------------------------
    Moreover, the OHV community uniquely contributes substantial funds 
to implement OHV management and volunteers hundreds of thousands of man 
hours in volunteer work projects. Much of these funds are made 
available to federal, state, and local land managers via state OHV 
programs. These programs exist today because years ago, motorized 
recreationists voluntarily ``taxed themselves'' via state OHV 
registration programs. Some of these funds are used to supplement OHV 
law enforcement, conservation, restoration, and safety programs.
    BRC understands this marked growth in OHV activity presents 
significant challenges for land managers across this nation. BRC fully 
encourages and supports reasonable and responsible management 
prescriptions for this type of recreational activity. The OHV community 
also generally supports the various route designation processes, as 
well as, ongoing monitoring and maintenance of the OHV infrastructure.
    The amount of state and locally provided opportunities for OHV 
recreation may range from none to ample, depending on the region of the 
country. In western states especially, federal agencies such as the 
Bureau of Land Management (BLM) and the US Forest Service (USFS) 
provide the majority of opportunities for OHV use. Demand for such use 
is growing rapidly in those areas faced with limited opportunities.
    There are solutions to these challenges through appropriate 
planning, maintenance, and monitoring. Active management for OHV 
recreation activities is the key and there are many working examples.
    The Paiute Trail System in Utah is one such example. Established in 
1990, this system consists of 871 miles of trails that interconnect 
with the Great Western Trail System, the Fremont Trail System and 
various other trails and networks for a total of over 1500 miles of 
successful application of active management for OHV recreation. With 
nearly 80,000 riders on the system in 2006 alone, the impact to the 
local economy was $8.5 million. Small communities that were once dying 
economically are realizing growth and prosperity. As just one example, 
the little town of Marysvale in Paiute County, Utah, had once dwindled 
to only 7 businesses with more on the way out. Today, this rural 
community is thriving with over 27 businesses, most of which are 
directly or indirectly related to the Paiute Trail. According to a 
report by Max Reid of the Fishlake National Forest, ``One campground 
along the Paiute Trail in Marysvale is an 80 unit campground 
established by Ron Bushman as a small side business. Today if you want 
to reserve a campsite space in Ron's campground during the summer, you 
will have to hope for a cancellation because he is booked solid with 
over 90% of that booking from trail riders.''\7\
---------------------------------------------------------------------------
    \7\ PAIUTE ATV TRAIL ECONOMIC OUTCOMES, prepared by: Max Reid, 
Public Service Staff, Fishlake National Forest (Updated Feb. 2007 to 
reflect the 2006 trail use figures)
---------------------------------------------------------------------------
    Another working example of active management for OHV is the 
Hatfield-McCoy Trail System in West Virginia. This system was first 
established in 1996 in what was considered an economically challenged 
area. Since the first trails were opened in 2000, it has proven to be a 
mutually beneficial public-private partnership. Today it is comprised 
of 5 trail systems, spanning 4 counties, and provides over 500 miles of 
trails, with plans to eventually exceed 2000 miles of trail. Since 
opening, the Hatfield-McCoy Trail System has received a great deal of 
national recognition for its standard of excellence and has been a 
major factor in improving the economic conditions of the area. The 2006 
Economic Impact Study of the Hatfield-McCoy Trail System in West 
Virginia cites that, ``For the state of West Virginia the total 
economic impact of the Hatfield-McCoy Trail System was an increase in 
output of $7,776,116, an increase in income of $2,789,036 and the 
generation of 146 new jobs.'' The tax return of $622,752 alone 
represents a 125% return on the state government's annual investment of 
$500,000 to the Hatfield-McCoy Trail System. The report further cites 
that, ``When the returns to the state for additional output and income 
are considered the pay-off to public investment is 1,037 and 373.1 
percent respectively.''\8\
---------------------------------------------------------------------------
    \8\ The Economic Impact of the Hatfield-McCoy Trail System in West 
Virginia, October 31, 2006, Prepared for: The Hatfield-McCoy Regional 
Recreation Authority, Prepared by: Center for Business and Economic 
Research, Marshall University, One John Marshall Drive
---------------------------------------------------------------------------
    The Hatfield-McCoy Trail System and the Paiute Trail System have 
proven their socioeconomic value and they have also demonstrated 
environmental sustainability throughout their respective 12 and 18 year 
histories. They are shining examples of how well active management 
works. Similar examples of successful active management for OHV 
recreation are demonstrated in the San Bernardino National Forest in 
California, the East Fort Rock Trail System in Oregon, the Land Between 
the Lakes National Recreation Area in Kentucky, and many other trail 
systems in Idaho, Montana, Michigan, Minnesota, Wisconsin, Maine, and 
other states.
    Properly managed motorized recreation presents both a service to 
citizens and a source of revenue. Such revenue is vital to rural 
counties who welcome recreation in lieu of other activities that no 
longer provide predictable or meaningful revenue, particularly for 
counties with significant federal public lands. A managed system of 
roads, trails and areas designated for motor vehicle use will better 
protect natural and cultural resources, address use conflicts, and 
secure sustainable opportunities for public enjoyment of public lands 
and National Forests. Properly-managed OHV systems provide an 
appropriate volume and diversity of road and trail opportunities for 
experiencing a variety of environments and modes of travel consistent 
with the policy of land management agencies.
    BlueRibbon Coalition urges that the agencies' allocation of budget, 
staff, and management effort reflect the growth of outdoor recreation. 
BRC believes the time has come to make managed recreation the BLM and 
Forest Service's top priority as they comply with their multiple-use 
mandate.
    In the early 1980s, the Forest Service and BLM recognized that the 
increase in popularity of OHV use required updated management. In 1986, 
the Forest Service conducted a service-wide review and outlined 
strategies that would update management plans to address the increase 
in OHV use.\9\ For whatever reason, the agency largely failed to 
complete their action plan. Ten years later, in 1996, a second agency-
wide review was performed.\10\ Similar issues were identified and a 
similar action plan was outlined.
---------------------------------------------------------------------------
    \9\ OFF-ROAD VEHICLE AND TRAVEL MANAGEMENT ACTIVITY REVIEW OCT. 15-
18 AND NOV. 2-7, 1986, Recommended by: Thomas P. Lennon, Team Leader, 
Aug. 10, 1987, Robert Spivey Act. Director, Recreation, Aug. 13, 1987, 
Recommended by Sterling J. Wilcox, Aug. 13, 1987, Director, 
Engineering, Approved by Larry Henson, Oct. 16, 1987, for J. LAMAR 
BEASLEY, Deputy Chief, NFS
    \10\ FINAL REPORT, NATIONAL OFF-HIGHWAY VEHICLE (OHV) ACTIVITY 
REVIEW, 1996
---------------------------------------------------------------------------
    These two Forest Service OHV reviews are instructive. The reports 
acknowledged that many successful and environmentally sustainable OHV 
trail systems existed across the agency, and that ``unmanaged'' OHV use 
was becoming a concern. But the agency had difficulty implementing its 
own recommendations. Prior to the promulgation of the Travel Management 
Rule in 2005, roughly one half of Forest Service units still had not 
updated their management plans. Indeed, the agency then estimated it 
had approximately 64 million acres of lands without any restrictions on 
motor vehicle use.
    Even when considering the glacial nature of federal agency planning 
and implementation, it is worthwhile to ask why the agency failed to 
act upon its own recommendations. The reality is that environmental 
laws and agency regulations have become one-way gates that largely 
constrain active management of the forests. They often provide fodder 
for preservationist agendas designed to stop such active management 
through embroiling the agency in a war of procedural attrition.
    By the late 1990s, the pace of litigation and pressure from both 
preservationist groups and the motorized community reached a critical 
stage. An anti-OHV lawsuit making its way to the Supreme Court 
apparently spurred both agencies into taking concrete action. The BLM 
updated its Land Use Planning directives to require all recreational 
trail use--including OHV use--to be limited to designated roads, trails 
and areas. In 2005, the Forest Service revised its travel management 
regulations, finally implementing some of the recommendations made 
twenty years earlier.
    The development of regulations and policies that identify OHV 
recreation as a legitimate use of public lands and National Forests are 
important benchmarks. Requiring that motorized vehicles to be limited 
to designated roads, trails and ``off-road areas'' has been a 
significant step toward making managed recreation a top priority of 
both BLM and USFS. These are active management solutions that work 
socially and economically (as previously demonstrated), while 
simultaneously minimizing impacts to natural resources and enhancing 
the quality of other recreational pursuits.
    For these reasons, the BlueRibbon Coalition, and the wider 
organized OHV community, generally support the ``travel limited to 
designated roads, trails, and areas'' paradigm as outlined in the 
Forest Service travel management regulations and BLM's planning 
directives.\11\
---------------------------------------------------------------------------
    \11\ USFS: 36 CFR Parts 212, 251, 261, and 295. Similar to the 
Forest Service, the BLM now restricts all OHV use to roads, trails and 
areas via their Land Use Planning directives: Land Use Planning 
Handbook H-1601-1 appendix C. Specific route designation criteria are 
specified in 43 CFR Part 8342.1
---------------------------------------------------------------------------
    The OHV community is currently participating in travel management 
planning and implementation efforts across the country. We do so 
knowing that such a policy means that some areas will no longer be 
available for OHV use. We have already taxed ourselves to provide 
supplemental funds for management, and we are willing to accept 
reasonable restrictions. As we actively participate in this planning, 
it is our hope that the agencies will formulate management plans that 
provide recreational opportunity while minimizing environmental impacts 
and user conflict.
    However, the BlueRibbon Coalition is very concerned that as 
agencies are finally putting years of awareness and study into action 
through these directives, it appears there is an underlying drive from 
certain anti-access groups to eliminate OHV recreation on most public 
lands. We are only half-way into implementing these solutions. We need 
the time and cooperation to finish the job. As managing agencies and 
enthusiasts work together to find solutions on the ground, we ask said 
groups for their support. We believe our collective energies would be 
better spent providing information to the agencies and working toward 
real management solutions that can allow more Americans to visit our 
public lands while preserving the natural beauty that makes these lands 
special.
    The OHV community is also justifiably concerned about the agencies' 
commitment to effective implementation of the ``restricted or limited 
to designated roads, trails, and areas'' policy. The policy is 
supposedly motivated by a need to address ``unmanaged recreation,'' but 
good management will not flow from the whisk of a pen in Washington, 
D.C. Successful policy implementation must be accompanied by adequate 
budget and staffing. Above all, implementation must be accompanied by 
management's priority to achieve critical on-the-ground goals.
    Certainly, these on-the-ground goals need to include the concepts 
of fostering compliance; adequate law enforcement; collaboration with 
recreationists and local communities; and long-term sustainability.
    Compliance and enforcement go hand in hand. A well designed, 
successful system meets the needs and desires of the user. This, in 
turn, results in compliance and requires a reduced level of 
enforcement. Conversely, in the absence of these active management 
elements, enforcement becomes a bigger issue.
    Successful trail systems can and should be designed by applying the 
elements of Education, Engineering, Enforcement, and Evaluation, or the 
four ``Es'', as promoted by the NOHVCC. NOHVCC states, ``Proper 
implementation of the four ``Es'' produces trails that riders want to 
stay on, not just trails they have to stay on. Well-managed systems are 
not only environmentally sustainable, they also provide more fun for 
the riders and increased economic and social benefits to the 
surrounding communities.'' (Note: emphasis added)\12\ Simply put, if 
you tell those 43 million Americans who enjoy OHV recreation what they 
CAN do and provide them with quality opportunities and ownership 
through cooperative involvement and management, it will produce 
compliance.
---------------------------------------------------------------------------
    \12\ Remarks to House Natural Resources Committee, Subcommittee on 
National Parks, Forests and Public lands, Hearing on ``Impacts of 
Unmanaged Off-Road Vehicles on Federal Lands'', Russ Ehnes, Executive 
Director, National Off-Highway Vehicle Conservation Council, March 12, 
2008
---------------------------------------------------------------------------
    To that end, through the similar strategies of active management 
and designated route systems federal land managers are making 
significant progress. BRC urges this committee to support agency 
efforts to actively manage for OHV recreation. BRC also urges this 
committee to support fiscal appropriations to help the federal agencies 
meet their recreation management objectives.
    Again, I would like to thank you for this opportunity to provide 
testimony and written comments.

    The Chairman. Thank you very much.
    Ms. Culver, thank you for being here.

   Statement of Nada Culver, Senior Counsel, The Wilderness Society, 
                               Denver CO

    Ms. Culver. Good morning and thank you for holding the 
hearing and for allowing me to testify, and of course for 
guessing the pronunciation of my name on the first try. I am a 
Senior Counsel in the Public Lands Campaign of the Wilderness 
Society. I work in the BLM Action Center, where we track land 
use planning across the West. Basically, we read a lot of 
plans, including travel management plans, and we look closely 
at the ecological, economic, scientific, and even legal issues 
raised in these documents, as well as those raised by other 
commenters. We make these analyses available to the public and 
engage in the processes in order to try to help the agencies 
arrive at management plans that are legally compliant, 
scientifically justified, and publicly supported in the best 
case scenario.
    Now, we've already heard two things from the Federal 
agencies today that are generally accepted. The first is that 
the current volume and intensity of off-road vehicle use were 
both not anticipated by these agencies; and the second is that 
off-road vehicles do cause ecological damage and conflicts with 
other users.
    There was a question early on by the chairman if agencies 
can keep up, and I think we've heard right now that they can't. 
We've seen these concerns emphasized in statements from chiefs 
of the Forest Service and Secretary of Interior Kempthorne and 
we do see these concerns reflected in the executive orders 
issued more than 30 years ago.
    Right now the agencies are engaging in travel planning as a 
way to fulfill the executive order directives to protect 
natural resources and avoid conflict with other users. 
Unfortunately, right now the plans we're seeing--and we are 
seeing a lot of plans--are essentially unsustainable based on 
three major areas of failures: ecological, where we are seeing 
extremely large route systems that don't consider protection of 
wildlife habitat, wilderness character, watersheds, and don't 
even protect places that are specifically designated for their 
conservation values, like national monuments. In the Utah 
planning effort going on right now, we have miles of routes 
that would equal driving from Los Angeles to New York City five 
times. Yet, despite information on the impacts of habitat 
fragmentation to wildlife and the benefits from reducing 
routes, those decisions are not being made.
    In the Steens Cooperative Management Area in Oregon, we are 
seeing the BLM designating so-called ``obscure routes'' in 
wilderness study areas that no one can even find on the ground, 
and the Interior Board of Land Appeals has stayed that travel 
plan in order to try to prevent damage to wilderness. In fact, 
most BLM land use plans are actually not making route decisions 
right now. They're just deferring indefinitely and allowing 
ongoing use of whatever might be on the ground or might be 
added.
    A second major area of concern is fiscal. We're seeing 
large route systems designated without the resources to manage 
them. The Forest Service has been actually doing the math and, 
for instance, in the Lincoln National Forest in New Mexico, the 
Forest Service concluded it had enough resources to manage 9 
percent of the route system. Nonetheless, they're proposing to 
maintain that system.
    The BLM doesn't consistently make this kind of analysis, 
but the agencies should be doing this and they should be 
considering what they can manage, and not just in the context 
of enforcement, but also in the context of education and 
monitoring and possible restoration. We have heard about some 
of these cooperative agreements and self-policing, but I think 
that's not the best way for the agencies to be asked to manage 
their lands, is to depend on the kindness of others.
    The third area where we're seeing a lot of concern is in 
the recreation area. In the planning process everyone gets to 
comment if they want to read the plan or comment. But 
unfortunately, right now not all commenters are created equal. 
We've heard a lot about quiet recreationists and right now 
they're being a little too quiet. That's happening because both 
the BLM and the Forest Service are creating extra special steps 
in these processes, for instance where the motorized community 
can come in and propose additional routes, additional motorized 
routes. That process doesn't address the interests of other 
parties and the rest of the public. In fact, they have no place 
in it, and they've been told this by the agencies.
    We've also seen this comment from the Idaho Fish and Game 
Department in commenting on the Sawtooth National Forest Plan, 
stating how regrettable it was that the district chose to 
develop their plan based on exclusive input from motorized user 
groups. This does exclude a substantial portion of people from 
the process. The BLM's Moab field office participated in a 
survey, a national visitor use survey, which showed that the 
top activities in this area were hiking and biking. But the 
special recreation emphasis in this plan is almost exclusively 
motorized. This percentage of users that we're seeing in the 
Moab survey is consistent with surveys across the country and 
with the surveys conducted by the Fish and Wildlife Service and 
the Outdoor Industry Association, which show that hundreds of 
billions of dollars that are contributed to the national 
economy by non-motorized users.
    I do want to point out that we are seeing responsible 
planning in some places. In the travel management plan for the 
Wilson Creek subregion in the Owyhee field office of the BLM in 
Idaho, we have seen priority to manage the area for wildlife. 
There has been prioritization of implementation in areas where 
routes might be affecting sage grouse.
    In the BLM's plan for the Arizona Strip and in the Arizona 
State office in general, we have guidance on how to manage 
areas to protect wilderness characteristics, to provide the 
outstanding opportunities for primitive and unconfined 
recreation that define them. In the Little Snake field office 
in Colorado and the Jarbridge field office in Idaho, we're 
seeing consideration of special recreation management to 
protect back country hunting experiences.
    But for the most part right now, the agencies are 
essentially making decisions with about half the information 
they need and about half the people involved. Now, of course, 
given what I do for a living, reading plans, I'm a believer. I 
believe that travel planning can and will allow us all to keep 
using and enjoying our public lands. But it has to be done 
right or we will end up with unacceptable ecological damage 
while we drain the agency budget for restoration and 
enforcement and alienate a large part of the population that 
should also have their voices heard.
    Thank you.
    [The prepared statement of Ms. Culver follows:]

   Prepared Statement of Nada Culver, Senior Counsel, The Wilderness 
                           Society, Denver CO

    Chairman Bingaman, members of the Committee and members of the 
Senate, my name is Nada Culver. I am Senior Counsel in the Public Lands 
Campaign of The Wilderness Society. The Wilderness Society's mission is 
to protect wilderness and inspire Americans to care for our wild 
places. I work in the BLM Action Center, which tracks land use planning 
around the West and is dedicated to helping the public effectively 
engage and participate in the processes that determine how our public 
lands are managed. I appreciate the opportunity to speak with you today 
about the management of off-road vehicles on the public lands. This 
written statement is submitted on behalf of The Wilderness Society and 
our partners, who care deeply about the natural wonders and recreation 
opportunities on our public lands.
    Travel planning is the cornerstone for achieving workable 
management of dirt bike, all-terrain vehicles and other off-road 
vehicles (ORVs) on our public lands. Planning provides a framework for 
agencies like the Bureau of Land Management and Forest Service to take 
a hard look at the lands they manage, plan to manage uses of those 
lands, including by ORVs, enforce uses based on plan, and then monitor 
the effects of plans to determine if changes are needed to protect the 
resources, uses and values of these lands.
    Recognizing the damage that ORVs can inflict on both natural 
resources, such as water, wildlife and wilderness, and other users of 
the public land, Presidents Nixon and Carter issued Executive Orders to 
guide their management by federal agencies, including the Bureau of 
Land Management (BLM) and Forest Service (FS). These Executive Orders 
(EO No. 11644 (1972)) as amended by Executive Order No. 11989 (1977)), 
which are also incorporated into the BLM's regulations (43 C.F.R. Sec.  
8342.1), require the agencies to ensure that areas and trails for off-
road vehicle use are located:

  <bullet> to minimize damage to soil, watershed, vegetation, air, or 
        other resources of the public lands, and to prevent impairment 
        of wilderness suitability;
  <bullet> to minimize harassment of wildlife or significant disruption 
        of wildlife habitats, and especially for protection of 
        endangered or threatened species and their habitats;
  <bullet> to minimize conflicts between off-road vehicle use and other 
        existing or proposed recreational uses of the same or 
        neighboring public lands; and
  <bullet> outside officially designated wilderness areas or primitive 
        areas and in natural areas only if the agency determines that 
        off-road vehicle use will not adversely affect their natural, 
        aesthetic, scenic, or other values for which such areas are 
        established.

    These Executive Orders essentially put the burden of proof on the 
agencies to make sure that natural resources, including sensitive and 
lands specifically identified for their conservation values are not 
harmed by ORV use, while other users can enjoy the scenery and non-
motorized recreation opportunities on public lands, and ORV use is only 
permitted in areas or on routes where these criteria are met.
    Although there are some BLM or FS planning efforts that are based 
on these fundamental principles, the majority are not. My testimony 
today will address our grave concerns with the ongoing damage to the 
public lands and the need for action to correct these trends while 
there is still time.
    The key elements of sustainable plans to manage ORVs, as well as 
the key failures in the travel planning that the BLM and FS are 
conducting (or not conducting), can be described in three categories:

          1. Ecological--The Executive Orders, as well as established 
        management priorities for specific conservation areas or 
        resources, such as wilderness study areas or wildlife habitat, 
        dictate protection from ORVs.
          2. Fiscal--The agencies must have sufficient resources to 
        inventory resources and conditions on the public lands, create 
        management plans, enforce decisions, and monitor plans to 
        ensure they are adequately protecting other resources and 
        users.
          3. Recreational--Motorized vehicles prevent other users from 
        experiencing the naturalness, solitude and scenery of the 
        public lands. Sustainable plans provide for a variety of users 
        to fully enjoy recreational opportunities on the public lands.

    A review of the ways in which the current travel planning 
initiatives do not address these important considerations highlights 
the actions needed to fix them.
1. Ecological Sustainability
    As set out above, the Executive Orders direct the BLM and FS to 
manage ORV use by prioritizing protection of natural resources, such as 
wilderness suitability, soil, water, and wildlife habitat, as well as 
avoiding conflicts with other recreationists. These priorities are also 
consistent with the statutes governing the agencies. The Federal Land 
Policy and Management Act (FLPMA) directs the BLM to manage the public 
lands ``in a manner that will protect the quality of scientific, 
scenic, historical, ecological, environmental, air and atmospheric, 
water resource, and archeological values.'' 43 U.S.C. Sec.  1701(a)(8). 
FLPMA requires the BLM to accomplish this through management plans, 
which are based on an inventory of the public lands and their resource 
and values, ``including outdoor recreation and scenic values.''. 43 
U.S.C. Sec.  1711(a). Similarly, the National Forest Management Act 
(NFMA) requires that the Forest Service manage the Forests in an 
ecologically sustainable manner that ``protects soil and water 
resources, streams, streambanks, shorelines, wetlands, fish, wildlife, 
and the diversity of plant and animal communities.'' 36 CFR 
219.27(a)(4) (implementing 16 U.S.C. Sec.  1604).
    Travel planning is an important aspect of achieving these 
management goals. The regulations of both the BLM and FS that address 
management of ORVs also incorporate the priorities established by the 
Executive Orders. See, 43 C.F.R. Sec.  8342.1; 36 C.F.R.Sec.  
212.55(a). Unfortunately, the agencies are proceeding with travel 
planning in a manner that will not fulfill these mandates.

          (a) Maintaining oversized road and motorized trail systems--
        Both agencies have stated their intent to move away from 
        permitting unmanaged cross-country use. However, the networks 
        that they are designating or simply leaving in place 
        indefinitely are too large and, as a result, will continue to 
        damage natural resources.

    BLM's Land Use Planning Handbook. H-1601, Appendix C, Section II.D 
(Comprehensive Trails and Travel Management) states that the BLM should 
``[c]omplete a defined travel management network (system of areas, 
roads and/or trails) during the development of the land use plan, to 
the extent practical.'' If designation is not possible, then the BLM is 
to designate the network within five years. See, Instruction Memorandum 
(IM) 2004-005. Individual state offices, such as Utah and Colorado, 
have issued their own guidance to more strongly require designation of 
a travel management network in resource management plans. See, IM CO-
2007-020. However, in many plans, the BLM is continuing to delay 
designation and, instead, simply labeling multi-million acre planning 
areas as ``limited to existing'' roads and trails. Instead of selecting 
routes and avoiding ecological damage, the resulting travel networks do 
not actively manage ORVs and do not prevent damage to natural resources 
or the recreational experiences of other users of the public lands.
    Although the FS is proceeding under a mandate to designate routes, 
the process to date has not included consideration of how to minimize 
impacts on other natural resources. Instead, the FS has provided 
opportunities for interested parties to identify additional motorized 
routes to be added to the travel network without similar opportunities 
or consideration of the need to protect natural resources.

                              BLM EXAMPLES

  <bullet> Yuma, Arizona, Proposed Resource Management Plan (RMP): The 
        proposed plan limits ORV travel to existing routes in 
        ``limited'' areas based on the existing inventory of routes, 
        deferring designation to a later process even though these 
        initial routes have not been subjected to analysis of their 
        compliance with applicable legal standards. The Proposed RMP 
        also commits to an interim step of permitting interested 
        parties to designate additional routes, without requiring 
        rigorous assessment and evidence that these routes were in 
        existence legally and proof of why they are needed. Proposed 
        RMP, p. 2-98. The travel planning process set out in the 
        Proposed RMP does not provide for an assessment of whether 
        inventoried routes, as well as any additional routes proposed, 
        were created legally or for interested parties to recommend 
        routes for closure based on a full disclosure of the manner in 
        which these routes impact other values in the planning area, 
        which is likely more important in light of the substantial 
        mileage and acreage already identified for use by ORVs.
  <bullet> Tri-County RMP revision and amendment in New Mexico: The 
        process began in 2005 to update RMPs that were finalized in 
        1986 and 1994, governing close to 3 million acres of public 
        land in three counties. Although the draft plan is still in 
        progress, the BLM has confirmed that it will not be designating 
        route systems for the vast majority of the planning area. 
        Similarly, in Colorado, both the Little Snake and Uncompahgre 
        RMP revisions currently in preparation have stated that 
        designation of a travel network will not be included in either 
        of these plans.
  <bullet> Moab, Monticello, Kanab, Price, Vernal, and Richfield RMPs: 
        The BLM is preparing six plans covering 11 million acres of 
        land including areas with wilderness character and potential 
        wild and scenic rivers. Rather than protecting wild areas and 
        cultural sites, the BLM is proposing to designate more than 
        15,000 miles of off-road vehicle routes--essentially blanketing 
        southern Utah's canyon country with roads and motorized routes, 
        while declining to acknowledge the potentially irreparable harm 
        to other resources.
  <bullet> California Desert Conservation Area (CDCA), travel plan for 
        the Western Mojave (WEMO): This bioregion of the CDCA is the 
        most heavily impacted by ORV use. The WEMO includes 4 units of 
        designated critical habitat--Superior-Cronese (766,900 acres), 
        Ord-Rodman (253,200 acres), Fremont-Kramer (518,000 acres), and 
        Pinto Mountains (171,700 acres). WBO AR 14834. Although the 
        WEMO plan also included designation of Desert Wildlife 
        Management Areas (``DWMAs'') to manage critical habitat, the 
        DWMAs excluded thousands of acres of designated critical 
        habitat. The BLM's 2003 WEMO Route Designation and the 2006 
        WEMO Plan amendment authorized an ORV route network including 
        over 5,444 miles of open routes and over 30 miles of 
        ``limited'' routes within desert tortoise habitat, of these, 
        over 2,230 miles of routes are in designated critical habitat.
                              fs examples
  <bullet> Plumas National Forest travel plan (California): Currently, 
        the agency manages approximately 4,150 miles of roads and 102 
        miles of motorized trails. Its latest proposal adds 375 miles 
        of existing unauthorized routes to the current system of 
        motorized trails.
  <bullet> Cassia Division on the Minidoka District of Sawtooth 
        National Forest travel plan (Idaho): The district finalized an 
        unmanageable 802-mile route system where the large amount of 
        short ``in and out'' routes will be impossible to enforce. 
        Additionally, the Idaho Department of Fish and Game and 
        Environmental Protection Agency commented to the agency 
        regarding potential problems managing wildlife habitat and 
        water quality, respectively, with the high density of routes.

          (b) Not fulfilling special management requirements--There are 
        certain areas where natural resources and values must be given 
        special consideration in travel planning, including heightened 
        protection from the impacts of off-road vehicles. Agencies have 
        a duty to protect cultural sites, rivers and streams, wildlife 
        migration corridors, and other sensitive lands and should 
        consider designating these areas for walking trails and other 
        lower-impact uses only. Management of wilderness study areas 
        (WSAs), national monuments, wild and scenic rivers, and 
        cultural resources is governed by specific priorities to 
        protect their conservation values. See, e.g., Interim 
        Management Policy (IMP) for Lands Under Wilderness Review (BLM 
        Manual H-8550-1) (requiring that WSAs are managed to protect 
        their suitability for wilderness designation); Antiquities Act 
        of 1906, 16 U.S.C. Sec. Sec.  431--433 (requiring management to 
        protect objects of interest); Wild and Scenic Rivers Act, 16 
        U.S.C. ' 1271--1287 (requiring management to protect 
        outstanding river values); National Historic Preservation Act, 
        16 U.S.C. Sec. Sec.  470f, 470h (requiring federal agencies to 
        consider effects on historic properties and seek to avoid 
        damage).

    Inventoried roadless areas on FS lands are governed by the 2001 
Roadless Rule. The Rule acknowledges defines the characteristics of 
roadless areas as:

          (1) High quality or undisturbed soil, water, and air;
          (2) Sources of public drinking water;
          (3) Diversity of plant and animal communities;
          (4) Habitat for threatened, endangered, proposed, candidate, 
        and sensitive species and for those species dependent on large, 
        undisturbed areas of land;
          (5) Primitive, semi-primitive non-motorized and semi-
        primitive motorized classes of dispersed recreation;
          (6) Reference landscapes;
          (7) Natural appearing landscapes with high scenic quality;
          (8) Traditional cultural properties and sacred sites; and
          (9) Other locally identified unique characteristics.

    36 C.F.R. Sec.  294.11. The recognized ecological values of 
inventoried roadless areas are the reason that new road construction 
and road re-construction are prohibited by the Roadless Rule. These 
values also merit special consideration for protection when planning 
for management of ORVs. Instead, Forests in the Southwest are proposing 
travel management plans that will actively open and degrade inventoried 
roadless areas.
    The BLM manages the National Landscape Conservation System 
(Conservation System), which is comprised of lands created by both 
presidential and congressional directive, is managed based on a mission 
of stewardship to: ``conserve, protect, and restore these nationally 
significant landscapes that have outstanding cultural, ecological, and 
scientific values for the benefit of current and future generations.'' 
Wilderness, wilderness study areas, national monuments, national 
conservation areas, and wild and scenic rivers are all included in the 
Conservation System. Failure to manage ORVs in these areas, where not 
only the Executive Orders but also additional authorities direct the 
BLM and FS to prioritize conservation and/or highlight their ecological 
values, is especially indicative of the problems in the agencies' 
travel planning processes.

                                EXAMPLES

  <bullet> Utah RMPs.--These six plans govern more than 5 million acres 
        of proposed Wilderness, including 1.8 million acres of WSAs. 
        The plans propose to designate motorized vehicle routes 
        throughout the WSAs and 92% of lands outside WSAs that the BLM 
        has recognized as having wilderness characteristics.
  <bullet> Grand Canyon-Parashant National Monument and Vermillion 
        Cliffs National Monument RMPs, Arizona.--The proposed plan for 
        each of these monuments designates two-tracks and barely 
        noticeable routes for vehicle use even though the Monument 
        Proclamations prohibit ``all motorized and mechanized vehicle 
        use off-road.'' In this case, the BLM is expanding the 
        definition of a road to accommodate more off-road vehicle use 
        in the monuments rather than protecting the natural and 
        cultural resources for which these national monuments were 
        created.
  <bullet> Steens Mountain Cooperative Management Area Comprehensive 
        Travel Plan, Oregon.--The BLM's travel plan designates so-
        called ``obscure routes'' in Wilderness Study Areas as 
        available for motorized vehicles, even though nobody, not even 
        the BLM, can find these routes on the ground. Off-roaders will 
        be sent out to search for them, inevitably damaging wilderness 
        qualities. In addition, the Steens Act prohibits use of 
        motorized vehicles ``off road,'' which is also bound to occur 
        in light of this designation. The Interior Board of Land 
        Appeals has recently stayed the implementation of this plan 
        because of the blatant disregard for protection of wilderness 
        qualities in sending motorized vehicles out to search for 
        obscure routes in areas that the BLM is supposed to be 
        protecting for their wilderness suitability.
  <bullet> Upper Missouri River Breaks National Monument RMP, 
        Montana.--espite a detailed analysis and substantial scientific 
        literature documenting the risks to sensitive wildlife 
        highlighted in the Monument Proclamation from the high road 
        density in the Monument, and numerous recommendations to reduce 
        the road network from biologists and the State of Montana, the 
        BLM has chosen to increase the miles of road for motorized use 
        between the draft and proposed plans. The designated road 
        network is likely to damage wildlife habitat, as well as the 
        remote character and cultural resources that led to the 
        designation of the Monument.
  <bullet> Western Oregon RMP Revisions--This revision addresses more 
        than 2.5 million acres of public lands in six RMPs for the 
        Eugene, Roseburg, Medford, and Coos Bay Districts and the 
        Klamath Falls Resource Area of the Lakeview District. In 
        addressing travel management for designated conservation areas, 
        including areas of critical environmental concern (ACECs), WSAs 
        and wild and scenic rivers, the Draft RMPs propose less 
        protection in all management alternatives--reducing or even 
        eliminating closures to ORVs for these areas, which include the 
        Elk Creek ACEC in the Salem District, the Camas Swale ACEC/
        Research Natural Area A in the Roseburg District, and the Rogue 
        Wild and Scenic River Corridor and the Soda Mountain WSA in the 
        Medford District.
  <bullet> Apache-Sitgreaves National Forest, Arizona.--This Forest is 
        proposing to open roads in inventoried roadless areas that are 
        currently identified as closed (maintenance level 1) in the 
        transportation inventory. Instead of protecting the ecological 
        values of these roadless areas, the Forest is actively 
        increasing their use--arguably violating the Roadless Rule's 
        prohibition on road reconstruction and certainly promoting 
        damage of acknowledged natural resources.

2. Fiscal Sustainability
    The BLM and Forest Service are designating road and trail systems 
that are fiscally unrealistic based on available and projected funding 
for construction, maintenance, monitoring, and enforcement. Roads and 
trails are expensive to construct and maintain whether they are 
asphalt, gravel, or dirt. There are substantial costs to construct and 
maintain culverts, bridges and other structures to prevent erosion and 
ensure visitor safety. The Taxpayers for Common Sense estimates the 
Forest Service, in particular, currently has a $10 billion road 
maintenance backlog (http://www.taxpayer.net/forest/roadless/
index.htm).
    Even where minimal construction or maintenance is required (as is 
the case for some routes on BLM lands), more routes require more 
enforcement to ensure compliance with travel plans and also require 
more monitoring to ensure that they are not causing unacceptable damage 
to natural resources.
    The FS regulations specifically require that, as part of 
designating routes and areas for motor vehicle use, the agency consider 
``the availability of resources for that maintenance and 
administration.'' 36 C.F.R. Sec.  212.55(a). Unfortunately, the 
agencies rarely, if ever, include an assessment of funding and 
resources required to implement proposed travel plans. As a result, 
travel planning decisions are not based on the practical realities 
associated with the designations. In many of the following examples, 
the agencies acknowledge that a lack of funding is foreseeable, yet do 
not adjust their travel plans, effectively abandoning their obligation 
to protect the public lands.
                                examples
  <bullet> The Cibola National Forest, New Mexico, includes the Sandia 
        Mountains, a popular place to visit just east of Albuquerque. 
        The travel analysis prepared included the following statement: 
        ``But based on road maintenance funding received over the 
        previous five years the Cibola N.F. can afford to fully 
        maintain only about 31% of the existing system.''
  <bullet> The Apache-Sitgreaves National Forest, Arizona reached a 
        similar conclusion. Their assessment concluded that the Forest 
        can only afford 33% of its road system.
  <bullet> The Lincoln National Forest, New Mexico, presented a more 
        distressing picture of road maintenance funding, stating that 
        the forest receives about $500,000 for road maintenance and 
        construction, but needs about $5.7 million to maintain its 
        2337-mile road system. The Forest reported that, ``The Forest 
        budget can only support 9% of the road system.''
  <bullet> The Black Hills National Forest, South Dakota, actually 
        references its obligation to designate a minimum road system 
        that is:

                  needed for safe and efficient travel and for 
                administration, utilization, and protection of NFS land 
                . . . strikes a balance between the benefits of public 
                access to NFS lands and the costs of road-associated 
                effects on ecosystem values, taking into account public 
                safety, affordability, and management efficiency.

    The Forest's analysis concluded that ``annual road maintenance 
funding is approximately 25 percent of what is needed based on [its 
known road system according to its database].'' Nonetheless, the report 
recommends maintaining all roads, such that, despite only having \1/4\ 
of the necessary funding to maintain the existing road network, most 
routes will remain open for public and private use. Not surprisingly, 
the Forest also concludes that, ``without new resources, the long term 
condition of NFS roads is expected to deteriorate.''

  <bullet> The Upper Missouri River Breaks National Monument RMP, 
        Montana, received repeated comments, including those of the 
        federal district court in the Montana Wilderness Association v. 
        Fry case, that emphasized the need for the BLM to assess the 
        costs of its management approach. However, the plan does not 
        analyze and compare the costs of mitigating the potential 
        damage to the Monument objects from management decisions, such 
        as keeping a high density of roads open in the vast acreage of 
        the Monument, or take into account whether sufficient funding 
        will be available to cover those costs. It seems unlikely that 
        the BLM will be able to meet its obligations to protect the 
        Monument from the foreseeable damage from ORVs.
3. Recreation sustainability
    The Executive Orders require the BLM and FS to ensure that 
conflicts with other recreationists, not using ORVs, are avoided. The 
BLM's Land Use Planning Handbook also specifically directs the agency 
to consider designation of special recreation management areas to 
provide a primitive recreation experience. H-1601-1, Appendix C, 
Section II.C. The majority of Americans who visit National Forests and 
BLM lands do so to experience wild lands and natural scenery, view 
wildlife, hike, hunt, or fish. The Outdoor Industry Association studied 
``active outdoor recreation,'' which was defined as only non-motorized 
activities: bicycling, camping, fishing, hunting, paddling, snow 
sports, wildlife viewing, trail-running, hiking, and climbing. The 
report found that active outdoor recreation contributes an estimated 
$730 billion to the US economy (Outdoor Industry Association, http://
www.outdoorindustry.org/research.new.php?action=detail&research_id=26 
). According to the U.S. Fish & Wildlife Service, in 2006 Americans 
spent $76.7 billion on wildlife-related recreation. (USFWS 2006, 
National Survey of Hunting, Fishing and Wildlife-associated 
Recreation--http://www.census.gov/prod/2008pubs/fhw06-nat.pdf ). 
Contending with dust, pollution and noise from off-road vehicles 
disrupts these experiences.
    Unfortunately, the travel planning efforts to date do not provide 
sufficient opportunities and areas for quiet, non-motorized recreation 
experiences.

                                EXAMPLES

  <bullet> Utah RMPs.--Despite the acknowledged opportunities for 
        primitive recreation and solitude in the nearly 3 million acres 
        with wilderness characteristics outside existing WSAs, the RMPs 
        do not include protection for these experiences, either through 
        designation of special recreation management areas or 
        management prescriptions. The Draft Monticello RMP would 
        designate more than 500,000 acres as special recreation 
        management areas, but only eight percent of this acreage 
        (43,507 acres) is proposed for backcountry use--ORV use is 
        identified as a primary activity in all other special 
        recreation management areas. Although the Draft Moab RMP 
        identifies about 25% of their special recreation management 
        areas as having a non-motorized focus, none of them incorporate 
        areas that are actually exclusively non-motorized. These RMPs 
        also do not take the opportunity to close motorized ways in the 
        1.8 million acres of WSAs, which would not only improve 
        wilderness values but also heighten the quiet recreation 
        experience.
  <bullet> Bangs Canyon Travel Management Plan, Colorado--The BLM 
        agreed with Colorado citizens that large portions of this area 
        had wilderness characteristics. However, the travel management 
        plan designated a motorized trail through this area.
  <bullet> Western Oregon RMP Revisions.--The recreation section of 
        these RMPs focuses on proposals to designate new ORV emphasis 
        areas, but fails to even consider comparable designations for 
        traditional, non-motorized recreational uses, such as hunting, 
        angling, hiking, horseback riding, or bird watching. For 
        example, for the 865,800 acres managed by the Medford District, 
        the RMP proposes 13 ORV Emphasis Areas, comprising 100,751 
        acres. While there are 3 proposed special recreation management 
        areas, only one, for the Pacific Crest National Scenic Trail, 
        and a portion of another, the Rogue National Wild and Scenic 
        River where it is managed for its ``wild'' values, is really 
        focused on providing primitive recreation opportunities--for a 
        total of less than 15,000 acres.
  <bullet> Apache-Sitgreaves National Forest.--The proposed management 
        for the inventoried roadless areas in this Forest would open 
        roads currently designated as closed, removing opportunities 
        for primitive recreation, such as enjoyment of wildlife, that 
        will no longer be available with increased motorized use.

    Legal challenges.--The glaring inconsistencies of the travel plans 
issued to date with the mandates of the Executive Orders, other 
applicable laws, and agency guidance, as well as responsible management 
of our public lands, has led to formal legal challenges. The travel 
plan for the Steens Mountain Cooperative Management Area has been 
appealed twice: first because the BLM failed to complete a 
comprehensive travel management plan altogether and then again because 
the plan tried to designate ``obscure routes'' that plainly violated 
the agency's obligation to protect the values identified in the Steens 
Act. The travel plans for the California Desert Conservation Area have 
also been subject to a number of challenges: the BLM has been directed 
by courts to close portions of the Algodones Dunes to ORVs to protect 
threatened and endangered plans and a current lawsuit challenges plans 
for other bioregions, including the WEMO, based on designations made 
without any reference to or use of the regulatory requirements, as well 
as ongoing failures to protect critical habitat. Unless firm and 
comprehensive corrections are implemented in the travel planning 
underway, there are likely to be more such challenges.
    Status.--The FS is in the process of creating travel plans system-
wide, with 108 currently underway. Of these, the majority are in the 
earliest stages of scoping or have not yet released a draft 
environmental document. The BLM is not subject to a specific rule 
requiring completion of travel plans, but is in the process of revising 
all of its governing land use plans, which inevitably addresses travel 
management decisions, and estimates 50 of these are currently in 
revision. (See, BLM Land Use Planning webpage: http://www.blm.gov/wo/
st/en/prog/planning.1.html ). The agency does not track completion of 
all travel planning efforts, especially where those plans are included 
in RMPs, although it highlights completion of nine. (See, BLM webpage 
showing completed travel plans: http://www.blm.gov/wo/st/en/prog/
Recreation/recreation_national/travel_management/
travel_mgt_planning.html). The Wilderness Society performed its own 
informal survey in 2006, which indicated that approximately 80 
comprehensive travel management plans have been completed or are close 
to completion. However, other than plans for units of the Conservation 
System, most of these travel plans are for small portions of different 
planning areas, such as individual areas of critical environmental 
concern or special recreation management areas. As a result, while many 
travel management plans have been completed, many more are still needed 
to address the vast acreage managed by the BLM.
    Based on the agencies' respective commitments to completing travel 
planning and the magnitude of acreage at issue, it is critical that 
these efforts be conducted correctly. Because the agencies have not 
completed plans for most of the lands they manage, there is still an 
opportunity for them to comply with direction to manage ORVs in a 
sustainable manner. The agencies should be directed to ensure that:

  <bullet> Travel plans must prioritize protection of the ecological 
        values of our public lands, including wildlife habitat, 
        wilderness values, soil, and water, as well as historic and 
        cultural resources. Use of ORVs cannot compromise these 
        irreplaceable resources. Units of the BLM's Conservation 
        System, cultural resources and other places with recognized 
        conservation values should receive special consideration for 
        management that will fulfill the purposes for which they have 
        been identified.
  <bullet> Travel networks should be defined by the agencies' available 
        budgets for construction, maintenance, monitoring and 
        enforcement.
  <bullet> Natural quiet and beauty of the public lands are without 
        question what most people seek when visiting public lands. 
        Interior Secretary Kempthorne and Forest Service Chiefs have 
        acknowledged impacts to visitor experiences from motorized off-
        road vehicle use. The agencies cannot overlook the importance 
        of providing visitor experiences that are not compromised by 
        destroyed scenic views and noisy interruption, which scares 
        away wildlife.

    The Wilderness Society and our partners appreciate the interest of 
the Committee in addressing the management of ORVs on public lands. 
Responsible management of ORVs is crucial to the health of our public 
lands and on our opportunities to enjoy them. We hope that the BLM and 
FS will embrace their responsibilities as stewards of these lands and 
use travel planning as a way to protect them. Thank you.
    This testimony is submitted on behalf of The Wilderness Society and 
the following: Colorado Mountain Club, Center for Biological Diversity, 
American Hiking Society, Wild Connections, Central Colorado Wilderness 
Coalition, Idaho Conservation League, San Juan Citizens Alliance, 
Wildlands CPR, High Country Citizens' Alliance, Wilderness Workshop and 
Winter Wildlands Alliance.

    The Chairman. Thank you very much.
    Mr. Powell, go right ahead.

      STATEMENT OF BRADLEY POWELL, WESTERN ENERGY AND ORV 
            COORDINATOR, TROUT UNLIMITED, PAYSON, AZ

    Mr. Powell. Good morning, Mr. Chairman and members of the 
committee. I appreciate the opportunity to appear before you 
today and provide the views of Trout Unlimited and many other 
sportsmen and women that depend on public lands. I've provided 
a written testimony and will briefly summarize my remarks, 
followed by my recommendations.
    My name is Brad Powell. I live in Payson, Arizona. I work 
for Trout Unlimited, a national organization with nearly 
150,000 members, dedicated to the conservation, protection, and 
restoration of North America's cold water fisheries and their 
watersheds. I also am a retired manager with the U.S. Forest 
Service, serving as a regional forester, forest supervisor, 
district ranger, national monument manager. In addition, I 
serve on the board of directors for the Arizona Wildlife 
Federation. I'm an avid sportsman, enjoying the rivers, trails, 
and public lands of the West. I'm intimately familiar with the 
use of off-highway vehicles on public lands as a recreational 
user and as an agency administrator for many years.
    My purpose today is to convey to you the critical need to 
implement and develop these travel management plans on Federal 
public lands. I'm not here to speak to you in opposition to the 
use of OHVs on public lands, but to ensure that their use is 
compatible with the land's capability, in particular fish and 
wildlife habitats.
    I began my work on public lands 40 years ago on the Tonto 
National Forest in Arizona. In my estimation, no use during 
that period of time has had the potential to cause the level 
and scale of long-term damage that unregulated OHV use has. 
Beginning in the 1980s and continuing until today, OHV use 
levels have exploded on public lands and with it the damage.
    While many ride responsibly, a growing number of 
irresponsible users are causing severe impacts by traveling off 
roads and trails, creating unauthorized routes. Unmanaged OHV 
use is destroying wetlands, impacting wildlife habitats, 
causing soil erosion, damaging important cultural resource 
sites, and spreading noxious weeds.
    I personally have observed many examples of damage by OHVs. 
In New Mexico on the Santa Fe National Forest, I vividly 
remember deep ruts and bog holes in prime elk habitat. On the 
Tonto National Forest in Arizona, there are areas that look 
like heavy equipment has cut deep incisions in the land. I've 
provided you some pictures to the committee that you can see 
some of that use in Arizona.
    I've witnessed OHVs chasing elk and deer in Montana. I've 
encountered OHVs in closed areas, including federally 
designated wildernesses. While working in Kentucky, Arizona, 
and New Mexico, I saw significant damage to some of the 
national forests' most sensitive riparian areas, damaging 
watersheds and valuable fisheries. These are some of my 
examples, but as I talk to other users of the public lands 
almost everyone has similar OHV horror stories to tell of their 
own.
    The budgets of the agencies responsible for the management 
of our public lands continue to tighten. More and more, the 
budgets are spent on wildfire suppression and oil and gas 
development and other needs; less and less is spent on 
protection of fish and wildlife habitat and managing the 
recreational opportunities.
    I firmly believe that our public land natural resources--
soils, watersheds, fish and wildlife habitat--cannot sustain 
the damage of unmanaged OHVs that is occurring today. In 
summary, I have great hope that the new travel management plans 
on the U. S. Forest Service lands will lay the foundation for 
greatly reduced natural resource damage from unregulated OHV 
uses. But these plans must be implemented effectively, not just 
be a plan.
    Looking ahead, I offer the following recommendations for 
your committee's consideration: No. 1, public cross-country OHV 
travel should be prohibited on all national forests and other 
Federal public lands, except for special OHV management areas.
    No. 2, a visible license plate or other form of 
identification should be used to identify every rider on public 
lands.
    No. 3, the United States Forest Service needs to develop an 
accurate cost estimate that it will take to implement travel 
management plans on their lands and have some plans to 
implement that.
    No. 4, a Federal funding mechanism should be implemented to 
fund increased law enforcement, user education, signage, and 
rehabilitation of damaged areas.
    No. 5, a standardized motor vehicle use map should be 
developed for each national forest in a consistent manner that 
provides adequate detail to inform the user of the open areas 
and serves as the legal notification for enforcement purposes.
    Finally, the Bureau of Land Management has no consistent 
national approach to travel management planning. They should 
adopt a similar approach as the U.S. Forest Service.
    Mr. Chairman and members of the committee, I sincerely 
thank you for this opportunity to talk with you today on this 
increasingly critical public land management issue which, left 
unmanaged, will continue to severely impact Federal public 
lands in this country. I would be happy to answer any 
questions.
    [The prepared statement of Mr. Powell follows:]

     Prepared Statement of Bradley Powell, Western Energy and ORV 
                Coordinator, Trout Unlimited, Payson, AZ

    Mr. Chairman, members of the Committee, I appreciate the 
opportunity to appear before you today and provide the views of Trout 
Unlimited and many other sportsmen/women concerned about the 
appropriate uses of public lands.
    My name is Brad Powell. I live in Payson, Arizona, which is located 
in the north-central portion of the state, within the Tonto National 
Forest. I work for Trout Unlimited, a national organization with nearly 
150,000 members dedicated to the conservation, protection and 
restoration of North America's coldwater fisheries and their 
watersheds. I also am a retired manager with the U.S. Forest Service, 
serving as a Regional Forester in two Regions, a Forest Supervisor, a 
National Monument Manager and a District Ranger. In addition, I serve 
on the Board of Directors for the Arizona Wildlife Federation. I am an 
avid sportsman enjoying the rivers, trails and public lands of the 
West. I am intimately familiar with the use of Off Highway Vehicles 
(OHV's) on public lands both as a recreational user and as an agency 
administrator for many years.
    I appreciate the privilege to speak to you. My purpose today is to 
convey to you the critical need to develop and implement travel 
management plans on our federal public lands. I am not here to speak in 
opposition to the use of OHV's on public lands, but to ensure that 
their use is compatible with the land's capability (particularly fish 
and wildlife habitats) and the needs of sportsmen/women, recreational 
users and others who rely on America's public lands for their 
enjoyment.
    I began my work on public lands 40 years ago, on the Tonto National 
Forest in Arizona. Since that time there have been numerous issues 
(including timber sales, grazing and endangered species) concerning the 
appropriate uses of our public lands. In my estimation none of those 
issues has had the potential to cause the level and scale of long term 
damage that unregulated OHV use has. Agency employees at the time I 
started my work with the U.S. Forest Service, and for many years 
thereafter, were proud that our lands were open for recreational use. 
Hunters, fishermen, campers, firewood cutters and other users could 
drive where they wanted, mainly with 4-wheel-drive trucks. The use of 
OHV's was minimal, mainly for administrative use. We sincerely believed 
that the relatively low amounts of use would cause little damage and 
were compatible with the natural resources we were charged with 
managing. To the contrary, beginning in the 1980s and continuing until 
today, OHV use levels on National Forests have exploded and with it the 
damage.
    The number of off-highway vehicle (OHV) users in the U.S. has 
climbed tenfold in the past 32 years, from approximately 5 million in 
1972 to over 51 million in 2004. The Forest Service manages more than 
300,000 miles of roads and 35,000 miles of trails for motor vehicle 
use. More than 11 million people using OHV's visited National Forests 
and Grasslands in 2004. In Arizona, the number of registered OHV's has 
grown from approximately 51,000 in 1998, to 230,000 in 2006. It is 
estimated there are now more than 350,000 OHV's in the state, and that 
number continues to grow at a tremendous rate. There are similar growth 
rates occurring across much of the country.
    While many ride responsibly, a growing number of irresponsible 
users are causing severe impacts by traveling off roads and trails, 
creating unauthorized routes. Unmanaged OHV use is destroying wetlands, 
severely impacting wildlife habitats, causing soil erosion, damaging 
important cultural resources and spreading noxious weeds. Former Chief 
of the U.S. Forest Service Dale Bosworth speaking at the All Terrain 
Vehicle (ATV) industry expo in Louisville Kentucky on October 14, 2004 
had this to say concerning OHV damage:

          You don't have to go far to see it. I could show you slide 
        after slide--tire tracks running through wetlands; riparian 
        areas churned into mud; banks collapsed and bleeding into 
        streams; ruts in trails so deep you can literally fall in; and 
        sensitive meadows turned into dustbowls. Water quality 
        deteriorates, soil erodes, and native plant communities 
        decline, partly because invasive weeds are spread by tires 
        going where they shouldn't be going.

    I have observed numerous examples of damaging uses by OHV's. In New 
Mexico, on the Santa Fe National Forest, I vividly remember the deep 
ruts and bog holes created in prime elk habitat. On the Tonto National 
Forest in Arizona there are areas that look like heavy equipment has 
cut deep incisions into the land. On a typical weekend day in the 
spring there is a dust cloud over the area that can be seen for miles. 
When you enter the site there is an amazing array of OHV's tearing up 
the hills and denuding the landscape of its desert vegetation. There 
are hills with cuts in them up to 10 feet deep that have been caused by 
the destructive riding. I have witnessed OHV's chasing elk and deer in 
Montana. I have encountered OHV's in closed sensitive areas, including 
federally designated Wilderness areas. While working in Kentucky, 
Arizona and New Mexico, I saw significant damage to some of the 
National Forests' most sensitive riparian areas, damaging valuable 
watersheds and important fisheries. These are some of my first-hand 
examples, as I talk to sportsmen/women and other recreational users of 
Federal public lands, almost everyone have similar ``OHV horror 
stories'' of their own.
    Another major concern is that the budgets of the agencies 
responsible for the management of our public lands continue to tighten. 
More and more of the budget are being allocated to suppress wildfires 
or manage oil and gas development at the expense of fish and wildlife 
habitats and hunting and angling opportunities.
    These concerns and others from across the country led to the 
development of a Travel Management Planning Rule for the Forest 
Service, finalized in November of 2005. The rule requires each National 
Forest to designate roads, trails and areas that are open for motorized 
use including decisions on where OHV use may occur. Each National 
Forest is required to publish a Motor Vehicle Use Map (MVUM) indicating 
those decisions. After the MVUM is published, any use of OHV's on 
routes or areas not identified on the map will be illegal. While there 
was no deadline for Forests to publish an MVUM in the rule, the Forest 
Service Chief directed each National Forest to complete their work on 
travel management by September, 2009. Virtually all of the National 
Forests are currently engaged in the development of these Travel 
Management Plans.
    I firmly believe that our public land natural resources (soils, 
vegetation, watersheds, and fish/wildlife habitats) cannot sustain the 
damage of unmanaged OHV use that is occurring today. It is my hope that 
the results of this process will be a well thought out, sustainable, 
managed system of roads, trails and areas that are approved for 
motorized and non-motorized uses including OHV's. This system should be 
balanced with the needs of other recreation users and within the 
capacity of the ecosystem. The identification and designation of the 
open roads, trails and areas is only the first step in developing a 
sustainable system. In the long-term, a significant increase in 
education, enforcement and rehabilitation of damaged areas is essential 
for the success of the Travel Management plans.
    In summary, I have great hope that the new Travel Management plans 
on U.S. Forest Service lands will lay the foundation for greatly 
reduced natural resource damage from unregulated OHV uses. My primary 
concerns are based on the diminished agencies' budgets, lack of 
personnel and commitment of the agencies to adequately implement these 
plans. The increased levels of enforcement, education and 
rehabilitation that will be needed are significant. I don't believe 
that the agencies are prepared for this implementation workload.
    Looking ahead, TU offers the following recommendations for your 
consideration:

          1. Public cross-country OHV travel should be prohibited on 
        all National Forests and other federal public lands except for 
        special OHV management areas and for special needs. In the 
        future, all illegally created user trails should be closed to 
        any public use.
          2. A visible license plate that can be used to identify the 
        rider needs to be mandatory for all OHV's used on public lands. 
        These visible license plates would greatly help in reporting 
        and deterring illegal activities, as illegal riders are now 
        essentially invisible. This may prove to be the single most 
        effective deterrent to illegal activities.
          3. The US Forest Service should develop an estimate of total 
        of total the costs to implement their Travel Management plans, 
        including necessary monitoring. The agencies need to develop a 
        funding strategy (including the use of partners) to implement 
        these plans.
          4. A federal funding mechanism should be implemented to fund 
        increased law enforcement, user education, signage and 
        rehabilitation of damaged areas.
          5. A standardized motor vehicle use map should be developed 
        by each National Forest in a consistent manner that provides 
        adequate detail to inform the user of the National Forest as to 
        what areas, roads and trails are open and closed. This map 
        should be developed in a way that insures that it is the legal 
        notification of open and closed routes.
          6. Finally, the Bureau of Land Management has no consistent 
        national approach to travel management planning. They should 
        adopt a similar process as the U.S. Forest Service to ensure 
        that these public lands have well thought-out-plans balancing 
        protection of their ecosystems with recreational uses.

    Mr. Chairman and members of the Committee, I sincerely thank you 
for this opportunity to talk with you today on this increasingly 
critical public land management issue, which, left unmanaged, will 
continue to severely impact our National Forest and other federal 
public lands in this country.

    The Chairman. Thank you very much.
    Mr. Adams, you're our final witness. Go right ahead.

STATEMENT OF FRANK ADAMS, EXECUTIVE DIRECTOR, NEVADA SHERIFFS' 
              & CHIEFS' ASSOCIATION, MESQUITE, NV

    Mr. Adams. Thank you, Mr. Chairman and members of the 
committee. Thank you for extending the invitation for me to 
address you here today.
    Besides my professional experience, I'm also a native 
Nevadan. I grew up hunting and fishing and enjoying my great 
outdoors there in Nevada, and I've owned and operated off-
highway vehicles all of my life. It is my privilege to testify 
to you today about the increased burden on local law 
enforcement that a growing minority of reckless off- highway 
vehicle riders and the need for effective management of these 
riders. We're seeing a tremendous impact in local issues.
    Approximately 96,000 of the 110,000 square miles of Nevada 
is held in trust by the Federal Government. BLM is responsible 
for over 48 million square acres and they police that with just 
28 uniformed officers and 5 special agents. The other Federal 
agencies in Nevada have similar jurisdictions and similar 
staffing problems. As you could imagine, this makes any kind of 
public lands law enforcement challenging, but particularly when 
given OHV technology today, their ability to cover vastnesses 
and remote areas over very short periods of time. It's tough to 
chase them.
    My fellow officers in the western States are facing similar 
type of problems. 14 of our 17 counties are considered rural. 
We have counties with 10 to 19,000 square miles of territory 
and very sparse populations. Many of those agencies only have 
between 15 and 60 officers to cover the entire area. Besides 
providing law enforcement services to these public lands, the 
sheriff is also required by law to conduct search and rescue 
missions throughout these counties. Search and rescue missions 
and the search and rescue responsibilities is commonly the duty 
of local sheriffs throughout the West, so we all experience 
these same issues. That request for search and rescue missions 
are going up every year. We see more and more requests for 
those assistance.
    In my conversations with the counterparts in the other 
western States, I find that the issues of large jurisdictions 
and small agencies prevail throughout our region. It's not an 
individual problem to Nevada. With such large land masses and 
so few law enforcement officers, it doesn't take a large group 
of individuals disobeying the law to cause us a problem.
    One of the things I think that really contributes to the 
reckless behavior is the feeling of anonymity that these riders 
have. There is no way of identifying the riders or the vehicles 
that they have under the current systems we have today. We have 
seen our pristine areas disturbed by off-highway vehicle riders 
for the thrill of an exciting ride. We have seen them use their 
off-highway vehicles to chase elk and deer through the trees in 
hopes that they knock their antlers off, to be collected and 
sold. We have seen water in streams and in ponds diverted into 
meadows and lowlands to run their vehicles through as mud bogs 
for the weekend.
    How do we solve these problems? How do we approach solving 
these problems? Joint cooperation in the enforcement of Federal 
regulations I think is a key to that, at the local level and 
the State and the Federal level. It'll take a joint effort to 
do this. This issue has been on my association's agenda and the 
Association of Western Sheriffs for a number of years, and it's 
got to be a joint effort. A good example is Colorado that was 
spoken about earlier. They passed a law making Federal 
regulations of closed roads a State issue.
    Some specific issues that I would like to talk about with 
regards to possibly mitigating the circumstances and the 
problems out there is that, one, we could expand the 
cooperation between local and Federal law enforcement. That has 
to be done. There needs to be a continual training and 
additional resources provided to local law enforcement 
officers.
    We also need to take a look at the education of the public 
to the seriousness of the problem and the consequences of their 
reckless behavior. As mentioned earlier, I think we need to 
have a standard identification and licensing and tagging of 
vehicles. There's not a way to do that. Many of the people that 
come into Nevada and to the other States come in as out-of-
State residents to recreate and there's no way to identify 
those vehicles.
    The other issue that was brought up by one of my sheriffs 
is to encourage or even require basic safety equipment on these 
off-highway vehicles, methods of locating and identifying those 
people in need of help when we have to respond with our search 
and rescue units.
    Attempts have been made in Nevada to regulate off- highway 
vehicles in the past, but the one thing that's always been 
missing is that the law enforcement component has not been 
included. It's got to be part of the problem's solution. I fear 
that that may be the situation when we talk about Federal 
regulations, but I am encouraged by what I've heard here this 
morning, that there will be a law enforcement component.
    I'd like to applaud the committee for its leadership in 
looking into the issues of grave importance to us on public 
lands and realizing that that's a heritage that we need to 
preserve for all Americans to use and to enjoy. We don't want 
to see a small minority of people ruin it for all of us. So by 
focusing on enforcement and education we can solve this 
problem. But it's not just a Federal problem, it's not just a 
State problem, it's not just a local problem; it's all of our 
problems to solve. If we don't do something about it now, the 
problem is just going to continue to increase and we're going 
to see much more damage to our lands and more people injured 
and perhaps a situation where we can't afford to correct it.
    Thank you, sir.
    [The prepared statement of Mr. Adams follows:]

Prepared Statement of Frank Adams, Executive Director, Nevada Sheriff's 
                  & Chiefs' Association, Mesquite, NV
    Good morning Mr. Chairman and Members of the Committee. Thank you 
for extending the invitation to me to address the committee today.
    My name is Frank Adams, the Executive Director of the Nevada 
Sheriffs' and Chiefs' Association. Through this association, I 
represent the 17 elected Sheriffs, 13 municipal Police Chiefs and most 
other local, state and federal law enforcement chief executives 
officers in Nevada. I am a 38 year veteran of Nevada law enforcement, 
having worked at the local, state and federal level. Besides my 
professional experience, I am also a native Nevadan who grew up 
hunting, fishing and just enjoying the great outdoors of our State. I 
have owned and used a number of off highway vehicles (OHV) for all of 
my adult life. My wife and I enjoy using our four wheel drive truck and 
our ATV to travel the back roads of Nevada. So I speak to you today as 
a representative of local law enforcement from Nevada and as a long 
time user of our public lands.
    On behalf of the Nevada's Sheriffs and Police Chiefs, it is my 
privilege to testify before you today about the growing burden on local 
law enforcement caused by a growing minority of reckless OHV riders and 
the need for effective management.
    When Nevada was admitted to the Union in 1864, one of the 
prerequisites for State Hood was all non-deeded land was to become 
property of the federal government. Today that situation still remains 
with approximately 87% of the land in our State being held in trust by 
the Federal Government. That is 87% of 110,540 square miles or about 
96,000 square miles. As you know, the Bureau of Land Management, U.S. 
Forest Service and the National Park Service are charged with 
protecting and managing this land for the good of all Americans. This 
is a vast amount of land to try to protect and manage. BLM is 
responsible for 48,000,000 square acres and they police that land with 
just 28 uniformed officers and 5 special agents. Of those 28 uniformed 
officers, 16 are assigned to Southern Nevada. The Ely District which is 
in Northeast Nevada has two officers patrolling 6,000,000 acres of 
land. The U.S. Forest Service and National Park Service have even few 
officers. As you can imagine this makes any kind of public lands law 
enforcement challenging, but particularly with OHVs given the 
technology that allows users to cover vast distances in remote areas 
over a short period of time. My fellow officers in other Western states 
face a similar dynamic.
    Fourteen of our 17 counties are considered rural counties and they 
make up a greater portion of the State. Our local law enforcement 
agencies outside the urban areas have similar staffing problems as the 
federal agencies for the area they have jurisdiction over. A good 
example of this is Elko County located in the northeastern part of our 
State. Elko County is one of the more populated of our rural counties 
but it has 17,000 square miles of land. The Sheriffs' Office has just 
55 officers available to provide for law enforcement services outside 
the city limits of three incorporated cities in the county. This number 
also includes officers required to run the county jail. Another example 
of our rural counties is Lincoln County with a population of 
approximately 4,500 people and 10,637 square miles of land. The 
Sheriff's Office which is the only local law enforcement in the county 
has just 15 officers which also include officers to run the county 
jail.
    Besides providing law enforcement services throughout their county, 
the Sheriffs are also required by Nevada law to be responsible for any 
Search and Rescue calls within their jurisdictions. In Northern Nevada, 
there are three or four Search and Rescue missions per month dealing 
with OHVs. In 2007 in Clark County where Las Vegas is located the 
Sheriffs' Search and Rescue teams responded to 98 missions involving 
OHVs. So far this year they have responded to 24 Search and Rescue 
missions. Although Clark County (i.e. Las Vegas) is considered an urban 
county, there is still a total of 8,091 square miles of land in the 
county. Search and Rescue responsibility is commonly the duty of the 
local Sheriffs thorough out the west. In my conversations with my 
counter parts in the other western states, I find that the issues of 
large jurisdictions and small agencies prevail through out our region.
    With such great land masses and so few enforcement officers, it 
does not take a large group of individuals disobeying federal and local 
laws to cause a problem. We have determined that a small number of 
individuals riding OHVs that use our outdoors for recreation are 
causing the problems. They are reckless in the operation of their 
vehicles; they disregard instructions to stay off of sensitive lands 
and are destructive to the facilities that are provided for their use. 
This is evident by the increase in the number of injuries that are 
being reported and the increase in the number of search and rescue 
mission that occur. We see blatant disregard for areas that are posted 
as ``do not travel'' as they have been designated sensitive areas. Part 
of the problem that encourages this reckless behavior stems from the 
feeling of anonymity that many of the OHV riders have because there is 
no way of identifying them or their vehicles. Most States do not 
require a license plate for such vehicles. Those States that do require 
tagging, the tags are not large enough to be seen with out being in 
almost on top of the vehicle. If you are able to determine that there 
is a tag on the OHV, determining the tag number is almost impossible.
    When I was an activity duty officer, I have worked a number of 
cases where irresponsible individuals have disturbed streams and 
springs to plant marijuana gardens. (Yes, marijuana will grow in the 
desert with enough water). Or have dumped by-products of drug labs in 
our deserts, on our watersheds and in our lakes. We have seen pristine 
areas disturbed by OHV riders for the thrill of an exciting ride. Elk 
and deer horn hunters have used their OHVs to chase the animals through 
the trees in hopes of knocking their antlers off so they could be 
collect for sale. Our Division of Wildlife has confiscated a number of 
OHVs that have been used in poaching operations and harassing of 
animals. We have even seen incidents where individuals have used 
dynamite to blow up restrooms built by the Forrest Service. The reason 
that they gave for committing such an act was they thought it would be 
fun and they didn't think they would get caught.
    Wyoming officers have reported to me that they have had OHV riders 
taking to the high ridges off the marked trails to harass and chase the 
Elk herds. This has caused them to leave their natural habitats and 
disturbed the herd's normal activities. Colorado has reported that they 
have had problems with OHV riders diverting water into meadows and low 
areas to make a mud bog to ride their vehicles through. This does 
irreparable damage to some of these very sensitive lands.
    The topic of joint cooperation in the enforcement of federal 
regulations on public lands has been on the working agenda of my 
association and that of the Western States Sheriffs' Association for a 
number of years. In order to try to get a handle on these problems, it 
will take a joint effort by all of the law enforcement resources 
available. In Colorado, they just passed a State law the makes the 
violation of federal road closure rules a State violation. The adoption 
of federal regulations as State law is an approach that will help the 
problem, but it always comes down to a matter of resources. Speaking 
for Nevada, many of the local and state agencies are working on or have 
memorandums of agreement between themselves and the federal agencies 
such as BLM, US. Forest Service and National Park Service. More work 
needs to be done in this area to insure all our resources can be 
applied to the successful management of OHV on public lands. As you 
conduct oversight over Federal Agency plans for managing OHV use on 
public lands, I would encourage you to ensure there is a law 
enforcement component in that planning process. Specific actions that 
can help mitigate this problem before it spins out of control include:

          1. Continued and expanded cooperation between federal and 
        local law enforcement
          2. Training for local officials and law enforcement officers 
        on the joint protection of our public lands
          3. Resources for our law enforcement agencies to complete 
        their mission on public lands
          4. Education of the public regarding the seriousness of the 
        problem and the consequence of such reckless behavior
          5. Consideration of some type of identification system for 
        those OHV that are not licensed highway vehicles.
          6. Federal incentives to States to implement plating of the 
        vehicles and perhaps inclusion of points against drivers 
        licenses for reckless operation of OHVs
          7. Encourage the use of basic safety equipment such as 
        signaling devices, ground location panels, and with new 
        technologies. i.e. GPS locators

    The Nevada Legislature considered a law last session regarding the 
licensing and titling of OHV. The big problem that we saw with this 
bill was that it left out a law enforcement component. The funds that 
were to be raised by this system would have gone to developing trails 
which is a admirable thing, but no consideration was given to providing 
resources to the law enforcement agencies that have to enforce this new 
law. I fear that there will be a similar absence of enforcement 
components in the BLM and Forest Service travel planning. If this bill 
is presented again in the legislature, we will be there again trying to 
make sure that law enforcement has the resources to provide the 
enforcement required to protect our public lands and the safety 
services that our OHV users need while using those lands.
    Thank you again for the opportunity of addressing this committee 
and allowing me to share with you some of the issues that are facing us 
in the Western States. I would like to applaud the committee's 
leadership in looking into this issue of grave importance. Public lands 
are a heritage that we need to preserve for all Americans to use and 
enjoy. We do not want to see a small minority of irresponsible 
individuals ruin that for those of us that love the outdoors and all 
that benefits it provides. By focusing on enforcement and education we 
can solve this problem and improve the quality recreation for everyone, 
but if we continue to operate as we are now, the problems we are 
experiencing will only increase.

    The Chairman. Thank you. Thank you all for your good 
testimony.
    Let me ask a couple of questions about this issue of 
licensing and having some standard identification on these 
vehicles. I think, Mr. Adams, you were referring to the problem 
of anonymity, where people are going into the public lands and 
doing damage and violating rules of various kinds, but it's 
impossible to tell who they are in any reasonable way without 
catching up to them.
    What is the status on this? Are there some States that are 
requiring license plates on these off-highway vehicles and 
others that are not? Is that the current status? Is there any 
thought about having a uniform rule for if you're going on the 
national forest land or you're going on the BLM land you've got 
to have identification of the following kind? Any kind of rule 
like that being contemplated anywhere?
    Let me ask Mr. Adams first, then Mr. Powell and anybody 
else who wants to comment.
    Mr. Adams. Mr. Chairman, thank you very much. It's a State 
by State situation. It's my understanding that Wyoming has a 
licensing law where they actually put license plates on them 
similar to a motorcycle license plate. In Nevada we have 
absolutely nothing. I have an ATV that's registered in Utah--I 
have a little tiny sticker that goes on the back of it, and I 
almost need a magnifying glass to read the number off of it in 
order to tell who that sticker belongs to.
    So I think that there needs to be some standardized policy, 
just like you have to have a license plate on your vehicle on 
the highway. We all have pretty well standardized that 
throughout the Nation, and that would be my recommendation, to 
look at some standardized licensing and tagging system where 
those people lose that anonymity and it will reduce the number 
of problems we have out there.
    The Chairman. Mr. Powell, did you have a thought about 
this?
    Mr. Powell. I would just support what Frank said. It is 
State by State. Many States have no requirement at this point 
in time. You run from sticker systems in some States to 
licensing in some States. I think we need some mandated system 
that at least as a minimum carries some level of 
identification. I know when it gets to licensing that's often a 
State issue, but from a Federal standpoint it looks to me like 
that we could require some type of a designation, whether it's 
a large sticker, not these little two-inch stickers that they 
currently use in some States.
    But people are invisible today and as they do things that, 
particularly if we're going to look at volunteers and other 
groups other than law enforcement, there's no way for those 
folks to turn in someone that's doing illegal activities today. 
They can only say it's a blue motorcycle. They don't have any 
idea----
    The Chairman. It does seem like, even though licensing is 
historically and traditionally and appropriately a State 
function in our country, we do have certain requirements that 
State licenses--if you want to drive a vehicle on the public 
highways, you've got to have a license that is visible, that 
can be traced back to that vehicle. Having some kind of 
requirement, if you want to bring an off-highway vehicle into a 
national forest you've got to do the same thing, you've got to 
have enough identification that people can tell who you are in 
case they need to run that down.
    Is this a radical idea? It doesn't seem that radical to me. 
Mr. Moreland?
    Mr. Moreland. Thank you. One of the concerns that riders 
have is a system that overly burdens law-abiding citizens. For 
example, in Ohio owners of off-highway motorcycles already are 
required by the State to title and register the vehicle. That's 
one fee and one opportunity to interact with our government. 
The second one is a State fee and a decal, which has a number 
and identification that's tied back to the riders, with a 
separate fee and a separate interaction.
    The third one is if you travel on Federal lands you have to 
get another permit, with another fee and another decal that 
allows you to travel on Federal lands. Three opportunities for 
identifying the vehicle, the vehicle owner, and paying fees.
    The idea that a plate would somehow allow law enforcement 
or other volunteers to identify law-breakers strikes me as a 
good intention, but might be overly burdensome to people who 
have already gone through three opportunities to identify their 
vehicle. It also in a wooded situation or on vast tracts of 
land where it's likely that you're going to have few 
opportunities to actually identify a plate as it's riding away 
from you through the woods, it may just be an opportunity to 
overly burden people who otherwise would obey the law. Those 
people who are willing to ride where they're not supposed to be 
and break that law are probably just as likely not to obey the 
law to put a plate on their bike.
    The Chairman. Of course if they didn't put a plate on their 
bike then you'd be able to keep them off the national forest. I 
mean, presumably you wouldn't have to find any other violation. 
You'd say this vehicle is not properly identified, not properly 
plated, and accordingly you can't use it here; it doesn't 
matter whether you use it properly or don't use it properly, I 
would think.
    Senator Craig.
    Senator Craig. Thank you, Mr. Chairman.
    I'm sitting here listening to this dialog thinking: Oh, a 
new license; oh, a new fee. We have license plates for our RVs, 
our off-road vehicles in Idaho, and I know the frustration that 
the public has in our effort to try to shape response. It seems 
like we're only proposing an identifiable tool for somebody who 
rides a vehicle versus somebody who hikes, fishes, hunts, does 
other things. I guess they're on their feet and so you can run 
them down faster, so you don't worry about them getting away, 
so they don't need a visible tag on their body.
    Now, that's carrying it to the extreme, but it is another 
one of those restrictions or shaping of controls that I know 
frustrate people. They are certainly going to frustrate my 
citizens of Idaho a good deal who think they are law-abiding, 
although I'll agree with you, Frank, there are some who are 
not, and they are the ones who frustrate us.
    But let us not dramatize those totally, because 99 percent 
are effective and with educational programs maybe we can make 
it 99.9. But you're still going to have the bad actor out 
there.
    Brad, it's good to see you again. I remember when you were 
in region 1 and thank you for your service there. You talk 
about or you have dramatized certain situations that you saw 
that were obviously environment or habitat destructive. Was 
there any law enforcement effort at that time to block or stop 
that from happening?
    Mr. Powell. There was, Senator Craig. In some of those 
instances there were actually citations issued as a result of 
that. Some of them we actually encountered and were not able to 
do anything about it.
    Senator Craig. The reason was the inability to identify the 
perpetrator or you got there after the fact?
    Mr. Powell. Some of it was we got there after the fact, 
some of it was we couldn't identify them. We were horseback and 
they were ATV-back and they won that race.
    Senator Craig. You couldn't get that Forest Service mule to 
move fast enough, is that it?
    Mr. Powell. We could not.
    One comment just to your earlier thought, though, and I'd 
use Arizona as an example. There's legislation at the State 
level in Arizona today that has brought a broad coalition all 
the way from the Sierra Club to the four wheel drive groups to 
the NRA to virtually every group in the State that has agreed 
with some type of vehicle registration. Now, it's taken a lot 
of negotiation and discussion, but it was a one-time fee, it 
wasn't three or four fees. It would be used on the public 
lands. It would work anywhere throughout the State.
    So I believe that can be done.
    Senator Craig. I believe it can be done, too, because we do 
it in Idaho, and for a variety of reasons. First of all because 
a four-wheeler or a two-wheeler is a licensed vehicle and needs 
to display that they are licensed. A small sticker on a bumper 
or on a fender sometimes doesn't get us there.
    It also is a way of collecting a fee to be used for a 
variety of reasons, whether it's a snowmobile--then you use it 
for trail maintenance and do those types of things. You may 
work cooperatively with a local recreational group or a local 
off-road vehicle group or with the feds, BLM or Forest Service, 
in cooperative trail maintenance, management, signage, and all 
those kinds of things. So it is a way of collecting a resource.
    I thank you for that.
    Ms. Culver, I find it interesting that you would single out 
the Sawtooth. I just sat down for a couple hours with the 
supervisor of the Sawtooth National about a month ago, to go 
through their travel management plan. I was struck at the time 
with the thoroughness by which they had approached it. I'm 
certainly not criticizing your observation or the observation 
you quoted of the Idaho Fish and Game. But it was my 
observation at the time, after having poured over all of the 
maps, looked at their schedule of public hearings, public 
input, response, that they had done a very thorough job and 
that there were some reacting. They were reactions of 
personalities more than they were reactions of substance, 
because somebody didn't quite get their way as we balanced this 
out.
    I looked very closely at the South Hills, which is an 
important area potentially for mountain and some domestic sheep 
and it's probably the more accessible part of the Sawtooth as 
it relates to off-road vehicle access. So I have taken a very 
critical eye at that, both in process and in detail, and I'm 
not always as affirmative of Forest Service action as I ought 
to be. However, in this case, I thought they did their job 
well.
    Now, I've also been over on the Jarbridge and in the 
Owyhees looking at those travel plans and I think you've given 
them credit as you should. They have done some good homework 
there. They've tried to balance these resources. But I'm one of 
those people who goes out and looks at the detail. I go to all 
of my forests and my forest supervisors' offices. I sit down 
with them, and I spend hours with them, because I know of no 
other thing in my State at this moment, other than a wildfire 
that's burning the place up, that is more intensely observed by 
local citizens than travel plans.
    But I thank you for your observations.
    Cooperative relationships with all of the stakeholders is 
what will make this thing work. Of course, Greg, I grew with 
the BlueRibbon Coalition being a very small little group 
starting to organize in Pocatello and Idaho Falls, and I've 
watched them grow today to a sizable influence. I thank you for 
your effort.
    But you've said it well. It's when everybody comes to the 
table and doesn't approach it in a negative manner, but 
approaches it, in a manner that says how do we fix this 
problem, how do we educate, an train, so we can protect our 
resources while assuring access recreationally.
    Ed, thank you for your testimony. Thank you all.
    The Chairman. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman. I also want to 
thank the panelists today.
    The first question, I'd just like a simple yes or no, and I 
want to start with Ed and we'll go to Frank, right down the 
line. Do you feel that you've been adequately involved in 
travel management plans and forest plans? Do you feel you've 
had the opportunity to be adequately involved? Yes or no would 
work.
    Mr. Moreland. Not in all case.
    Senator Tester. OK.
    Mr. Adams. Yes.
    Senator Tester. OK.
    Ms. Culver. Not in all cases.
    Senator Tester. All right.
    Mr. Mumm. Yes.
    Mr. Powell. Yes, I believe we have.
    Senator Tester. OK, good. This is for the motorized users, 
although I would like the other conservation folks to answer it 
too. Are you involved in any collaborative partnerships with 
people that you traditionally are struggling with to find 
common ground? For instance, are the motorized users working 
with conservationists, and vice versa? Are you working with--
we're talking about partnerships. Are you working with those 
folks to try to find common ground, and vice versa? Are the 
conservationists working with any of the motorized groups?
    Go ahead, Ed.
    Mr. Moreland. We certainly look for every opportunity to 
partner with anyone who's interested in collaborating. We work 
with a lot of organizations in southern California and across 
the West.
    Senator Tester. That would be considered conservation 
groups?
    Mr. Moreland. We've had conservation groups at the table 
with us--
    Senator Tester. Good.
    Mr. Moreland [continuing]. In some of those efforts.
    Senator Tester. I think that's healthy.
    Greg.
    Mr. Mumm. Again, we make every good effort that we possibly 
can to do that as well. I could cite you several examples.
    Senator Tester. Good, I applaud that.
    Nada.
    Mr. Mumm. Pardon me?
    Senator Tester. I applaud that. Thanks.
    Ms. Culver. Yes, I think we do make every effort when we 
get the opportunity as well.
    Senator Tester. Good.
    Brad.
    Mr. Powell. Yes, we are.
    Senator Tester. OK.
    Mr. Adams. We're starting to. It's a slow process.
    Senator Tester. Thank you.
    If there were--and this goes to--I think the others have 
answered this. But if there were no fees--and this goes to Greg 
and Ed, if there were no fees with a license or a decal that 
was big enough for people to see, people like Frank, would you 
be opposed to it?
    Mr. Mumm. We'd have to discuss it, specifically what the 
process would be.
    Senator Tester. Let's just take for example, if we were to 
say to Ohio, because that's the example you brought up--I have 
no knowledge of it. If we were to say to Ohio that the numbers 
have to be big enough so you could see them from 100 feet away, 
by a normal person, would you be opposed to that if there was 
no additional fee involved?
    Mr. Moreland. I still don't believe it's needed, whether or 
not there is a fee required. In Ohio specifically, on the 
opening day of their national forest system, when they have the 
greatest impact and attendance to their forest lands, they were 
able to adequately enforce their rules on their property with 
the existing sticker program, without the need of a license 
plate system.
    Senator Tester. OK. How about you, Ed--Greg?
    Mr. Mumm. You know, it's a bit of a struggle to answer that 
yes or no, simply because obviously we're open to looking at 
whatever solutions are necessary. But I got to tell you, I kind 
of agree with Ed that it appears on the surface to be a level 
of bureaucracy that creates a lot more questions than it does 
answers or solutions.
    Senator Tester. Although I will tell you, anonymity is kind 
of neat. You know, I live in Montana and I like to be 
anonymous, and I lose it when I come back here. It's always 
good to get back on the farm and you're away from everybody. So 
I get it.
    But if there was no added bureaucracy, is what I'm saying. 
If we mandated that county governments--and they'll love me for 
this--would have to eat these costs, just to put a little decal 
that was a little bigger, that's all I'm talking about. But 
that's fine. That's OK. That's your perspective, and it's a 
good one, by the way.
    The books that you showed, Ed, is there anything in there 
on chasing wildlife, chasing game?
    Mr. Moreland. Certainly that's not something I don't 
believe that the books cover, chasing wildlife. All of the 
educational materials circulated by AMA or BRC or NOHVC or our 
other partners, that is something we would absolutely----
    Senator Tester. I would assume that you would be very, very 
opposed to something like that.
    Mr. Moreland. Absolutely. Not only would we discourage 
that, we would encourage law enforcement to prosecute anyone 
who is caught doing something like that.
    Senator Tester. Let's talk about that for a second, because 
I had asked the previous panel about it. I relate it back to 
elementary school. If you go out on the playground and you get 
in a fight during recess, pretty soon they take your recess 
away from you. Would you be opposed to multiple offenders to 
have their right to go on public lands be taken away?
    Mr. Moreland. The bill that we support in the House 
provides for substantial increased penalties for those who 
willfully and wrongfully violate public land use.
    Senator Tester. Are we talking money?
    Mr. Moreland. We're talking money, misdemeanors. Yes, it's 
more, much more substantial than it is now. It also unifies the 
rules between BLM, Park Service, and Forest Service.
    Senator Tester. Do you know off the top of your head what a 
person would get penalized for, say, the second time if they 
left an area where motorized off-road vehicles were supposed to 
be?
    Mr. Moreland. Senator, I don't know off the top of my head, 
but I'm more than happy to provide that to you.
    Senator Tester. That would be good. If you have it, what 
the current penalty would be, because I really don't know. I 
just don't know.
    Mr. Moreland. That varies from forest to forest, from 
public land to public land.
    Senator Tester. OK. I want to thank you guys for taking the 
time to be here today. I really appreciate each and every one 
of your testimonies, and hopefully we can find common ground 
and make this thing work. Obviously we need a few more bucks.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Just to follow up a little bit with Senator Tester's line 
of questioning. Mr. Moreland, Mr. Mumm, you've indicated that 
you don't think that licensing necessarily is the way to go. I 
think it was you, Mr. Adams, who said, you know, you've got 
some bad actors out there and they are the minority, we 
recognize that. But when these bad actors do what they're not 
supposed to be doing, it puts additional pressure from others 
to say, enough already, we're going to cutoff access, we're 
going to limit, we're going to further restrict.
    So in your opinion, how do we deal with the irresponsible 
users? Is it just a matter of sufficient funding for law 
enforcement? Is it ensuring that we have adequate resources for 
the education so that they're not irresponsible because they 
don't know, they've been educated?
    You're not sure that licensing is the way to go. Is there 
some other way, any other mechanism, that we keep the few that 
are causing the problem, that ultimately will be the ones that 
you're having to fight with when you're trying to keep further 
restrictions from coming at you? Any other suggestions?
    Mr. Mumm. I'd like to approach that just a little bit, 
because I think that it's important to point out here that we 
typically--the groups that are proponents of the heavier law 
enforcement and the concerns that we have with there's no 
amount of money you can throw at this law enforcement to solve 
the issue, we're looking at apples to oranges here. The 
directions that we're moving now, it's different than what the 
historic management prescription has been.
    I would agree that under the historic management 
prescription or lack of management it is a huge problem. But as 
you move toward designated route systems, as you move toward 
management that is active, what you have is that's the orange 
compared to the apple. You've literally--because now you've 
introduced things like control points instead of trailheads, 
because you introduce designated routes where the officers know 
where, know how, know when to patrol, whereas when you had the 
historic where it wasn't managed you don't even know where to 
start, and it's going to pop up here to there to everywhere.
    So the thing that I think it's important to stress here is 
that you need to take a look at law enforcement from the 
concept of an active management system. Those systems that are 
out there that are proven to work, some of which we mentioned 
here today, do not experience the same issues that historically 
everybody keeps pushing on.
    Enforcement's only one element of the mix. You need to 
design those systems around compliance, more so than around 
enforcement, because what you're doing by providing those 
systems where people want to be on those trails, because they 
want to be because it provides them with a quality of 
experience, not because they have to be, and when those folks 
are given ownership in the process to get there you introduce a 
whole completely different element than what everybody keeps 
pushing on, this law enforcement thing.
    Senator Murkowski. So it really comes down to active, 
active management. Many of you have----
    Mr. Mumm. In short, if it's gotten to the point that you've 
got to hang a big old sign around their neck that says they're 
an offender, you already lost.
    Senator Murkowski. Let me ask one question of you, Ms. 
Culver. Your testimony seems to suggest that our current 
Federal land use practices favor the motorized recreationalist 
over the non-motorized or the quiet recreationalist, as I had 
suggested. When I asked Mr. Bisson about that he seemed to 
indicate that there's plenty of public lands out there to 
accommodate both. We've got wilderness that is specifically set 
aside, where there is no motorized access.
    Do you believe that we have room in our public lands for 
both?
    Ms. Culver. I do believe we have room for both. The fact of 
the matter is, just for instance looking at the BLM lands right 
now, 4 percent of those 258 million acres are actually closed 
to off-road vehicles. We're not talking about a vast 
overwhelming effort going on to take, to keep land away from 
other users. We are talking about a need to accommodate the 
quiet recreation user and to make sure that those people have 
an opportunity to experience naturalness and quiet and 
solitude. There is ultimately room, but only if the travel 
plans that are created take all that into account, which of 
course requires full participation from everybody, and also I 
think requires that we do look at the ecological health of the 
land, because one of the things everybody likes to enjoy on our 
public lands is the water and air and wildlife and wilderness 
that Dr. Belnap already talked about was being impacted by just 
the current systems existing on the ground right now.
    Senator Murkowski. I'm glad we agree that there is room for 
both.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Let me thank all the witnesses again for being here. I 
think it's been useful testimony. We will conclude the hearing.
    [Whereupon, at 11:31 a.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Responses of Joel Holtrop to Questions From Senator Bingaman

    In March 2007, the Forest Service issued a series of draft 
directives to help provide its land managers with more specific 
guidance regarding implementation of the new travel management rule. 
Forest Service units are scheduled to complete plans for nearly half of 
the Forest Service acreage in the next four months and the rule 
recognized that units need to begin travel planning 1-3 years before 
they are able to complete the motor vehicle use map.
    Question 1. When will the Forest Service finalize the directives?
    Answer. The directives should be finalized in the near future. In 
the meantime, however, the Travel Management Rule provides adequate 
direction for its implementation. The rule specifically identifies 
designation and public participation requirements; the requirement for 
coordination with federal, state, and local governmental entities and 
tribal governments; and the criteria which must be considered when 
making designation decisions. In addition, a Motor Vehicle Route and 
Area Designation Guide was issued in 2005 to provide guidance pending 
promulgation of directives. To enhance consistency in implementation of 
the rule, training sessions were conducted for each region of the 
Forest Service.
    Question 2. We have seen a number of travel management proposals to 
completely maintain or expand road and trail systems that are 
admittedly far beyond the Forest Service's fiscal capacity to maintain. 
We also know from experience that a fiscally unsustainable trail system 
will not be environmentally or socially sustainable.
    Does the Forest Service support designating OHV travel systems that 
it does not believe are fiscally sustainable?
    Answer. The Forest Service supports the concept of a sustainable 
system of routes and areas for motor vehicle use. The availability of 
resources is a consideration in designating routes and areas for motor 
vehicle use. Section 212.55(a) of the Travel Management Rule includes 
as a criterion for designation ``the need for maintenance and 
administration of roads, trails, and areas that would arise if the uses 
under consideration are designated, and the availability of resources 
for that maintenance and administration.'' This determination involves 
the exercise of judgment on the part of the local forest supervisor or 
district ranger. At times, resources are scarce, but a lack of 
resources does not result in blanket closures of National Forest System 
(NFS) lands to recreational users. Volunteers and cooperators can 
supplement agency resources for maintenance and administration, and 
their contributions should be considered in the designation process. 
Further, consistent with federal accounting standards, the Forest 
Service improved its classification of information for its financial 
reports on heritage assets and stewardship land that will provide more 
accurate assessments of capitalization and costing.
    Question 3. In developing a travel management plan under the 2005 
rule, is each unit required to develop a travel analysis report and 
make that report available to the public (and, if not, why not)?
    Answer. There is no specific policy requiring preparation and 
publication of a travel analysis report. However, where a national 
forest or grassland has conducted travel analysis, this document is 
part of the planning record and is available upon request.
    Travel analysis is a pre-National Environmental Policy Act process 
explained in the 2005 Motor Vehicle Route and Area Designation Guide 
and in regional training sessions. Proposed directives published in the 
Federal Register on March 9, 2007, also included direction regarding 
travel analysis. We expect final directives to be published some time 
this summer. Currently, some national forests and national grasslands 
are conducting travel analysis as a part of travel management planning
    Question 4. Is each unit required to estimate how much additional 
money will be required to enforce new travel management plans?
    Answer. The Travel Management Rule does not require each unit to 
estimate how much additional money will be required to enforce that 
unit's designated system, and no additional money will be required to 
enforce travel management plan. As with all agency programs, money will 
be requested through the appropriations process to manage and monitor 
the designated routes and areas and whatever appropriated funds are 
available will be allocated on the basis of national and regional 
priorities and other factors. In designating roads, trails, and areas 
for motor vehicle use, the need for administration, including law 
enforcement, must be considered.
    Question 5. Please provide a breakdown of how many law enforcement 
officers currently patrol each National Forest in New Mexico. Is this 
number adequate to enforce current and proposed OHV recreation (and, if 
not, please provide an analysis estimating the need for each National 
Forest)?
    Answer. The Forest Service Law Enforcement and Investigations 
(LE&I) Staff in the Southwestern Region has 12 law enforcement officers 
(LEDs) assigned to patrol the six national forests and two national 
grasslands in the State of New Mexico. Also reporting to the Special 
Agent in Charge are two special agents and two patrol captains for the 
LEOs assigned to each national forest and national grassland in New 
Mexico.
    The LE&I staff is assisted by Forest Service employees who serve as 
Forest Protection Officers. Each national forest and grassland has a 
Forest Protection Officer Program to assist the Forest Service Law 
Enforcement and Investigations Staff assigned to each National Forest 
System unit. Forest Protection Officers enforce a variety of 
regulations and laws connected with resource protection for the 
national forests and grasslands including those regulations that 
address off highway vehicle use. Forest Protection Officers augment the 
LEOs and expand the enforcement reach for resource protection. There 
are 41 Forest Protection Officers (FPOs) practicing in New Mexico's 
national forests and grasslands.
    In addition, the Forest Service has developed cooperative and 
mutual assistance agreements for law enforcement with state game and 
fish conservation officers, state police agencies, county sheriffs and 
with the Bureau of Land Management and National Park Service.
    The Carson National Forest in northern New Mexico includes 
approximately 1.5 million acres of NFS lands in four counties. There 
are two LEOs and 8 FPOs assigned to patrol approximately 750,000 acres 
in Questa, New Mexico, and Penasco, New Mexico, respectively. For 
perspective, the state of Rhode Island is approximately 776,957 acres 
in size.
    The Santa Fe National Forest in north central New Mexico includes 
approximately 1.6 million acres of NFS lands in five counties. Three 
LEOs and 13 FPOs are assigned to patrol this unit and the Valles 
Caldera National Preserve. The LEOs are stationed at Pecos, New Mexico, 
Jemez, New Mexico, and Espanola, New Mexico, respectively. In August, a 
fourth LEO will be added to the force and assigned to Cuba, New Mexico. 
Each is assigned to patrol approximately 400,000 acres.
    Three LEOs and 10 FPOs patrol the Cibola National Forest, Kiowa 
National Grassland, Black Kettle National Grassland, and Rita Blanca 
National Grassland, located in central New Mexico and the western 
Oklahoma Panhandle, Northern Texas Panhandle, and central Oklahoma, 
which encompass approximately 1.6 million acres. The Cibola is also 
administratively responsible for the Rita Blanca and Black Kettle 
National Grassland in Oklahoma and the Texas panhandle. The Cibola 
extends across New Mexico from its eastern to its western boundary. 
Each officer is assigned to patrol approximately 533,000 acres in 11 
counties. The Sandia Ranger District, adjacent to Albuquerque, New 
Mexico's largest city, has high visitation and public use and is the 
only New Mexico Ranger District patrolled by two LEOs. There is also a 
LEO stationed at Mount Taylor in Grants, New Mexico.
    Two LEOs and 3 FPOs patrol the Gila National Forest, which includes 
approximately 3.3 million acres and approximately 650,000 of Apache-
Sitgreaves National Forest lands in three southwestern New Mexico 
counties. Each officer is assigned to patrol approximately 1.8 million 
acres. The LEOs are stationed at Mimbres, New Mexico, and Reserve, New 
Mexico.
    The Lincoln National Forest covers approximately 1.1 million acres 
of NFS lands in four counties. The LEOs for that forest are stationed 
at Ruidoso, New Mexico, and Cloudcroft, New Mexico. Each officer is 
assigned to patrol approximately 550,000 acres and is assisted by seven 
POs.
    Question 6. Can you provide an estimate of the amount of additional 
funding the Forest Service as a whole will need to effectively enforce 
its new travel management plans?
    Answer. No additional funds are needed. The Forest Service is 
making a commitment to fund designation of routes and areas on each 
national forest and national grassland as a priority within available 
funding levels. As the route and area designation process is completed 
for each national forest and national grassland, the focus of available 
funding will shift from planning to implementation of route and area 
designations. This work will include the four ``Es'' of engineering, 
education, enforcement and evaluation.
    The cost for implementing route and area designations will vary 
among forests and grasslands. Prior to the rule, some forests and 
grasslands had already eliminated cross-country motorized travel. For 
these forests and grasslands implementation costs will be less than for 
administrative units that are transitioning from cross-country travel 
to a designated system of routes and areas.
    The Travel Management Rule enhances and simplifies enforcement by 
replacing forest or grassland orders with a motor vehicle use map and a 
regulatory prohibition against motor vehicle use off the designated 
system. A nationally consistent approach will improve public 
understanding of where a motor vehicle may be operated on any national 
forest or national grassland and will enhance the agency's ability to 
gain compliance.
    Question 7. Some units recently have proposed designating user 
created routes in areas that have long been specifically closed to 011V 
use, generating concerns that such proposals effectively sanction 
illegal activities. What direction has the Forest Service provided to 
its decision-makers regarding this issue?
    Answer. The Travel Management Rule provides a national framework 
for planning and decision-making for route and area designations. 
Decisions are made by district rangers and forest and grassland 
supervisors. Elimination or addition of routes, including user-created 
routes, may be considered in the designation process, pursuant to the 
public involvement requirements and evaluation criteria in the travel 
management rule. The proposed travel management directives address 
addition of user-created routes to the forest transportation system. 
The directives make no distinction between user-created routes in areas 
open to motor vehicle use versus user-created routes in areas closed to 
motor vehicle use. User-created routes that are proposed for inclusion 
in the designated system must be in the best interest of overall 
management of the national forest or national grassland. In addition, 
the evaluation criteria in the rule, including effects on natural and 
cultural resources, must be considered.
    User-created routes proposed for inclusion in the forest 
transportation system are subject to environmental analysis. The 
analysis identifies and considers potential impacts to the environment, 
which may include impacts from having a designated route in an area 
previously closed to motor vehicle use. Any designations of routes for 
motor vehicle use must be consistent with the applicable land 
management plan (forest plan). If allowing motor vehicle use in a 
particular area is inconsistent with the forest plan, current policy at 
FSH 1909.12, section 25.4 identifies three options: modify the proposal 
to make it consistent with the plan, reject the proposal, or amend the 
forest plan to make it consistent with the proposal.
    Question 8. It is my understanding that at least some units of the 
Forest Service only are permitting a formal public review of its travel 
management proposal before any environmental analysis has begun. Does 
the Forest Service believe that it is appropriate for units to only 
provide a formal comment period on its travel management proposal 
before the agency and the public has considered the information and 
analyses in its environmental review (and, if so, please explain why)?
    Answer. Forest Service units have been encouraged to involve the 
public in the development of proposals for route and area designations. 
By engaging the public at this early stage, the Forest Service is able 
to consider public preferences for route and area designations. Once 
the proposal is developed, it undergoes environmental analysis, 
resulting in either an environmental assessment and accompanying 
finding of no significant impact and a decision notice or an 
environmental impact statement with its accompanying record of 
decision. Both of these environmental analysis processes require public 
involvement. At a minimum, the public must be involved early, at the 
scoping stage, to identify public concerns and prior to a decision, 
once the analysis is at a stage that permits meaningful comment. Many 
administrative units are comprehensively engaging the public prior to 
development of the proposal and throughout the analysis process.
    Public notice of availability of the motor vehicle use map is 
sufficient if a national forest or national grassland has made previous 
administrative decisions which restrict motor vehicle use over the 
entire national forest or national grassland to designated routes and 
areas and no change is proposed.

       Responses of Joel Holtrop to Questions From Senator Wyden
     During the June 5, 2008, off-highway vehicle (OHV) hearing in the 
Senate's Energy and Natural Resources committee we discussed the Bureau 
of Land Management (BLM) and the Forest Service's actions to nationally 
partner with private groups to supplement federal efforts to manage OHV 
use and impacts; similar to the partnership taking place in my state of 
Oregon with the National Off-Highway Vehicle Conservation Council.
    Question 9a. As follow-up to that discussion, please ensure that 
you provide the data I requested--information and examples of how you 
are partnering with private associations in Oregon and across the 
United States.
    Answer. The National Off-Highway Vehicle Conservation Council 
(NOHVCC) has assisted the Forest Service not only in Oregon, but in 
many states across the country. NOHVCC consists of OHV enthusiasts who 
promote responsible riding. They developed and conducted route 
designation workshops across the country, with a target audience of 
Forest Service employees and OHV enthusiasts. They recently began a new 
series of workshop's on improving volunteer effectiveness in assisting 
the Forest Service with OHV route and area operation and maintenance.
    A number of partnerships exist at the forest or grassland level in 
Oregon, with efforts focusing on maintenance of existing motorized 
trails. The most active efforts are on the Rogue RiverSiskiyou and 
Deschutes National Forests. Partnerships are typically between a forest 
and a local club or statewide organization that volunteers its time and 
energy in maintaining motorized trails and providing informational and 
educational contacts with other enthusiasts using the trail system.
    A portion of state fuel taxes in Oregon provides funding for a 
variety of OHV related activities. The Oregon State Department of Parks 
and Recreation sponsors an OHV funds distribution committee, composed 
of OHV organizations and individuals who are OHV enthusiasts. The 
committee provides grants for development, maintenance, and operation 
of OHV routes and related facilities. The committee has also provided 
grants to county sheriff's departments to support enforcement 
activities.
    Tread Lightly! is a national nonprofit organization whose mission 
is to preserve recreational access and opportunities through education 
and stewardship. Tread Lightly! works with the Forest Service and other 
land management agencies, as well as OHV manufacturers, industry 
groups, and motorized recreation organizations to promote responsible 
riding.
    The Off-Highway Vehicle Program of the San Bernardino National 
Forest Association is a collaborative effort for conservation, 
recreation, and education among the National Forest Association, San 
Bernardino National Forest, State of California, and OHV user groups 
and industry. The program involves 300 volunteers who contribute over 
25,000 hours each year. An example of their efforts is engaging other 
OHV enthusiasts in the field as peers, encouraging them to ride on 
designated routes to minimize impacts on native species and habitats.
    The Bear River Watershed Council in Utah assists land management 
agencies with protecting, restoring, and sustaining ecosystem health 
and biological diversity in the Bear River Watershed. A notable aspect 
of this group is their cooperation with varied interests. A recent 
project obliterating 7 miles of unauthorized routes on the Wasatch-
Cache National Forest involved over 100 people representing the Utah 
Backcountry Volunteers, Bridgerland Audubon Society, Back Country 
Horsemen of America, Utah 4-Wheel Drive Association, Bridgerland Trail 
Riders Association, Wasatch Outlaw Wheelers, Utah Division of Wildlife 
Resource's Dedicated Hunters Program, and Boy Scouts of America.
    The Colorado Off-Highway Vehicle Coalition (COHVCO) represents 
approximately fifteen statewide OHV user groups and works cooperative 
with seven National Forests and BLM in Colorado. COHVCO promotes 
responsible motorized use, enhances quality recreational use, and 
encourages conservation of federal lands for future generations. Two 
nationally recognized achievements COHVCO has initiated include the 
TIGER Volunteer Project, through which local OHV clubs assist Forest 
Service field units with route inventory, and the Stay the Trail 
Program, which encourages responsible motorized recreation through 
educational outreach at motorized events and trade shows and 
advertising campaigns.
    Question 9b. Also, as discussed please provide your plan regarding 
the prospects to increase these public /private partnerships.
    Answer. For decades, the Forest Service has been working with 
volunteers and cooperators to enhance its ability to manage 
recreational use. Our directives governing trail management; encourage 
field units to work with cooperators. Also, the Washington Office is 
beginning work on a guide for OHV management, which will include a 
chapter on developing and maintaining cooperative relationships and 
volunteer programs.
    In recognition of the important role of cooperators in helping the 
Forest Service accomplish its mission, the Forest Service created the 
National Partnership Office in 2003. The role of this office is to 
increase the agency's effectiveness in collaboration with individuals, 
communities, nongovernmental organizations, and others. The Partnership 
Resource Center, which is a partnership between the National Forest 
Foundation and the Forest Service, provides a wide variety of 
information on how to develop and maintain cooperator and volunteer 
programs. The link to the Partnership Resource Center's website is 
http://www.partnershipresourcecenter.org/.
    Question 10. We also discussed during that hearing that OHV user 
laws and rules vary on private, county, state, and federally-owned 
lands and how this can be confusing to many trail riders.
    How are BLM and the Forest Service working to better coordinate and 
standardize cross-boundary OHV laws and rules to eliminate confusion 
for OHV riders in Oregon and on the national level?
    Answer. The program staffs in the Forest Service and BLM 
collaborate on many common issues, including interagency road and trail 
management, fire suppression, and law enforcement.
    The Travel Management Rule requires the local responsible official 
(forest or grassland supervisor or district ranger) to coordinate with 
federal, state, county, and other local governmental entities and 
tribal governments. Training provided to each Forest Service region for 
implementation of the Travel Management Rule emphasized the need to 
coordinate closely with these other parties. The training recommended 
close coordination on roads and trails that cross boundaries, so as to 
provide continuity of routes. The need for coordination is also 
addressed in the proposed directives for implementation of the Travel 
Management Rule and in the 2005 Motor Vehicle Route and Area 
Designation Guide.
    Question 11a. Roads and motorized trails are expensive to construct 
and maintain whether they are asphalt, gravel, or dirt. The Taxpayers 
for Common Sense estimates the Forest Service currently has a $10 
billion road maintenance backlog. Even where minimal construction or 
maintenance is required (as is the case for some routes on BLM lands), 
more routes mean more monitoring to ensure that they are not causing 
unacceptable damage and enforcement problems.
    Is $10 billion an accurate estimate for the Forest Service's road 
maintenance backlog?
    Answer. No, in 2007 deferred maintenance on National Forest System 
roads was estimated at $4.157 billion.
    Question 11b. Are the Forest Service and BLM capable of assessing 
the funding and resources required to implement proposed travel plans?
    Answer. Yes, the availability of resources is a consideration in 
designating routes and areas for motor vehicle use. Section 212.55(a) 
of the Travel Management Rule includes as a criterion for designation 
``the need for maintenance and administration of roads, trails, and 
areas that would arise if the uses under consideration are designated; 
and the availability of resources for that maintenance and 
administration.''
    Question 11c. If so, are your agencies proposing and designating 
road and motorized trail systems that are fiscally realistic based on 
available and projected funding for construction, maintenance, 
monitoring, and enforcement?
    Answer. The Forest Service supports the concept of a sustainable 
system of routes and areas designated for motor vehicle use. This 
determination involves the exercise of judgment on the part of district 
rangers and forest and grassland supervisors. At times, resources are 
scarce, but a lack of resources does not result in blanket closures of 
NFS lands to recreational users. Volunteers and cooperators can 
supplement agency resources for maintenance and administration, and 
their contributions should be considered in this evaluation. Further, 
consistent with federal accounting standards, the Forest Service 
improved its classification of information for its financial reports on 
heritage assets and stewardship land that will provide more accurate 
assessments of capitalization and costing of roads.
    The Forest Service maintains NFS roads and NFS trails in accordance 
with their management objectives, design standards, quantity and type 
of traffic, and the availability of funds. Volunteers and cooperators 
maintain many trails. The agency collects fees for use of some 
developed recreational facilities, most of which are retained and spent 
at the site where they are collected. All roads and trails require 
maintenance However, since resources are still limited, improvements in 
classification of information will lead to more accurate assessments of 
capitalization and costing, which in turn can inform investments that 
reduce the Forest Service's maintenance backlog. Coupled with the 
Travel Management Rule's contemplation of the elimination or addition 
of routes, including user-created routes, in the designation process, 
the agency can more effectively align roads and trails with available 
budgetary resources. The Forest Service also actively tries to avoid 
unwanted closures by encouraging volunteer agreements and cooperative 
relationships with user groups.
    Question 12. While many OHV users ride responsibly on designated 
trails, increased OHV activity is affecting hunting, fishing and hiking 
experiences for others that are trying to enjoy the tranquility of our 
Nation's public lands. Increased off-road use of all terrain vehicles, 
trucks, motorcycles and other motor vehicles is resulting in harm to 
wildlife habitat and other natural resources on both public and private 
lands throughout Oregon, placing further strain on law enforcement and 
impacting quiet users. According to the Forest Service and BLM, between 
2005 and 2007 there were more than 5,000 OHV-related law enforcement 
incidents in Oregon and Washington states alone.
    At the hearing, there was some discussion of this issue and inquiry 
into the consideration for quiet users given in travel management 
planning. Mr. Bisson, in the hearing you indicated that Wilderness 
exists for quiet activities. However, Wilderness is a uniquely rugged 
backcountry experience that not all hikers, campers, hunters or fishers 
are seeking. Mr. Bisson and Mr. Holtrop, do you not believe that it is 
important to have non-Wilderness areas on our public lands that quiet 
recreationists can enjoy without motorized impacts?
    Answer. Opportunities to enhance the full spectrum of motorized and 
non-motorized recreation should be considered when designating roads, 
trails, and areas for motor vehicle use. Management opportunities may 
include designating roads, trails, and areas for motor vehicle use, as 
well as managing trails for a variety of non-motorized uses (such as 
hiking, horseback riding, and bicycling). The forest transportation 
system should provide access to NFS lands for both motorized and non-
motorized uses in a manner that is socially, environmentally, and 
economically sustainable over the long term, enhances public enjoyment 
of NFS lands, and maintains other important values and uses.

      Responses of Joel Holtrop to Questions From Senator Cantwell
    The Okanogan-Wenatchee National Forest has, in some Ranger 
Districts, considered increasing trail and road miles available to off-
road-vehicles (ORVs).
    Question 13. How will USFS deal with maintenance of new motorized 
trails in light of its already thin budget?
    Answer. The Forest Service is committed to using available funds to 
accomplish the purposes of the Travel Management Rule in a targeted, 
efficient manner. The agency makes appropriate use of all sources of 
available funding and has a number of successful cooperative 
relationships with state governments. Volunteer agreements with user 
groups and others have proven successful in extending agency resources 
for trail construction, maintenance, monitoring, and mitigation. 
Regardless of the level of funding available, the Forest Service 
believes that the Travel Management Rule provides a better framework 
for management of motor vehicle use on national forests and national 
grasslands than the Forest Service's previous regulations.
    Question 14. I believe that the goal of banning cross-country use 
of ORVs is laudable. However, the Forest Service is increasing trail 
and road miles open to ORVs. This will only serve to spread motorized 
users around system lands, inviting illegal cross-country use.
    Please explain why the Forest Service is increasing trail and road 
miles open to ORVs given the limited enforcement resources available to 
the agency to prevent cross-country use.
    Answer. The availability of resources for route maintenance is a 
consideration in designating routes for motor vehicle use. Section 
212.55(a) of the Travel Management Rule includes as a criterion for 
designation ``the need for maintenance and administration of roads, 
trails, and areas that would arise if the uses under consideration are 
designated; and the availability of resources for that maintenance and 
administration.'' District rangers and forest and grassland supervisors 
decide which roads and trails to designate for motor vehicle use. Since 
most national forests and national grasslands have not yet made their 
designation decision, we do not have an estimate of how many miles of 
routes designated for motor vehicle use may be added to or removed from 
the forest transportation system.
    Question 15. Non-motorized recreationists are by far the majority 
of National Forest users in Washington state and nationally. While the 
sale of ORVs has flattened over the last two years, quiet recreation 
uses such as hiking, snowshoeing and camping have risen.
     Why is the Forest Service considering increasing the system of 
routes available to ORVs when those very vehicles displace non-
motorized trail users?
    Answer. Consistent with its multiple-use mission, the Forest 
Service believes that national forests and national grasslands should 
provide opportunities for both motorized and non-motorized users in a 
manner that is environmentally sustainable over the long term. The 
national forests and national grasslands are not reserved for the 
exclusive use of any one group, nor must every use be accommodated on 
every acre. It is appropriate for different areas of the national 
forests and national grasslands to provide different opportunities for 
recreation. The Forest Service believes that decisions regarding use of 
NFS lands are best made at the local level, with full involvement of 
federal, state, and local governmental entities, tribal governments, 
motorized and non-motorized users, and other interested parties.
    Question 16a. In many Ranger Districts in Washington and 
nationally, the Forest Service is proposing to add unauthorized, user-
created routes to the system of motorized trails.
    What is the legal and policy basis for adding unauthorized, user-
created roads to the Forest Service road system when such routes have 
not been analyzed for their impacts on the environment and other Forest 
visitors?
    Answer. The preamble to the Travel Management Rule addresses the 
intent regarding addition of user-created routes to the forest 
transportation system. The preamble states that ``user-created roads 
and trails may be identified through public involvement and considered 
in the designation process. After public consideration and appropriate 
site-specific environmental analysis, some user-created routes may be 
designated for motor vehicle use pursuant to ' 212.51 of the final 
rule.
    If the Forest Service decides to propose adding user-created routes 
to the forest transportation system, that proposal is subject to 
appropriate analysis under the National Environmental Policy Act. 
Additionally, the Travel Management Rule requires that certain criteria 
be considered when designating routes or areas. Conflicts among uses of 
NFS lands are one of the criteria which must be considered and involve 
potential impacts on other Forest visitors.
    Some user-created routes are well-sited, provide excellent 
opportunities for outdoor recreation by motorized and non-motorized 
users alike, and involve less environmental impact than unrestricted 
cross-country motor vehicle use and would enhance the system of 
designated routes and areas. The Forest Service believes that 
evaluation of which routes to designate for motor vehicle use, 
including user-created routes, is best handled at the local level by 
officials with firsthand knowledge of the particular circumstances, 
uses, and environmental impacts involved, working closely with tribal 
and local governments, forest users, and other members of the public.
    Question 16b. How does adding such unauthorized user-created roads 
to the system not create an incentive for unauthorized ORV use to 
proliferate and 'create more user-created roads?
    Answer. Many of these routes were created in areas that were (and 
often still are) open to cross-country motor vehicle use. By 
designating a system of routes for motor vehicle use that meet users' 
needs, compliance will be enhanced, and visitors will be more likely to 
stay on designated routes.
    Question 17. We have heard about alarming rates of both ORV 
trespass on private lands and illicit cross-country use on public 
lands. This administration has cut the Forest Service budget 
drastically, sc the enforcement belt is tightened, while counties and 
local jurisdictions are strapped for cash and thus have few officers on 
patrol. In a recent incident in Washington State, a single night's 
rampage of illegal cross-country ORV use destroyed a pristine meadow at 
the headwaters of Orr Creek on the Wenatchee National Forest.
    With declining enforcement capacity in our rural areas and 
backcountry, what is the Forest Service's plan to keep irresponsible 
and illegal use in check?
    Answer. The Travel Management Rule enhances and simplifies 
enforcement by replacing forest orders with issuance of a motor vehicle 
use map. This map is posted on the World Wide Web and is available at 
the forest or grassland supervisor's and district ranger's office. The 
motor vehicle use map identifies routes and areas designated for motor 
vehicle use by vehicle class and, if appropriate, by time of year on 
each national forest or national grassland. This nationally consistent 
approach will augment public understanding of where a motor vehicle may 
be operated on any national forest or national grassland across the 
country and will enhance the agency's ability to gain compliance with 
motor vehicle prohibitions and restrictions. This approach will also 
make it easier for OHV users who want to do the right thing to be able 
to do so.
    During this Administration, appropriations for Forest Service law 
enforcement increased from $74 million in FY 2001 to $132 million this 
fiscal year. Building on this 78 percent increase, the Forest Service 
will promote compliance with route and area designations, the Forest 
Service will emphasize education, engineering, enforcement, and 
evaluation, known as the ``Four Es.'' The first ``E'' stands for 
education: informing the public about where and when they can use 
various classes of motor vehicles. The second ``E'' stands for 
engineering: the proper location and design of routes and areas. Proper 
route location can help protect resources, reduce use conflicts, 
address safety, and provide quality recreational opportunities. Proper 
route design also enhances recreational opportunities, resulting in 
improved visitor satisfaction and a higher likelihood that visitors 
will remain on designated routes. The third ``E'' stands for 
enforcement: addressing compliance with motor vehicle prohibitions and 
restrictions. Most OHV users want to do the right thing. With effective 
public education, signing, and route location and design, the Forest 
Service can focus law enforcement resources on those few users who do 
not heed the law. The fourth ``E'' stands for evaluation: monitoring 
designated routes and areas for effects on natural and cultural 
resources, public safety, and conflicts among uses. Monitoring may also 
focus on the level of compliance and route conditions. Revisions to 
designations may be made based on the results of monitoring.
    The Forest Service's enforcement capacity is also supplemented by 
state and local law enforcement agencies. For example, in Oregon, state 
fuel tax funds have been used to fund grants to county sheriff's 
departments to support enforcement of OHV restrictions. Another example 
is legislation recently passed in the State of Colorado. The new law 
allows state peace officers to enforce route and area designations. 
Arizona is considering similar legislation. The Forest Service also 
maintains cooperative law enforcement agreements with state and local 
law enforcement agencies that provide mutual support across 
jurisdictional boundaries.
    Question 18a. I understand that travel planning can involve 
intensive public input and is comprehensive in its reach and evaluation 
of impacts. Yet, travel planning seems to be handled separately, 
outside of the overall forest planning process. I understand that on 
the Colville National Forest, an exceptional level of collaboration is 
occurring on land management issues simultaneous to comprehensive 
forest planning. However, I understand the Forest Service is preparing 
to issue a separate draft travel plan, including re-designation of 
nearly 1,000 miles of existing roads to allow ORV use, without rigorous 
environmental analysis or meaningful collaboration towards a proposal 
that all stakeholders could live with. Further, this plan is seemingly 
without relationship to the larger forest planning effort. Combined 
with local county ordinances that open public highways to ORV use, I'm 
concerned there is a risk for vastly expanded ORV use and misuse.
    Will you commit to combining all Forest Service forest planning and 
travel planning processes to ensure a comprehensive analysis and 
understanding of their related environmental impacts?
    The National Forest Management Act (NFMA) and corresponding Forest 
Service Planning Regulations dictate how often and to what 
specifications national forests and national grasslands conduct 
comprehensive forest planning. NFMA directs national forests and 
national grasslands to establish a forest plan and revise it every 10 
to 15 years. The forest plan establishes the strategy managing national 
forests and national grasslands for the next 10 to 15 years. Given the 
variation in the date they were established, forest plans are subject 
to different time frames for revision. The Travel Management Rule 
requires each administrative unit or ranger district to designate those 
roads, trails, and areas under Forest Service jurisdiction for motor 
vehicle use and identify them on a motor vehicle use map. The Chief of 
the Forest Service has established a time frame for completion of motor 
vehicle use maps by the end of 2009. The time frames for development of 
motor vehicle use maps and revision of forest plans sometimes overlap 
and sometimes are very distant from one another.
    Consistent with current law, Forest plans are subject to different 
time frames for revision and are strategic in nature, and designadon 
decisions are site-specific, The two processes have different 
requirements. Some district rangers and forest and grassland 
supervisors are choosing to conduct public involvement for forest plan 
revision concurrently with route and area designation under the Travel 
Management Rule.
    Question 18b. Specifically, will you commit to combining the forest 
planning and travel planning processes on the Colville National Forest 
to ensure a comprehensive analysis and understanding of their related 
environmental: impacts?
    Answer. As mentioned in the response to the previous question, the 
two processes have different requirements, since the Travel Management 
Rule contemplates a decision made by the local manager of whether to 
combine forest plan revision with route and area designation is best, 
while consistent with current law, Forest plans are subject to 
different time frames for revision. The Colville National Forest has 
been conducting intensive public involvement for both forest plan 
revision and route and area designation. Due to overlap in timing, 
these two processes have occurred simultaneously. Where appropriate, 
information obtained is being shared between the two efforts.
    The Colville National Forest plans to issue a 2008 motor vehicle 
use map re-designating approximately 600 miles of roads that are 
currently open to OHV use. These roads were originally designated in 
2005 as a result of an intensive collaborative effort with many 
parties. Any additional designations will be the result of further 
collaboration and appropriate environmental analysis. The 2008 motor 
vehicle use map will also implement Amendment #31 to the 1988 Colville 
National Forest Land and Resource Management Plan. This amendment 
restricts motor vehicle use to designated roads, trails, and areas, 
thereby limiting cross-country motor vehicle use.
    Question 19. The Forest Service Travel Management Rule '212.52 
states that for new designations of roads and trails, public 
involvement ``shall be consistent with agency procedures under the 
National Environmental Policy Act.'' (NEPA) I believe that NEPA 
analysis is required because that is the only means by which the 
``public involvement'' requirements would be realized. The Forest 
Service is currently proposing to amend their Travel Planning Handbook 
(FSH 7709.55) to, among other things, include the following statement: 
``The report provides the basis for developing proposed actions to 
implement the minimum road system and to change existing travel 
management decisions. These proposals must be subject to appropriate 
public involvement and environmental analysis under NEPA before travel 
management decisions are made.''
    Will the USFS commit to adopt this proposed language to clarify the 
intent of Sec. 212.52?
    Answer. The statement quoted from FSH 7709.55 was included in 
proposed directives to implement the Travel Management Rule that were 
published in the Federal Register for public notice and comment on 
March 9, 2007. The public comment period for the proposed directives 
has closed, and the Forest Service is addressing those comments in 
development of final directives. The Forest Service hopes to publish 
the final directives in the near future.
      Responses of Joel Holtrop to Questions From Senator Domenici
    Question 20. Can you tell us how much money has been expended to 
conduct the Travel Management Rule and the plans that it called for?
    Answer. Over the past two years the agency has spent an estimated 
$200,000 for national training on route and area designation, issuance 
of Forest Service manual and handbook direction, and implementation 
support. During the four-year period scheduled for designating routes 
and areas for motor vehicle use, the Forest Service estimates that the 
cost of the full range of travel planning activities will be 
approximately $25 million per year. The Forest Service is committed to 
using available funds to accomplish the purposes of the Travel 
Management Rule in a targeted, efficient manner. These costs, which 
will be incurred as priorities within existing budgets, are not clearly 
distinguishable from other program management costs and vary widely 
from unit to unit, depending on the lo;a1 situation and local issues. 
Funding provided for travel management planning is used (1) to assemble 
and review existing travel management information; (2) to conduct 
travel analysis, scoping, and the requisite environmental analysis for 
route and area designation; (3) to publish motor vehicle use maps; and 
(4) to monitor designated routes and areas.
    Question 21. Might that money have been better spent doing off-
highway use compliance work?
    Answer. It is very important to complete the route and area 
designation process. A system of designated routes and areas will 
result in improved land stewardship, since cross-country motor vehicle 
use generally will be prohibited. In addition, as discussed above, 
enforcement will be enhanced through reliance on the prohibition of 
motor vehicle use that is inconsistent with route and area 
designations. Thus, designation of routes and areas for motor vehicle 
use and the corresponding prohibition establish a better framework for 
efficient and effective management of motor vehicle use, including 
enforcement of motor vehicle restrictions.
    Question 22. Can you give me an estimate of the funds expended on 
travel management compliance annually?
    Answer. The cost for educational and forest protection officer 
personnel is approximately $9 to $16 million per year, or approximately 
$50,000 to $100,000 per national forest or national grassland. LEOs 
spend approximately 3 percent of their time directly involved in 
enforcement of motor vehicle restrictions on national forests and 
national grasslands. To promote compliance with route and area 
designations, the Forest Service will focus on education, engineering, 
enforcement, and evaluation.
    Question 23. Given the written testimony we have already received, 
it appears that some of the recreation groups and many of the fish and 
wildlife groups are ready to try and throw the all-terrain vehicle and 
off-highway vehicle users off federal lands.
    Why should we single out one user group for their negative impacts 
while overlooking the negative impacts of the other user groups?
    Answer. The Forest Service manages multiple uses in a sustainable 
manner, with full consideration of the relative impacts of each use. As 
stated above, this approach is codified in the evaluation criteria for 
designation decisions in the Travel Management Rule.
    Question 24. Are there any recreational uses of Bureau of Land 
Management and Forest Service lands that have no impact on those lands?
    Answer. All uses of federal lands, including recreational uses, 
have some impact, to a greater or lesser degree, on the land. One of 
the recreational uses that has least impact and also enjoys great 
popularity is scenic viewing. The Forest Service endeavors to manage 
all recreational uses in a sustainable manner.
    Question 25. If we do what some want and eliminate the use of off-
highway vehicles and/or all-terrain vehicles from federal land because 
of resource damage, how should we respond to other recreational uses 
that damages the resource?
    Answer. Every legitimate use of NFS lands, including OHV use, 
should be managed with the sustainability of the land as a guiding 
principle.
    Question 26. When a Forest Service or Bureau of Land Management 
employee observes unauthorized recreational use, or someone damaging 
the resources through an unauthorized use what is that employee's 
responsibility?
    Answer. Forest Service employees report unauthorized recreational 
use and damaging activities occurring on national forests and national 
grasslands. Damage is documented and reported to LEOs for further 
action.
    Forest Service employees may make contact with those engaged in 
these activities, if the employees can do so without jeopardizing their 
personal safety. If Forest Service law enforcement personnel are 
unavailable, the local law enforcement personnel are contacted.
    Often members of the public will report resource damage and 
unauthorized recreational use to Forest Service employees.
    Question 27. Am I correct in my belief that local law enforcement 
agencies that work on federal lands do so through Memorandums of 
Understanding (MOUs) and could request monetary support to respond to 
medical emergencies on federal lands as part of those MOUs?
    Answer. The Forest Service enters into cooperative law enforcement 
agreements with state and local agencies. Under these cooperative 
agreements, the Forest Service most often provides reimbursement to 
cooperating agencies for law enforcement patrol activities on national 
forests and national grasslands lands related to the protection of 
persons and property.
    When a medical emergency arises, state or local law enforcement 
officers and emergency management services (EMSs) may respond. 
Cooperative law enforcement agreements do not provide for reimbursement 
for the cost of medical emergency response. State and local EMS 
agencies are primarily responsible for responding to medical 
emergencies, regardless of whether they occur on or off NFS lands.
    Question 28. Am I correct that county government can be reimbursed 
for search and rescue on federal land through Title III of the Secure 
Rural Schools and Community Self-Determination Act?
    Answer. Title III of the Secure Rural Schools and Community Self-
determination Act provides for reimbursement to local governments for 
search and rescue activities on federal lands.
    Question 29. Mr. Holtrop, many of the witnesses in this hearing 
list a litany of examples of all-terrain vehicle and off-highway 
vehicle abuses on federal lands in their testimony. Can you tell us 
what specific steps the Forest Service has taken to manage OHV and ATV 
use on the national forest lands?
    Answer. First, every national forest and national grassland 
conducts travel planning and manages all types of uses, including motor 
vehicle use, on that unit.
    Second, in 2005, pursuant to public notice and comment, the Forest 
Service promulgated a rule requiring each national forest and national 
grassland to designate those routes and areas under Forest Service 
jurisdiction for motor vehicle use, by vehicle class and, if 
appropriate, by time of year. Upon publication of a motor vehicle use 
map reflecting these designations, motor vehicle use that is 
inconsistent with the designations, including cross-country motor 
vehicle use will be prohibited. Thus, upon publication of a motor 
vehicle use map, routes and areas covered by the map will be closed to 
motor vehicle use, unless they are designated for that purpose. Before 
the Travel Management Rule, routes and areas in national forests and 
national grasslands were open to motor vehicle use, unless they were 
posted as closed in a forest order.
    Third and most important, national forest and national grasslands 
will manage designated routes and areas through education, engineering, 
enforcement, and evaluation.
    Question 30. In a recent article in the Property and Environment 
Research Center (PERC) Report (volume 26--issue 1) former Forest 
Service Chief Jack Ward Thomas said the following:

          The primary supporters for national forests were the timber 
        industiy and states and counties that profited from increased 
        employment, payments, and tax revenues--which collapsed with 
        the dramatic decline of the timber program. Potential 
        constituencies related to recreation, fish and wildlife, and 
        water, in large part, chose to remain adversaries rather than 
        morph into supporters. They won the conflict over management 
        focus of the national forests but have yet to come to grips 
        with the consequences of their victory. Many wander the old 
        battlefields bayoneting the wounded. As a result national 
        forests have become an even heavier economic and political 
        albatross in the eyes of many.

    Given Chief Thomas's analysis, in your estimation, is it in the 
best interest of the Forest Service or the public to have some 
recreationists fighting to throw other recreationists off federal 
lands?
    Answer. The Forest Service manages national forests and national 
grasslands consistent with its multiple-use mission. Conflicts can 
arise when there are multiple uses of federal land. On every national 
forest and national grassland, the Forest Service strives to minimize 
use conflicts. In minimizing use conflicts, the agency endeavors to 
achieve consensus among individuals and entities representing a variety 
of interests and uses. Through standardized procedures and the 
requirements for public involvement and participation of other 
governmental entities, the Travel Management Rule provides an effective 
framework for enhancing consensus on travel planning decisions.
                                 ______
                                 
       Response of Brad Powell to Question From Senator Domenici

    Mr. Powell I appreciate your testimony and your appreciation for 
the valid right of public land access that the off-road community 
enjoys.
    I note that you call for a visible license for all OHV users on 
federal land.
    Question 1. I am wondering how you would feel about requiring a 
similarly sized identification that we would make all hikers, hunters, 
fishermen, and other recreationists wear while they are on federal 
lands?
    Answer. I would strongly support the use of a license or 
identification sticker on all forms of vehicular access equipment that 
are used by all recreational users of the public lands.
                                 ______
                                 
       Response of Nada Culver to Question From Senator Domenici

    I get the sense that you would be happy to see OHV use ended on 
federal land.
    Question 1. Given the number of ATV and OHV users, can you project 
what the non-federal land impacts might be if these users are kept off 
federal lands?
    Answer. As discussed in my written and verbal testimony, and also 
highlighted by many of the witnesses at the hearing on June 5, 2008, we 
need ``active management'' of off-road vehicles on the public lands. 
The agency witnesses, including Dr. Jayne Belnap, concurred that the 
current routes systems and use levels are more than were anticipated 
and are unsustainable, both in terms of ecological impacts and 
accommodating the many users of these lands.
    The Wilderness Society believes that land management agencies must 
adequately plan to determine where off-road vehicle use is acceptable 
on public lands. Allowing ecological damage caused by off-road vehicles 
to persist unchecked does not serve the public and does not comply with 
the laws and policies governing federal public lands. To reiterate my 
response to a question from Senator Murkowski, there is sufficient 
``room'' for motorized and non-motorized users on federal lands, but 
minimizing and mitigating damage caused by off-road vehicles to natural 
resources and the experience of other users requires thoughtful 
planning and management. Since this is the focus of our work, we have 
not made specific projections related to non-federal lands.
                                 ______
                                 
       Responses of Greg Mumm to Questions From Senator Domenici
                                      BlueRibbon Coalition,
                                      Pocatello, ID, June 18, 2008.
Hon. Jeff Bingaman,
U.S. Senate, Committee on Energy and Natural Resources, Washington, DC.
    Dear Mr. Chairman: Thank you for the opportunity to address the 
additional questions from Senator Pete Domenici in detail for the 
record of the hearing by the Committee regarding Off Highway Vehicle 
Management on Public Lands held on Thursday, June 5, 2008.

    Question 1. While licensing is a state responsibility, I am 
wondering how your organization would react to an administrative 
requirement for OHVs that use federal land to have a readily visible 
identification number to aid with enforcement of the Forest Service 
travel management requirements?
    Answer. BRC would be opposed to any federal ``administrative 
requirement'' for motorized vehicle access to public lands. Licensing 
should remain a state responsibility precisely because the federal land 
managers rely on state, local and user group partnerships to 
effectively manage recreational uses. Such a requirement would be 
highly controversial in rural areas and may well be vigorously opposed 
by many Local and County governments.
Additional discussion
    ``Visible identification,'' whether required by federal or state 
programs, is not the key to effective enforcement of travel management 
regulations. There are several reasons why this is so.
    The supposed benefit of a more visible ``number'' is minimal. After 
experimentation with larger registration numbers, the Utah OHV Program 
found that when trying to identify numbers on a moving vehicle, the 
larger numbers provide little improvement. When asked to comment on the 
benefit to OHV enforcement of Utah's larger number requirement, Fred 
Hays, Utah's OHV Program Coordinator said; ``Been there. Done that. 
Didn't work.''
    The ``large number'' proponents seem motivated by the mistaken 
belief that ``enforcement'' is related to, if not synonymous with, 
``compliance.'' The proper relation between compliance and enforcement 
is central to any proper understanding of recreation management. 
Compliance with travel management regulations is the goal, not 
enforcement. Compliance is achieved via balanced application of a 
variety of management actions, including, but not limited to, common 
sense rules, quality user information (maps and signage), active peer 
group involvement and enforcement.
    In many areas compliance is high even though enforcement efforts 
are low. Conversely, there are areas where compliance with regulations 
is low even though enforcement efforts are vigorous. Compliance and 
enforcement are thus not necessarily even positively correlated, let 
alone causally related.
    Finally, we believe there is a risk that necessary law enforcement 
on federal lands will be improperly diverted by those with an overly 
zealous anti-recreation agenda. A review of the information provided to 
the Public Employees for Environmental Responsibility via a Freedom of 
Information Act shows that very serious crimes are taking place on 
federal lands, including commercial marijuana growing operations, 
illegal drug trafficking, illegal immigrant trafficking, and assaults, 
rapes and homicides. A preservationist group's campaign against OHV use 
should not be moving resources away from needed law enforcement 
efforts.
    Question 2. Given your experiences in the Forest Service travel 
management process what would be the three most important lessons you 
would pass on to the BLM if they were to undertake such a process?
    Answer. Lesson 1: The Travel Management Planning process must not 
be used as a convenient excuse for elimination or drastic reductions of 
OHV use. The policy is supposedly motivated by a need to address 
``unmanaged recreation,'' but some units of the U.S. Forest Service are 
overreacting and using the policy to make landscape level changes. 
Indeed, the Eldorado National Forest has issued a decision closing over 
1000 miles of existing roads and trails across the Forest. These 
closures include not just the so-called ``user created'' routes, but 
approximately 400 miles of ``system'' roads and trails that had long 
been depicted as open to travel in previous Forest Service travel maps. 
Decisions of this nature create unnecessary tension between all user 
groups and may actually increase environmental ``impact'' through the 
inadequate opportunities to meet user demand and the likelihood of poor 
compliance.
    Lesson 2: The agencies must be committed to effective 
implementation of the ``restricted or limited to designated roads, 
trails, and areas'' policy. However, good management will not flow from 
the whisk of a pen in Washington; D.C. Successful policy implementation 
must be accompanied by adequate budget and staffing. Above all, 
implementation must be accompanied by management's priority to achieve 
critical on-the-ground goals.
    Lesson 3: A key lesson from the U.S. Forest Service travel 
management planning process is that the users are the key to getting it 
right.
    The Travel Management Rule is properly viewed as an opportunity to 
provide for current and future recreational demands, mitigate impacts 
and leverage existing partnerships and programs for management and 
monitoring. Former Forest Service Chief Dale Bosworth directed and 
predicted that ``[l]and Managers will use the new rule to continue to 
work with motorized sports enthusiasts, conservations, state and local 
officials and others to provide responsible motorized recreational 
experiences in national forests and grasslands for the long run.'' ``A 
managed system of roads, trails and areas designated for motor vehicle 
use will better protect natural and cultural resources, address use 
conflicts, and secure sustainable opportunities for public enjoyment of 
national forests and grasslands.'' In fact, ``it is Forest Service 
Policy to provide for a diversity of road and trail opportunities for 
experiencing a variety of environments and modes of travel consistent 
with the National Forest recreation role and land capability.''
    The Forest Service should be planning for a managed system, and 
working with all groups, especially OHV enthusiasts, in order to comply 
with not only the agency's directives and the Travel Management Rule, 
but the policies behind the Rule. Close coordination with all 
stakeholders, but especially the users themselves, should be emphasized 
across all federal land managing agencies.

Important note regarding Question 2
    We understand the purpose of question 2 and attempted to answer it 
fully. However, the question incorrectly implies BLM lassitude in 
managing recreation. Many BLM units have long been addressing 
recreation management challenges, and all are stepping up their 
efforts. A significant portion of BLM-managed lands have been closed to 
motorized vehicles in the last 20 years. In other areas, including 
states such as California, Colorado and Arizona, significant 
percentages of BLM managed lands have moved into the ``vehicle limited 
to designated roads, trails and areas'' category. In other areas such 
as Utah, multi-year planning processes are in the final stages and will 
generate detailed travel management plans including specific road/
trail/area prescriptions. In Utah alone such plans will cover 
approximately nine million acres, or more than two-thirds of BLM lands 
in that state.
    It is certainly important that BLM learn from the unprecedented 
Forest Service travel planning effort that is underway. However, 
Congress should be careful to properly evaluate past, present and 
reasonably foreseeable future planning so as to give appropriate weight 
to the predictable efforts of special interests to exert political 
influence over administrative planning processes.
    Question 3. From your experience recreating on federal lands, and 
what you've learned during the travel management planning process, what 
would be the best and most user-friendly way to designate the routes 
that will be open to OHV use?
    Answer. The most ``user-friendly'' way to designate routes open for 
OHV use is for the federal agencies to fully commit to an active and 
long-term management vision and to ``see the process through.''
    Unfortunately, environmental laws and agency regulations have often 
become one-way gates that largely constrain active management of the 
Forests and provide fodder for preservationist agendas designed to stop 
such active management through embroiling the agency in a war of 
procedural attrition.
    Therefore we reiterate that successful recreation management policy 
must be accompanied by adequate budget, staffing, and above all, 
management's priority to achieve critical on-the-ground goals. 
Importantly, BRC notes that the agency's allocation of budget, staff, 
and management effort should reflect the developing reality that 
outdoor recreation provides a greater good for more Americans than any 
other aspect of its multiple-use mandate. The time has come to make 
managed recreation the BLM and Forest Service's top priority. The time 
is long overdue for allocations of agency resources to reflect 
Recreation's position as the dominant multiple use of public lands.
    In conclusion, I again would like to thank you for this opportunity 
to answer these questions in detail for the record.
            Sincerely,
                                                 Greg Mumm,
                                                Executive Director.
                                 ______
                                 
       Response of Frank Adams to Question From Senator Domenici
    Mr. Adams, let me start by thanking you for your 40 years of public 
service and law enforcement work.
    I noted your concern about reimbursement to counties for the search 
and rescue and emergency medical work they have to do on federal lands.
    I suspect that you may not be aware that Congress passed a law in 
2000 that would allow counties to utilize a portion of the Secure Rural 
Schools and Community Self-determination Act payments to repay the 
search and rescue work a county carries out on federal lands.
    I also note that over the years only one county in Nevada (Nye 
County) has utilized this opportunity.
    I also note that counties in Nevada received over $13 million of 
payment in lieu of taxes from the federal government and that those 
payments can be used for any purpose the county chooses.
    Question 1. Can you help the Committee understand if any of the 
counties in your State use either of these sources of funding to help 
pay for search and rescue or emergency medical response that they 
undertake on the federal land?
    Answer. Thank you and the committee for the opportunity to testify 
on the matter of local law enforcement impact on federal land 
regulations. I did poll the sheriffs regarding the use of both funds 
for the payment of search and rescue missions conducted on federal 
lands. The vase majority of them related that all the ``in-lieu'' taxes 
were used by the counties in their general funds, All but on Sheriff 
was unaware of the second funding source, the Secure Rural Schools 
Funds.
    I told them that I would do some research on the second funding 
source and provide them with a method of tapping this fund.
                                 ______
                                 
      Responses of Ed Moreland to Questions From Senator Domenici

    Question 1. While licensing is a state responsibility, I am 
wondering how your organization would react to an administrative 
requirement for OHVs that use federal land to have a readily visible 
identification number to aid with enforcement of the Forest Service 
travel management requirements?
    Answer. The American Motorcyclist Association (AMA) would oppose 
any additional federal regulatory requirement for licensing, 
registration or permitting. Law abiding Off-Highway Vehicle (OHV) 
enthusiasts are already sufficiently burdened by government mandated 
titling, registration and permitting requirements.
    The AMA previously supported a number of state OHV titling and 
registration programs. We have also been supportive of the federal 
Recreation Fee program. All three of these types of programs provide a 
way to link an OHV to its owner, registration holder or permit holder.
    For example, to ride on the Wayne National Forest's OHV trail 
system in Ohio, a rider must title the vehicle with his or her home 
state, have a valid state OHV registration and buy and display a 
federal Recreation Fee program trail pass decal which shows the rider's 
full name.
    A valid state OHV registration in the State of Ohio consists of a 
permanent decal with a unique registration identification number from 
Ohio's All-Purpose Vehicle (APV) registration program. The sticker must 
be displayed with the Recreation Fee program trail pass decal on the 
OHV in order to operate the vehicle in the National Forest. Thus a 
variety of identification tools already exist for the enforcement of 
public land OHV regulations.
    Furthermore, when public land managers exercise initiative and 
creativity they can provide effective enforcement. For example, in 
early 2008 the Wayne National Forest organized a targeted enforcement 
campaign. With the existing identification tools Rangers were able to 
write all applicable citations, as note in the attached press release 
from the Wayne National Forest. We are unaware of any case in which 
their enforcement personnel were unable to serve a citation because of 
the lack of a license plate or larger registration numerals.
    While we oppose the creation of any new and additional mandates, we 
would be willing to work with state and federal agencies to redesign 
existing registration and permit decals to enhance vehicle 
identification, as long as such modifications are practical.
    Question 2. Can you tell us what has worked and what has not worked 
in that process? How would you improve it to gain a better, more easily 
implemented plan.
    Answer. The experience of our members with this process has varied 
greatly from one federal forest to the next. Most of the negative 
experiences are the result of the Forest Service either rejecting or 
failing to evaluate enthusiast provided trail inventory data. In these 
cases the Forest Service often cities a lack of time or funding to do a 
more thorough inventory and analysis of the existing trail system.
    The AMA and other motorized recreation groups supported the Forest 
Service's new Travel Management Rule. We did so, however, with a number 
of caveats, not the least of which was our opposition to unfunded 
mandates and artificial deadlines that would sacrifice accuracy for 
expediency. Now those very issues threaten to undermine any genuine 
efforts by the Forest Service to fully inventory their trail systems.
    Nowhere is a creation groups' support more clearly demonstrated 
than in the state of Colorado. There, off-highway enthusiasts from the 
Colorado Off-Highway Vehicle Coalition (COHVCO) have formed Trail 
Inventory Gap Resolution (TIGeR) teams to systematically collect route 
information using state of the art Global Positioning Satellite (GPS) 
information to share with the Forest Service. This information is made 
available to officials in the White River, Gunnison, Pike and San Juan 
national Forests.
    Unfortunately, the personnel in those forests have refused to 
accept much of the information provided by COHVCO and the Trails 
Preservation Alliance (TPA), citing their inability to stay on 
schedule. This is an example of hard deadlines and unfunded mandates 
preventing a truly comprehensive list of trails for consideration in 
the final plans for those forests.
    While the Forest Service asserts that this is simply the start of 
the process and that all of the trail information could still be 
considered prior to the final rule, many remain concerned that if these 
trails are not documented now, they may be lost forever to a process 
that refused to even review user provided input.
    As other agencies, such as the Bureau of Land Management (BLM), 
move toward designated trail systems, inadequate funding and artificial 
timelines should not be allowed to diminish the quality of the final 
product. An inventory system that fails to provide adequate time and 
funding to do the job right is destined to fail.
    Question 3. From your experience recreating on federal lands, and 
what you've learned during the Travel Management planning process, what 
would be the best and most user-friendly way to designate the routes 
that will be open to OHV use?
    Answer. A user-friendly OHV use map would be the best way to inform 
riders of the designated routes following the Travel Management 
process. However, an effective enthusiast map will need far more detail 
than the minimal requirements set out for the Forest Service's Motor 
Vehicle Use Map in the route planning regulations.
    At a minimum an enthusiast map should include the topography 
information generally available on a topographic map, designated OHV 
trails, trail head locations and legal access routes, emergency 
services access points (if available) and sufficient information to 
estimate distances and difficulty. Maps must also be of sufficient 
scale to be useful. We have seen federal agencies provide 8.5 by 11 
inch Xerox ``maps'' to the public of extensive trail systems. Clearly, 
a map of this scale has little value.
    A good map is only a starting point. The land management agencies 
must still provide informational kiosks at trailheads, confidence 
markers on the trail system and sufficient trail maintenance and 
signage to assist riders in identifying the designated trail system.
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing went to press:]

            Questions for Henri Bisson From Senator Bingaman

    Question 1. The Forest Service's regulations specifically require 
the official responsible for designating roads and trails ``to consider 
 . . . the need for maintenance and administration of roads, trails, 
and areas that would arise if the uses under consideration are 
designated; and the availability of resources for that maintenance and 
administration.'' 36 CFR Sec. 212.55(a).
    Question 2. Does the BLM have direction to analyze, publish, and 
consider the availability of resources when developing and adopting its 
travel management plans?
    Question 3. Your testimony identified the Hackberry Lake OHV Area 
in New Mexico as an example of an open area with minimal resource 
conflicts. Please provide a complete list of other areas in New Mexico 
that are open to cross-country travel and have minimal resource 
conflicts.
    Question 4. Please provide an analysis of the implementation costs 
(including maintenance, monitoring, enforcement, and education) for the 
motorized travel systems proposed in each of the six resource 
management plans under consideration in Utah.
    Question 5. There is a picture in your testimony of some 
restoration work in Southern California. How much money did that 
restoration project cost?
    Question 6. Please provide a description of the status of each 
action item outlined in the 2001 National Management Strategy for 
Motorized Off-Highway Vehicle Use on Public Lands (including an 
explanation of whether the action was carried out as called for (and, 
if not, why not and, if so, a description of any lessons learned from 
carrying out the action)).
    Question 7. At the hearing, you mentioned that quiet recreation 
needs were satisfied by such areas as Wilderness and Wilderness Study 
Areas. However, in many cases, the BLM is proposing to specifically 
designate OHV routes through WSAs. Can you explain the apparent 
inconsistency? In addition, can you please explain what direction the 
BLM has on designating OHV routes through WSAs and other areas 
identified for wilderness consideration?
    Question 8. How many of the BLM's Resource Management Plans that 
have been complete in the previous five years or are scheduled to be 
completed in the next five years do not include or are not expected to 
include comprehensive travel plans? For each, how many acres remain or 
are expected to remain open to undesignated OHV travel routes?
             Questions for Henri Bisson From Senator Wyden
    During the June 5, 2008 off-highway vehicle (OHV) hearing in the 
Senate's Energy and Natural Resources committee we discussed the Bureau 
of Land Management (BLM) and the Forest Service's actions to nationally 
partner with private groups to supplement federal efforts to manage OHV 
use and impacts; similar to the partnership taking place in my state of 
Oregon with the National Off-Highway Vehicle Conservation Council.
    Question 9a. As follow-up to that discussion, please ensure that 
you provide the data I requested-information and examples of how you 
are partnering with private associations in Oregon and across the 
United States.
    Question 9b. Also, as discussed please provide your plan regarding 
the prospects to increase these public/private partnerships.
    Question 10. We also discussed during that hearing that OHV user 
laws and rules vary on private, county, state, and federally-owned 
lands and how this can be confusing to many trail riders. How are BLM 
and the Forest Service working to better coordinate and standardize 
cross-boundary OHV laws and rules to eliminate confusion for OHV riders 
in Oregon and on the national level?
    Question 11a. Roads and motorized trails are expensive to construct 
and maintain whether they are asphalt, gravel, or dirt. The Taxpayers 
for Common Sense estimates the Forest Service currently has a $10 
billion road maintenance backlog. Even where minimal construction or 
maintenance is required (as is the case for some routes on BLM lands), 
more routes mean more monitoring to ensure that they are not causing 
unacceptable damage and enforcement problems.
    Is $10 billion an accurate estimate for the Forest Service's road 
maintenance backlog?
    Question 11b. Are the Forest Service and BLM capable of assessing 
the funding and resources required to implement proposed travel plans?
    Question 11c. If so, are your agencies proposing and designating 
road and motorized trail systems that are fiscally realistic based on 
available and projected funding for construction, maintenance, 
monitoring, and enforcement?
    Question 12a. While many OHV users ride responsibly on designated 
trails, increased OHV activity is affecting hunting, fishing and hiking 
experiences for others that are trying to enjoy the tranquility of our 
Nation's public lands. Increased off-road use of all terrain vehicles, 
trucks, motorcycles and other motor vehicles is resulting in harm to 
wildlife habitat and other natural resources on both public and private 
lands throughout Oregon, placing further strain on law enforcement and 
impacting quiet users. According to the Forest Service and BLM, between 
2005 and 2007 there were more than 5,000 OHV-related law enforcement 
incidents in Oregon and Washington states alone.
    At the hearing, there was some discussion of this issue and inquiry 
into the consideration for quiet users given in travel management 
planning. Mr. Bisson, in the hearing you indicated that Wilderness 
exists for quiet activities. However, Wilderness is a uniquely rugged 
backcountry experience that not all hikers, campers, hunters or fishers 
are seeking. Mr. Bisson and Mr. Holtrop, do you not believe that it is 
important to have non-Wilderness areas on our public lands that quiet 
recreationists can enjoy without motorized impacts?

            Questions for Henri Bisson From Senator Domenici
    Question 13. Can you tell us how much money has been expended to 
conduct the Travel Management Rule and the plans that it called for?
    Question 14. Might that money have been better spent doing off-
highway use compliance work?
    Question 15. Can you give me an estimate of the funds expended on 
travel management compliance annually?
    Given the written testimony we have already received, it appears 
that some of the recreation groups and many of the fish and wildlife 
groups are ready to try and throw the all-terrain vehicle and off-
highway vehicle users off federal lands.
    Question 16. Why should we single out one user group for their 
negative impacts while overlooking the negative impacts of the other 
user groups?
    Question 17. Are there any recreational uses of Bureau of Land 
Management and Forest Service lands that have no impact on those lands?
    Question 18. If we do what some want and eliminate the use of off-
highway vehicles and/or all-terrain vehicles from federal land because 
of resource damage, how should we respond to other recreational uses 
that damages the resource?
    Question 19. When a Forest Service or Bureau of Land Management 
employee observes unauthorized recreational use, or someone damaging 
the resources through an unauthorized use what is that employee's 
responsibility?
    Question 20. Am I correct in my belief that local law enforcement 
agencies that work on federal lands do so through Memorandums of 
Understanding (MOUs) and could request monetary support to respond to 
medical emergencies on federal lands as part of those MOUs?
    Question 21. Am I correct that county government can be reimbursed 
for search and rescue on federal land through Title III of the Secure 
Rural Schools and Community Self-Determination Act?
    Mr. Bisson, you are going to hear several witnesses today 
suggesting that your agency undertake single resource planning, in the 
same manner that the Forest Service has.
    Question 22. Would it be possible for the Bureau of Land Management 
to do that type of Travel Management planning work in the next five 
years?
    Question 23. Can you estimate the potential cost of that work?
    Question 24. To your knowledge, have any of the counties in Nevada 
taken advantage of the opportunity to get Title III funds from the 
Secure Rural Schools and Community Self-Determination Act of 2000?
    Question 25. Are there any other mechanisms that would allow the 
Bureau of Land Management to provide any financial aid to counties to 
help them provide search and rescue and law enforcement help on BLM 
lands?
                                 ______
                                 
            Questions for Jayne Belnap From Senator Bingaman

    The literature synthesis cited in the Department's testimony 
emphasized the need for further research on the cumulative and indirect 
environmental effects of off-highway vehicles. Specifically, it states:

          Whereas the results of past OHV-effects research have been 
        reasonably consistent in demonstrating the nature of OHV 
        effects in the immediate vicinity of single trails and OHV 
        sites, there is a need for stronger emphasis on the cumulative 
        effects-both spatial and temporal-of OHV use.
          The concept of cumulative impacts as they relate to OHV 
        activity, therefore, must be applied in a landscape context, as 
        these impacts are not site-specific and may affect adjacent or 
        even more remote habitats and landscapes. For example, dust 
        created from OHV activities can be dispersed to areas far away 
        from habitats directly impacted by OHV activities. Likewise, 
        erosion of soils during heavy rain events may increase 
        sedimentation far downstream of areas directly subjected to OHV 
        activities, and edge or corridor effects of OHV routes may 
        promote widespread dispersal of non-native and invasive 
        species. Thus, there is a need for greater monitoring and 
        research emphasis on the effects of OHV activities not only in 
        the areas directly subjected to those activities, but across 
        impacted habitat types, watersheds, and landscapes.

    Question 1. Can you describe the state of the science and what 
current research is underway to improve our understanding of the 
cumulative and indirect environmental effects of OHV use-particularly 
those at large spatial scales?
    Question 2. Can the kind of research that is called for by the 
synthesis be reasonably carried out? If so, please specifically 
describe how.
    Question 3. In his hearing testimony, Mr. Mumm cited a long list of 
studies estimating the apparent economic benefits of OHV use. The 
synthesis points out that, ``by the same token, economic analyses of 
OHV use are needed to account for not only the immediate and apparent 
economic benefits, but also the long-term, large-scale, and ongoing 
costs associated with OHV use. Without factoring these variables into 
models of economic impacts, true cost : benefit ratios of OHV use will 
remain unknown.''
    What specific factors should be considered in a full-cost 
accounting of OHV use on public lands, and is such a study something 
that USGS is capable of conducting?
    Question 4. The synthesis discusses the impacts of OHV use on 
invasive species, but it does not discuss the indirect or cumulative 
effects of those impacts. Can you summarize your understanding of the 
indirect and cumulative effects of the impacts of OHV use on invasive 
species?
    Question 5. The synthesis states that once certain soils are 
disturbed by OHV use, ``it may take 300-500 years per inch for soil 
stabilizers to recover or return to their original state.'' Can you 
expand on this statement and its relevance to OHV management?
    Question 6. During the hearing, we briefly discussed the impacts of 
OHV use on dust production. Can you summarize the existing research on 
the subject, including the implications of dust production, and what 
further research is necessary?
    Question 7. What other activities on public lands have significant 
impacts on dust production?

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              


                                Twentynine Palms, CA, June 1, 2008.

Hon. Jeff Bingaman,
U.S. Senate Chairman, Senate Committee on Energy and Natural Resources 
        Washington, DC.
Re: Off-Road Vehicle Abuse on Private and Public Lands

    Dear Senator Bingaman: My name is Christine Carraher, and I have 
been a full-time resident of the east Morongo Basin in the Mojave 
Desert of California for 16 years. I am a homeowner on 5 acres. I work 
as a medical transcriptionist, telecommuting from home. I thank you for 
the opportunity to testify on the issue of off-road vehicle (``ORV'') 
abuse in the desert area.
    Population pressures, increasing proliferation of off-road 
vehicles, a sense of rider entitlement, and an utterly inadequate 
system of regulation have led to direct conflict between ORV riders and 
rural landowners such as myself and my neighbors. It is my position 
that until off-road vehicles are regulated along the same lines as 
street vehicles, with visible identifying plates, licensing of drivers, 
meaningful penalties for infractions, and mandated liability insurance, 
we will make no real progress towards a solution to the conflict.
    I live in a rural high-desert area where the exposure to ORV use is 
frequent. Please understand that I value the rights of Americans to 
enjoy their public lands in nondestructive pursuits and acknowledge and 
appreciate that many citizens enjoy off-roading as recreation. However, 
the inhabitants of my area witness the misuse of public and private 
lands by ORV riders on an almost daily basis. Those of us on property 
adjoining or near public lands are routinely subject to the noise, 
dust, and destructiveness of ORV users who do not recognize law or 
limits. The problem is particularly intense in the outlying areas like 
where I live because homestead-based settlement here created a quasi-
checkerboard pattern of property ownership, with private residences 
scattered amount parcels of federal land.
    I have experienced first-hand the destruction that an off-road 
vehicle causes the moment it leaves the road or trail. I see the 
collapsed burrows, the crushed and uprooted vegetation, the eroded 
wash-banks and hillsides. I witness the changes in rain run-off 
patterns and the increased dust from formerly living areas that have 
been turned into barren dirt lots. I also watch ORV tracks slowly turn 
into trails as one user follows another, until the desert is just a 
criss-cross of routes--routes that ORV users may subsequently attempt 
to defend as historic roads that must remain open to vehicle traffic.
    I have been threatened by riders who resented any obstacle to their 
free use of lands---public OR private. I have been subjected to 
unprovoked hostility and verbal assault and left in the dust as riders 
speed off laughing in complete disregard of the law or my rights. I 
have had motorcycles buzz right by my door or around barriers on my own 
property as though I lived in an open-riding area, utterly disregarding 
any attempt on my part to stop or redirect them.
    I have seen my neighbors and colleagues who protested and took 
action against these illegal behaviors subjected to the most 
extraordinary and vicious vilification and defamation in on-line 
attacks by people who do not even live here but want to be able to ride 
essentially in our yards, including such threatening practices as 
posting directions to our homes.
    Let us be clear what we're talking about here: The modern off-road 
vehicle is a powerful, potentially very dangerous machine. It can turn 
from a tool of recreation into a weapon of menace and destruction in an 
instant, with no mechanical modification necessary, depending only on 
the intent of the rider. It is at the same time a perfect means of 
escape from accountability. The ORV outlaw may, at will, use their 
vehicle as a weapon to destroy land, vegetation, and wildlife and also 
as a weapon to intimidate, menace, or even injure members of the 
public, and once the injury is done use the very same instrument to 
flee the scene, knowing the likelihood of their being caught is 
extremely remote.
    It is unacceptable that tax-paying, law-abiding residents should be 
so menaced, injured, and deprived of the peaceful enjoyment of their 
homes. It is also unacceptable that public lands be destroyed without 
compensation to the public.
    So what is to be done to correct this injustice? We must tie the 
action to the actor.
    It is my belief that we will not make real progress toward a 
solution until we reconceive fundamentally our regulatory structure 
governing off-road vehicles and begin to treat ORVs similar to the way 
we treat street vehicles, building personal accountability into the 
system.
    Education and proper enforcement can help measurably, as has been 
demonstrated in the Morongo Basin where I live through the vigorous 
activism of Community ORV Watch. But for real progress we must address 
the fundamental and overarching problem: That the non-accountability of 
the ORV user renders education and enforcement attempts permanently 
insufficient and, in the end, effectively meaningless.
    The problem is inherent in the activity itself, and this point is 
crucial: The ORV user rides with, to all intents and purposes, absolute 
impunity, as they are almost impossible to catch and almost impossible 
to identify. Until we can reliably tie the action to the actor, legally 
and financially, we will not solve this problem. Period.
    Remember, the ORV races across a land that is essentially not 
patrolled. It is a rare day that a ranger or deputy would be in the 
vicinity to respond to a complaint; considering the immense area these 
officers cover, timely assistance from law enforcement is simply too 
much to expect. And citizens cannot catch them--unless they perhaps 
jump on an ORV and, in their pursuit, become part of the problem 
themselves. And, in the process, seriously risk their personal safety 
as confrontation with riders can be extremely dangerous.
    Nor can the citizen meaningfully identify the illegal rider. 
Covered head to toe in gear and dust and moving at high speed, the ORV 
user rides under a cover of anonymity. Whether they be weekend warriors 
from the city or local juveniles, there is effectively no way of 
knowing for sure who they are. The tiny ``green sticker'' that is 
required in California is meaningless unless one is in the immediate 
proximity of a halted vehicle whose driver is allowing inspection--not 
a situation that happens frequently in the field.
    And, on the rare occasion when a lawbreaker is confronted by law 
enforcement, the penalties imposed are so minor as to be little more 
than a nuisance, and no real deterrent.
    What would change this discouraging equation? Bringing off-road 
vehicle use under the same type of regulatory system covering street 
vehicles. It is difficult to understand why powerful vehicles with such 
destructive capacity are not already required to meet the same 
registration, identification, and liability requirements that street 
vehicles do.
    An updated, realistic system that would meet the purpose of 
bringing accountability to the ORV rider would include:

  <bullet> Identifying plates that are visible from some distance, at 
        least equivalent to those required on street vehicles. This 
        could help the public participate in enforcement, as it would 
        enable them to convey to rangers and deputies more usable 
        information than ``a guy with a red helmet on a quad.'' It 
        would also make immediately apparent outlaw vehicles that were 
        not registered. It would also bring an element of awareness to 
        the ORV rider that they are identifiable and will be held 
        accountable for their actions and therefore would be well 
        advised to mind the law. The pernicious cover of anonymity 
        would be removed.
  <bullet> Registration of vehicles with an agency that would keep 
        records of infractions, so that bad actors could be tracked. 
        Registration would need to be produced upon demand of law 
        enforcement.
  <bullet> Licensing of drivers, with qualifying testing to demonstrate 
        that the driver has the knowledge and skills to ride within the 
        law. This requirement would make strides towards removing lack 
        of education as an excuse for illegal action.
  <bullet> Mandatory liability insurance, with proof to be surrendered 
        to law enforcement upon demand as is required with street 
        vehicles. This provision is KEY. Riders must be held 
        financially responsible for the damage they do. If it's found 
        that their actions are so dangerous as to be uninsurable, then 
        we must question why we are allowing them to perform these 
        actions publicly and put others' lives and property at risk. 
        Riders and their insurers need to be made appropriately subject 
        to civil action.
  <bullet> Reevaluation of our standards for minors. These machines are 
        potentially very dangerous for both rider and public, and it is 
        prudent to question whether juveniles have the judgment to 
        appropriately handle the privilege of riding. Additionally, 
        despite the law juveniles frequently ride with no oversight. 
        This is inexcusable. The actions of juveniles on off-road 
        vehicles must be tied to their parents or guardians with full 
        civil and criminal liability.
  <bullet> Penalties must be increased to a level sufficient to provide 
        real deterrence. Education followed by a warning may be fine to 
        start, but after that penalties must be increased 
        precipitously, up to and including confiscation of the vehicle. 
        Weekend warriors from urban areas have come to regard small 
        fines as simply part of the cost of riding wherever they want 
        in the desert. That is not acceptable. The penalty must be 
        sufficient to deter abuse.

    I recognize that this is not a program that the Federal government 
can create alone and that interagency cooperation would be required. 
Nevertheless, it must be done. Nothing less will fix the problem. 
Funding can be provided by the users of off-road vehicles.
    However we proceed, until we tie the actor to the actions there 
will be no real progress in the growing crisis of off-road vehicle 
abuse and no real relief for property owners. This abuse of peaceful 
citizens and their property must stop!
    I thank the Senators for allowing me to testify on the issue of 
off-road vehicle misuse and appreciate the efforts of the Committee to 
study the problem. It is my sincere hope that you will vigorously 
pursue this matter and bring justice and needed relief to the law-
abiding rural resident, as we have no way to stop these abusers except 
through the actions of our elected officials and the problem is getting 
dangerously out of control.
            Respectfully,
                                        Christine Carraher.
                                 ______
                                 
                                              Twentynine Palms, CA.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, U.S. 
        Senate, Washington, DC.
    Dear Sir: It is with a great deal of appreciation that I write this 
letter to you. I am grateful to be given the opportunity to express my 
concern and dismay over off-road vehicle trespass on private property 
in my neighborhood. This letter includes a short introduction to my 
situation, a detailed account of the problems I face as a private 
property owner under siege by riders of off-road vehicles, and finally 
some considered solutions to the problems.
    By way of introduction, I am a professional who retired after a 
spinal disease crippled me. I am a parent of three contributing 
citizens. I have a long history of community involvement. I am not a 
member of any anti-ORV riding group, but I have worked cooperatively 
with one such group on a few occasions.
    I retired to Wonder Valley, a quiet corner of the Mojave Desert and 
a Special Service District within San Bernardino County that covers 130 
square miles and has a land-to-dwelling ratio of four homes to every 
square mile. I am currently an appointee to the Road and Park 
Commission that makes recommendations to the County for the Wonder 
Valley area and although I am not writing to you in my capacity as 
Commissioner, it is worth mentioning that the problems that accompany 
off-road vehicle riding are well known to the Commission and the County 
Board of Supervisors.
    Wonder Valley is situated about two and a half (2.5) hours from Los 
Angeles, San Diego and Orange County and about an hour and a half (1.5) 
from Riverside and San Bernardino. My home sits on a five-acre Small 
Tract Homestead parcel. Bureau of Land Management (BLM) land abuts my 
property on three sides.
    Since I moved to Wonder Valley, I have been plagued by riders 
attracted to a sand pit a thousand or so feet from my home that was 
created by the action of flash-flood water where two dry washes meet. 
The land is managed by the BLM and is theoretically closed to off-road 
vehicles. The riders soon get bored with playing in the pit and leave 
to explore the dry washes. One of those washes crosses my property, and 
the trespass is non-stop. If it is a weekend there is someone on an 
off-road vehicle roaring across my property past my back door, through 
my garden, to get out of or into the wash.
    In the three years I have lived here, through constant work and 
expense, I have managed to reduce the trespass to three or four 
trespasses a month, but is has been a Herculean task that should not be 
the work of a simple property owner trying to enjoy a little peace and 
quite and recuperate from a series of surgical spinal reconstructions. 
I have often feared for my personal physical safety. The reduction in 
trespass has required the combined work of the San Bernardino County 
Sheriff, San Bernardino County Code Enforcement, the District Attorneys 
of San Bernardino and San Luis Obispo Counties, and the Superior Court 
of San Bernardino County. The struggle has required me to be strong, 
articulate, tenacious, resilient, well-funded, and creative. It has 
taken several hundred hours of my time as well as the time of neighbors 
and friends who have helped and supported me through the fight.
    My neighborhood like others in Wonder Valley has become a volatile 
hotbed of contention with private and BLM no-trespassing signs cut 
down, swastikas and other hate images appearing in sensitive and 
significant locations, and neighbors on high alert. The off-road 
community waves the flag trying to justify their practices by declaring 
that President Grant went on ``wild buggy rides in the streets of 
Washington, DC'' and demanding their ``[constitutional] right to ride'' 
while residents fight for their right to peace and quiet in their 
homes.
    I have personally been menaced by a man who charged me at fifty 
miles per hour with his off-road vehicle while he was trespassing on my 
land. I had to go back to court a second time to ask for a restraining 
order against him. I have been harassed in my home and on the street. 
The directions to my home have been published on line in several 
locations over a period of several years by members of the off-road 
community with exhortation to their buddies to ride their ORVs by my 
home and voice their opinions. Early on the Sheriff was an unwitting 
victim in this, sent on bogus calls to my home by ``anonymous'' 
tipsters.
    There are so many things wrong with this situation that it is 
difficult to address them all, but let me try to do so. Let me do so 
for all of those beleaguered neighbors of mine who may not be as 
strong, tenacious, resilient, articulate, well-funded, and creative and 
who may not have the hundreds of hours of time or the support of 
friends and family as has been my good luck.
    First and foremost, as an American citizen and a homeowner, I am 
entitled to the peaceful enjoyment of my home. I should be safe in my 
home. My property should be under my control as long as I am acting in 
a lawful way. I should be free from trespassers. I believe I am 
entitled to this as a citizen of San Bernardino County, the State of 
California, and the United States of America.
    Second, trespass reduces the value of my land. Every wheel rut 
results in constant erosion by wind and seasonal erosion by water. The 
vehicles damage the existing plant and animal populations by altering 
the terrain and habitat and by killing them outright. My property is a 
nursery for many creatures on the protected species including the 
Kangaroo Rat, the Smoke Tree, and the Cat's Claw Acacia. Much aesthetic 
and biological value lies in these creatures. A four-foot Smoke Tree 
costs about $250 in local nurseries.
    Third, every ride across my property changes the drainage and ruins 
the levees, called berms, that divert water during flashfloods. Since 
only a small break in the levees that hold back the flash floods will 
cause them to fail, every trespass potentially endangers the structure 
of my home if at any time I cannot get someone to come and repair the 
berms before a storm.
    Fourth, the dust the vehicles raise is a health hazard as well as a 
nuisance. The dust problem persists long after the vehicle is gone as 
each gust of desert wind raises dust where an ORV breaks the hard 
desert crust. Dust is filled with microscopic particles of clay and 
silica, and sometimes contains other organic and inorganic debris, like 
the fungus that causes Valley Fever and asbestos fibers, all known to 
cause life-threatening illness when inhaled. I will skip a discussion 
of the effects of an illegal 100+ decibel engine shattering the 
stillness outside one's door.
    Fifth, protecting myself against outlaws on off-road vehicles has 
cost me thousands of dollars in materials and labor. The expenditures 
fall into two categories, damage prevention and damage mitigation. 
Prevention includes building fences and barricades. Mitigation includes 
restoration of disturbed drainage, damaged levees and berms, erasing 
tracks so other off-road vehicles don't follow them, and restoring the 
desert crust. As you may imagine, because I am no longer able to do any 
of this work myself, the bill has been considerable.
    Sixth, protecting my property against off-road vehicle trespass has 
diverted my precious resources. The actual cost of defending my 
perimeter is matched by an equally onerous and significant opportunity 
cost. As a disabled person, you can imagine how frustrating it is to 
have to spend my limited physical and financial resources on fighting 
trespass, instead of improving my quality of life. I fail to see why as 
an American citizen, my disposable income must be spent on protecting 
my perimeter against outside aggressors. I thought peace in our homes 
was what my father fought for at Normandy and the Battle of the Bulge.
    Land owners carry a heavy economic, physical, and psychological 
burden imposed on us by outlaw ORV riders. The source of this problem 
is not so much that people want to ride off-road vehicles. It is still 
a legal activity in some specific locations in America. The problem 
lies largely in three facts that are, in my mind, the key to a workable 
solution. First, most riders come onto my property from BLM land. 
Second, most riders are unidentifiable and untrackable. Third, there 
are few real penalties for the transgressions, few consequences for 
illegal behavior, and no restitution for the property owner.
    The argument is sometimes made by the ORV community that not all 
riders are outlaws, and I am sure that is true, but it is an immaterial 
argument. It is like saying that since most people do not murder and 
rob other people, there should be no laws regulating robbery and 
murder. If ALL people were ONLY riding legally, I would never see a 
rider on my property. Although I see fewer riders on my property, this 
spring alone there have been at least a dozen high-speed trespassers 
and I see people riding illegally on other land on a regular and 
continuing basis, except at the hottest time of the summer, when 
activity is rare.
    So the problem becomes what to do about the outlaws. Because it is 
so cheap and easy to be an ORV outlaw, many riders choose to step over 
the line. Until the riding community pays for the full cost of their 
fun, including damage to private property, the problem will continue 
unabated. When the only punishment one gets for stealing cookies from 
the cookie jar is the cookie itself, it is likely that the cookie 
stealing will continue. This is the situation with ORV outlaws. The 
only consequence ORV outlaws currently suffer is doing whatever they 
want, whenever they want, with impunity. They are as unidentifiable and 
unapprehendable as the banditos of the Old West, and they cause as much 
upset in our communities. The problem of ORV outlaws is pervasive and 
it will take a combination of civil and criminal justice solutions to 
return peace to our neighborhoods and end what is tantamount to 
motorized terrorism in some locations.
    I hope you will consider the following list of suggestions in 
framing the best solution to the problem.
    First, rider anonymity needs to be ended. I was able to get the 
Sheriff and DA involved in my situation because I was able to track a 
perpetrator to a nearby home. But understand what a rarity this is--of 
the hundreds (100s) of trespasses in the last three and a half years, I 
have been able to identify only one (1) rider. Riders are 
unidentifiable because they are covered in protective gear and they are 
not required to have registered license plates that can be read as they 
flee the scene.
    Second, the BLM needs to be given adequate resources to 
successfully steward the land under their care. We need rangers and we 
need maintained signage. Most of the trespass on my land comes from the 
BLM land that surrounds my property. Calls to the BLM are not returned. 
Although Ranger Kevin MacLean is assigned locally, he is called a 
``Ranger Trainer'' and so he is mostly out training other BLM 
employees, not rangering our neighborhoods. When our neighborhood watch 
volunteered to install and maintain signs on BLM land in our 
neighborhood we were told there were no signs available.
    Third, law enforcement needs additional funds to purchase the 
specialized equipment and special training required for off-road 
vehicle enforcement. I fail to understand why the funds for this very 
expensive, specialized enforcement should not come, in large part, from 
the pockets of the community that offends. Law enforcements efforts 
will be improved by tighter regulation and better rider education as 
outlined below.
    Fourth, riding needs to be more tightly regulated. ORVs are high-
powered vehicles and their drivers need to be issued licenses after 
rigorous testing that includes items about the laws regarding public 
and private property. Minimum age limits and other requirements that 
are in line with those for a regular driver's license need to be 
established. Riders should be required to carry proof of medical, 
property damage, and personal liability insurance on their vehicle when 
they ride--with the provision that this information be surrendered to 
the injured party and any law officer upon injury or damage to another 
person or their property.
    Fifth, rider education needs to be required for all riders. Riders 
need easy to access, readable information about where they may legally 
ride.
    Sixth, the penalties for illegal riding need to be stiffened, 
particularly for repeat offenders, who should have their vehicles 
seized.
    Seventh, ORV routes in areas that suffer from frequent incursions 
should be closed until adequate law enforcement, clean up, and 
restoration can be guaranteed.
    And finally, I am tired of paying the bill for the freewheeling 
destruction of outlaw riders. A fund needs to be established through 
user fees to pay for the damage done by riders to private property 
through illegal trespass.
    I would like to thank this august body for the opportunity to 
testify on this critical issue affecting the future of American land 
and resources. It is clear that there is a huge problem, that 
homeowners are being arbitrarily deprived of their right to the 
enjoyment of their homes by modern-day outlaws. It is also clear that a 
solution is possible, one that respects the rights of riders who ride 
legally and the rights of property owners who want nothing more than to 
remain unmolested in their homes.
    We must act now if we want to reduce the tension in our 
communities, the devastation of pristine environments, the aggravation 
and loss of homeowners, and the drain down of public and private 
resources. We cannot wait if we want to improve the air quality, the 
quality of life for residents, and the biological diversity of our 
American Home.
    Again thank you for the opportunity to speak.
            Respectfully,
                                              D. S. Dozier.
                                 ______
                                 
             Statement of Victoria Fuller, Joshua Tree, CA

    Thank you for the opportunity to speak to you about a very serious 
problem that is getting worse as more and more off-road vehicle riders 
come out to our communities causing widespread damage and nuisance.
    I live in a small town in the California desert. My neighbors and I 
are just like other rural Americans who seek a friendly community to 
live-in surrounded by wide open public land.
    We have reached a point of desperation as we witness our rural 
communities taken over by off-roaders who have no respect for our 
private property rights. Many of our calls for help are ignored because 
there is insufficient funding and support for law enforcement who are 
often overwhelmed by the problem. In our communities, ORV trespass and 
nuisance is a major complaint to law enforcement both local and 
federal. Every holiday weekend, and often in between, people from urban 
areas haul their vehicles out to our neighborhoods and act in a way 
they would never act in their own neighborhoods--they treat our 
communities like off-road vehicle playgrounds: riding cross-country and 
trespassing on both private and public lands.
    Large staging of 10, 20, 30, 50 ORVs assemble on someone's five 
acre weekend getaway and ride day and night creating noise and dust--
degrading the quality of life in our communities. Every weekend we 
suffer from helmeted riders who act as though they are invincible by 
trespassing on our lands and disappearing into the distance before law 
enforcement can respond. They are nearly impossible to identify because 
they do not have license plates. And due to the lack of local as well 
as federal law enforcement, residents have been forced out of their 
homes while the riders continue to break the law with impunity.
    Our public lands are lacking adequate route designations to inform 
riders where they can and cannot go in addition to information like 
maps and signage. Because off-road vehicles are going anywhere and 
there is no information to contradict this notion, we see Real Estate 
ads promoting irresponsible behavior by implying that people can ride 
anywhere they want.
    Can you imagine what it's like to be a prisoner in your own home, 
or the feeling of helplessness as dirt bikes, quads and sand rails ride 
past your ``no trespassing'' signs right onto your private property? 
Don't I have a right to peace and quiet? to the safety of my home? to 
the full value of my property?
    One especially egregious circumstance was told to me last week 
involving a private residence bordering on BLM land that includes a 
wash adjoining the private property. With the coming of spring weather, 
groups of riders numbering 8 to 10 at a time are beginning their annual 
treks along the wash as if it were a Disneyland ride. According to 
County code enforcement officers, the BLM office has informed them that 
the wash is now an ``established route'' because of its ``common use''. 
BLM personnel have also said that ``washes are generally allowed 
routes''. Our understanding has always been that vehicles are allowed 
only on routes specifically designated on official maps. No exceptions 
have ever been given, not to mention how so-called common use might be 
established. Is this like Tombstone justice where if anyone wants to 
open up their own ORV trail on BLM land they only have to use it three 
times or so? What is the BLM thinking and why is no one-not even 
Congress--holding them accountable?
    The ``checkerboard'' pattern of private, public and BLM lands can 
create misunderstandings and ambiguities in the interpretation of the 
law. It can also lead to encroachment onto the outer boundaries of 
Joshua Tree National Park, where it has been made clear that no off-
road traffic is ever allowed. The BLM's lack of clear rules and 
specific areas for off-road vehicles leads to riders carrying over 
their lawless behavior onto all lands--both private property and 
National Parks.
    You need to know that we also suffer from retaliation by riders who 
engage in harassment of their neighbors who call for help. Some riders 
use their vehicles to intimidate and try to deny us due process of the 
law. There are horror stories of residents who have received threats, 
have been physically attacked, brushed past closely by vehicles, their 
pets killed, and their property destroyed. There have even been 
shootings over this conflict.
    We need to find effective ways to deal with this problem before it 
gets even more out of hand.
    I live in Joshua Tree, California, located in the Morongo Basin in 
San Bernardino County, the largest county in the nation, where you can 
find the largest designated off-road vehicle open area in the United 
States, but riders do not stay in designated areas and we have been 
suffering from the onslaught of abuse.
    Three years ago, a group of residents and business owners could not 
take it any more and got together to find solutions to this problem. We 
organized meetings, conferences and public education campaigns and have 
asked our local law enforcement for relief. As a result:

  <bullet> We assisted the local Sheriff's department obtain more than 
        $250,000 in state ORV law enforcement grants.
  <bullet> We coordinated a series of stakeholder meetings with 
        residents, conservation groups, off road vehicle vendors and 
        state, local and federal law enforcement agencies to create an 
        informational brochure encouraging safe and responsible riding, 
        informing the public about the law and providing a map showing 
        clearly where it is legal to ride. Thousands of these brochures 
        have been distributed to riders throughout our area. (Brochures 
        for distribution).
  <bullet> We participated in a stakeholder process to create a county 
        ordinance that is helping to fairly and effectively protect 
        private property. The ordinance was passed unanimously by the 
        San Bernardino Board of Supervisors, and according to the 
        Sheriff's department, code enforcement and residents, the law 
        is working. ( Copies of the ordinance for distribution).
  <bullet> We have formed volunteer groups to serve as stewards of our 
        public lands since the BLM has not been able to protect our 
        cultural and natural resources. Adobe ruins, stagecoach sites, 
        mining districts and other historic treasures are routinely 
        damaged by uncaring riders. We need help from the BLM and other 
        federal land management agencies to protect these places that 
        are part of our national heritage.

    Rural communities all over our country are suffering from the 
reckless, unchecked motorized sport and it is very important that we 
take a national approach to this growing problem.
    We ask that our Congress craft legislation to give relief to rural 
American communities and would like to suggest the following:

          1. We need stricter laws, greater fines, confiscation of 
        vehicles and jail time for repeat offenders. We must have zero 
        tolerance for harassment and intimidation.
          2. We need a national campaign to educate riders about where 
        to ride legally, to respect private property and public lands, 
        and advice on how to ride safely and responsibly.
          3. Every vehicle should have a visible license plate so that 
        property owners and law enforcement can identify offenders. The 
        presently used small sticker on the back of the vehicle is 
        impossible to see when it is moving.
          4. ORV vendors must finally take responsibility to promote 
        responsible riding through their advertising campaigns and at 
        the dealerships.
          5. Our federal law enforcement agencies must begin to respond 
        to this huge problem with a concentrated effort, special task 
        forces, and cooperation with local authorities and law 
        enforcement agencies.
          6. Parents must be financially responsible for the actions of 
        their children who ride dangerously and damage private property 
        and public lands.
          7. We must find less dangerous and less destructive 
        recreation for our youth.
          8. State and county law enforcement should not have to 
        compete with federal law agencies for state-funded grants for 
        ORV enforcement. It's time for the BLM to take their mandate 
        seriously and protect our public lands, many of which have 
        become illegal, de facto off-road vehicle open areas.
          9. Riders should be required to cover the cost of the impact 
        of their sport through fees and fines.
          10. Rider should pass a driver's test that educates them on 
        their responsibilities and the impact of trespass.

    It has been a privilege to be able to testify before this committee 
and I hope you will take these comments to heart and provide the 
leadership we need to address this serious problem.

               Attachment.--Follow up to Senate testimony

    ORV users are not informed about where they can and cannot legally 
ride. We live in rural communities and everyone cannot afford to fence 
in their 5+ acre lots. Local riders congregate in large stagings in our 
communities and then leave their property and ride cross-country 
trespassing on private lands. Riders remove ``No Trespassing'' signs 
from our properties and then claim they did not know they were 
trespassing. The BLM does not respond to calls in a timely fashion, are 
under-staffed and have essentially abandoned the public lands in our 
area as they concentrate on the huge stagings at other areas. The 
Sheriff's department is understaffed and cannot respond to complaints 
in time to catch perpetrators who cannot be identified since they do 
not have visible license plates. County code enforcement personnel 
cannot apprehend trespassers and do not have the mandate or proper 
vehicles to pursue violators.
    Sheriff's department dispatchers are often ill-informed about the 
laws and commonly de-prioritize calls about ORV trespass or send these 
calls to the California Highway Patrol, which has stated that it will 
not respond to these complaints. The public is stuck in the middle of 
the lack of response and coordination between these different law 
enforcement agencies. We need large format signage, electronic message 
boards, better law enforcement response and public education to help 
stem the large-scale trespass and nuisance on most holiday weekends.
    We have had a number of meetings in the past with the local Barstow 
BLM with little result and it has become more difficult to communicate 
with the local office. We are told that they are understaffed and 
unable to patrol sufficiently in our area. Barstow Field Manager Roxie 
Trost, after much public advocacy and our support of state ORV law 
enforcement grants for the BLM, informed us that she had hired a 
``Resident Ranger'' for the Morongo Basin. But in subsequent 
conversations with the ``resident ranger'' Kevin MacLean, we were 
informed that he is not our resident ranger but a ``Ranger Trainer'' 
and is most often out of the area training other rangers.
    When we asked Field Manager Trost to inform us if we could have a 
ranger patrol the area on busy holiday weekends, we were informed that 
she would not provide us with information about coverage ``for security 
reasons.'' This is both confusing and troubling.

          We recently held a public meeting and conference about ORV 
        problems in our area (please see enclosed flyer) and requested 
        that local law enforcement officials attend to report on their 
        activities and hear from the public. We invited Field Manager 
        Roxie Trost to attend but she sent instead a ranger who had 
        been on the job for only two months and who did not have 
        knowledge of the problems, or any authority to establish 
        policy.

    The BLM is unable to respond to our requests for law enforcement 
when incidents occur and our calls and emails to the Barstow office are 
often ignored. This is not only frustrating for the public, but allows 
for ORV trespass and destruction to occur with impunity. The public has 
essentially given up on even trying to obtain relief from the BLM.
    Unlike our cooperative and constructive relationship with the local 
Sheriff's department and county Code Enforcement officers, we feel as 
though we have been abandoned by the Barstow BLM office. In the last 
three years, we have assisted the local Sheriff's department obtain 
over $250,000 in state ORV enforcement grants. ORV destruction of BLM 
lands in the area, including two designated wilderness areas and 
important cultural and natural resources continues unabated in the 
Morongo Basin.
    Since 2007, Barstow BLM Field Manager Roxie Trost and CDD Manager 
Steven Borchard have refused to meet with concerned citizens and 
resident groups regarding the lack of enforcement and extensive illegal 
activity on public lands, while meetings with pro-ORV groups continue 
on a regular basis.
    The BLM's response is completely unsatisfactory in curbing illegal 
off-road use and they act as though ORV abuse of public lands in our 
communities is a low priority. The BLM provides little or no patrol 
coverage in our area at identified areas and on holiday weekends and 
does not communicate sufficiently with the community. We have 
identified particular ``hot spots'' and have asked with no success that 
the BLM conduct special operations in these areas to stop widespread 
destruction of our public lands. Since there is a checkerboard land use 
pattern where public and private lands are mixed, the BLM's lack of 
coordination with the local Sheriff's department and county Code 
Enforcement makes enforcement very difficult.
    We have received more cooperation from the local US Marine Corps 
Base in the prevention of ORV abuse of our lands than from the local 
office of the BLM.
    There is an area in the Morongo Basin (Post Homestead) under the 
jurisdiction of the BLM that has important cultural resources including 
100 year old adobe ruins and sensitive sand dune plant communities that 
is currently used as a de facto open ORV area. A spider's web of 
illegal routes are destroying these resources. At times, ORVs have used 
the adobe ruins, once part of an historical stage coach system, as a 
``jump.'' The area also suffers from illegal trash dumping.
    We teamed up with the local historical society, conservation groups 
and local residents to protect this important cultural and natural 
resource we consider part of our American historical heritage. We have 
organized community clean-ups of the area, provided historical and 
ecological interpretation and continue to provide volunteer stewardship 
of the area. We have repeatedly asked the BLM to patrol this area with 
stepped-up enforcement, additional signage and special protection 
including an informational kiosk to inform users of its historical 
value and ecological sensitivity. We have asked the BLM to close the 
illegal routes. The photograph of the shot-up and damaged ``Closed 
Route'' sign we have sent you shows the kind of disregard ORV riders 
have for attempts to protect this land. The BLM has yet to respond to 
our request for increased signage and an informational kiosk for the 
area, despite our offer to pay for all the materials and provide local 
volunteers for labor. Other local communities throughout the California 
Desert Conservation Area have similar issues with the BLM.
    Another important concern is that we seem to be in a ``Catch-22'' 
situation regarding the signed designation of ORV routes. According to 
the recent Western Mojave (WEMO) BLM Plan, ORVs can only ride on 
designated routes, yet we have been informed by Barstow BLM Ranger 
Kevin Maclean that off--route travel violations in the Morongo Basin 
will not be cited even if witnessed by a BLM Ranger due to the BLM's 
failure to post designated routes. A close look at the WEMO plan shows 
that the BLM designated ORV routes that appear to stop at the boundary 
of private land then continue on the other side inviting trespass. It 
is obvious that the BLM failed to conduct ``ground-truthing'' exercises 
in the designation of these routes. There are numerous examples of BLM 
designated routes leading to the homes of local residents who 
experience constant trespass by ORVs.

          Depending on the area and weekend, we can have dozens of 
        trespass incidents including the destruction of private 
        property, use of washes as illegal ORV routes, illegal riding 
        on county service roads and the destruction of flood control 
        infrastructure and berms. Illegal stagings of ORVs on private 
        property can reach as many as 50 ORVs riding day and night and 
        onto adjacent private and public lands.

    Of particular concern are the many disturbing incidents of 
harassment and intimidation by ORV riders against residents who contact 
law enforcement for relief. This retaliation has come in the form of 
threats of physical violence, threats to burn down complainants homes, 
threats against pets (in one case, ORV riders are believed to have 
poisoned a complainant's dogs), destruction of private property and 
security fences, and stolen and/or damaged ``no trespassing'' signs. We 
view this is an attempt to deny law-abiding residents access to due 
process of the law. In addition, residents who speak out in the local 
newspapers and public meetings continue to be victims of internet 
stalking including the posting of libelous accusations and racist 
attacks. There has recently appeared what seems to be an effort to 
track enforcement calls and to advertise these on the ORV internet 
sites.
    It has all gotten very ugly at times and this has had a chilling 
effect on residents taking action and reporting illegal activities to 
local officials.

          In 2005, a stakeholder group of ORV enthusiasts, vendor's 
        groups, ORV lobby groups, local homeowners and residents and 
        conservation organizations working closely with the San 
        Bernardino County Department of Code Enforcement presented a 
        fair and effective county ordinance to the San Bernardino 
        County Board of Supervisors who passed the law unanimously. For 
        the complete text of the ordinance please visit our web site: 
        www.orvwatch.com . The county ordinance contains a number of 
        important provisions protecting private property including:

                  a. limits on noise from ORV tailpipes consistent with 
                state noise regulations
                  b. ORV riders must have written permission on their 
                person to ride on private land other than their own
                  c. recourse for residents to document and seek 
                judicial relief for excessive noise and dust and 
                trespass of private lands
                  d. responding to the problem of large scale stagings 
                of ORVs in rural neighborhoods. ORV stagings of 10 or 
                more people must obtain a permit from the local county 
                code enforcement.

    Since its passage in 2005, there have been numerous attempts by ORV 
users (including the state's largest ORV lobby organization--CORVA) to 
repeal or weaken the ordinance, and therefore protection of our lands 
can only be accomplished with continual vigilance. The county 
ordinance, created through a stakeholder process, is viewed as a model 
for other counties in California.

          Maps and educational material will not stop the problems and 
        impact we are facing from illegal off-road vehicle use. There 
        must also be increased fines and law enforcement and 
        stakeholder cooperation as part of a comprehensive plan. We 
        participated in a stakeholder process with the Bureau of Land 
        Management, county Sheriff's department, California Highway 
        Patrol and National Park Service to produce an informational 
        brochure (enclosed) and then assisted the local Sheriff's 
        department obtain California State Off-Highway Vehicle 
        Recreation grant funding to produce thousands of these 
        brochures for distribution.
          The problem has reached crisis proportions. The Morongo Basin 
        is a short 30 minute drive to Johnson Valley, the largest 
        designated ORV open area in the entire county, yet riders 
        continue to trespass on public lands closed to ORV use and 
        private property. Throughout the California Desert Conservation 
        Area, new illegal ORV routes appear constantly.

    What is needed is large format signage on major highways in the 
areas indicating that grant funds are at work and that the area is 
patrolled by law enforcement, and that riders must know the law before 
riding in our area.
Other recommendations
          1. Age limit of 16 years for riders--ORV are just too 
        dangerous for children, please refer to the testimony by the 
        American Association of Pediatricians.
          2. Increased fees and dramatically increased penalties for 
        ORV violations leading to confiscation and jail time. Some 
        penalties are so low that riders consider them the cost of 
        recreation (ORV sponsored internet sites regularly talk about 
        that).
          3. Visible license plates so that residents and law 
        enforcement can identify violators, and so that riders do not 
        feel anonymous and feel they can disobey the law with impunity.
          4. Mandated riding tests such as those required to operate a 
        motor vehicle.
          5. Large format signage and informational kiosks with maps to 
        inform riders of the law and to indicate where they can legally 
        ride.
          6. Installation of a BLM ``resident ranger'' in our area who 
        will concentrate on enforcement, be available to the public, 
        and who will coordinate with the Sheriff's department and 
        county code enforcement. We need a full time BLM resident 
        ranger whose primary position description and responsibility 
        would be to routinely patrol BLM land in the Morongo Basin. The 
        Ranger filling this position should spend not less than 60 % of 
        his/her time patrolling in the field, with a special emphasis 
        on protecting BLM resources, preventing user conflict, 
        educating off-road recreation users, and enforcing applicable 
        off-road law.
          7. Education in the schools to engender a respect for private 
        property and the environment. Information about the 
        environmental impacts of ORVs on wildlife and vegetation. 
        Alternative recreational opportunities for young people.
          8. Vender responsibility--ORV vendors continue to advertise 
        their vehicles clearly riding off-route, cross-country and 
        destroying virgin landscapes. Vendors should be required to 
        provide information about safe and responsible riding.
          9. ORV routes in areas that suffer from frequent incursions 
        should be closed until adequate law enforcement can be 
        guaranteed.
          10. The BLM designated California Desert Conservation Areas 
        should be clearly marked since these areas contain critical 
        habitat for endangered species and areas of critical 
        environmental concern (ACEC) vulnerable to ORV damage.

    In closing, we would like to work with your office and with a group 
of stakeholders to develop federal legislation to address widespread 
ORV abuse of our public lands so that we may preserve these lands for 
future generations. We work with a coalition of grass roots groups 
called the Alliance for Responsible Recreation, an all-volunteer effort 
to protect our precious cultural and natural resources.
                                 ______
                                 
            Statement of Philip M. Klasky, Wonder Valley, CA

    I am a teacher and resident of Wonder Valley, California, a small 
rural community in the eastern Mojave desert. My home and peace and 
quiet is constantly invaded by off-road vehicles (ORV)s resulting in 
damage to my property and impacting my quality of life. Every holiday 
weekend we have to suffer the illegal activities of hundreds of ORVs 
acting illegally and creating a nuisance with excessive dust and noise 
and trespass on private and public lands.
    This hearing is a good first step, but we need action. I am writing 
to ask that the U.S. Senate take specific measures to deal with the 
crisis of illegal off-road vehicle destruction and trespass on our 
private and public lands and to finally reign in a huge problem that is 
causing millions of dollars of property damage, creating additional 
costs to rural communities for impacts on law enforcement and emergency 
services and is resulting in violent conflicts between illegal riders 
and law-abiding citizens.
    I cannot exaggerate the impact of hoards of ORVs, trailered out 
from urban areas to our rural communities, and wreaking havoc on our 
neighborhoods, property, businesses, roads and flood control 
infrastructure. Something must be done now to stop this attack on our 
communities.
    My neighbors and I formed a Neighborhood Watch Program to 
coordinate the defense of our lands and to work cooperatively with 
local law enforcement and code enforcement to catch the perpetrators. 
We have created an all-volunteer organization of homeowners and 
businesses in the Morongo Basin to help law enforcement obtain ORV 
enforcement grant funds, to educate the public on how they can defend 
themselves and to pass local ordinances to address the problem. Our web 
site is www.orvwatch.com.
    Despite our best efforts, the fines are so low, resources for 
enforcement so limited and the ability to apprehend the perpetrators so 
difficult that some riders act as though there are no consequences for 
their activities. There is something terribly wrong with this picture.
    My neighbors and I have been physically and verbally assaulted by 
riders trespassing on our lands. As I stood in my backyard to take 
photograph of one trespasser, he tried to run me over. Local code 
enforcement officers, attempting to stop illegal stagings of dozens of 
ORV have been physically attacked. You don't really understand the 
problem unless you have experienced it personally.
    Our federal, state, county and local laws have not caught up with 
the explosion of vehicles destroying our private and public lands. Our 
politicians seem reluctant to deal with the big ORV vendors who promote 
illegal activity with their ad campaigns and do little to educate the 
public about responsible riding.
    Our public lands in the Western Mojave desert region have been 
abandoned by the Bureau of Land Management (BLM)--the federal agency 
tasked to protect them. Our local BLM office in Barstow does not 
respond to our requests for assistance, cooperation, communication, or 
law enforcement. The lands in the Morongo basin are a checker-board 
pattern of private and public holdings and the lack of cooperation 
between the BLM and local law enforcement allows for widespread and 
unchecked violations. These are public lands set aside for everyone, 
not illegal riders destroying important habitat and natural landscapes.
    I understand that the same kinds of problems with ORVs can be found 
across the country and therefore I would like to suggest federal 
legislation. I would like to suggest the following: responsible 
advertising by vendors and an added tax for law enforcement and 
restoration; a significant effort at public education through the 
schools and in the media; large format signage and informational kiosks 
in problem areas; higher fines, jail time and confiscation of vehicles 
for repeat offenders; age limit for riders; AND MORE FUNDS FOR LAW 
ENFORCEMENT.
    I am grateful for the opportunity to submit this letter to the 
Committee on Natural Resources and would appreciate a reply to my 
concerns.
                                 ______
                                 
           Statement of Mary L. Riggs-Cuyno, Joshua Tree, CA

    My name is Mary Riggs Cuyno. I live in Joshua Tree California, next 
to the Joshua Tree National Park and several BLM and wilderness areas 
in the Morongo Basin. I have been a resident and a teacher for our 
local school district for the last 18 years.
    I began my involvement in issues regarding off road vehicle abuse 
on public and private lands as we began to see a drastic increase in 
neighborhood and public land abuses in 2003 by Off Road Vehicles. 
Though some abuses occured before this time, neighborhoods began 
experiencing significant increases in trespass, noise and even 
harassment as local real estate agents began to advertise this place as 
having ``lots of room to bring your toys'' at the start of the housing 
boom. Even if homes were on 1/4 acre lots, the open areas surrounding 
developments were seen as ``just a bunch of trails'' by newcomers and 
newly affluent alike. In addition, the Joshua Tree National Park began 
seeing an increase in incursions onto park territory adjacent to 
unsupervised and unmanaged BLM lands in our area.
    Enforcement in this area was virtually non-existent, existing laws 
were vague or fell under the jurisdiction of various agencies to the 
point that not one agency could tackle the scope and sequence of ORV 
abuses on public and private lands. I had neighbors who would invite 
friends over to ride on our neighborhood dirt roads at high speeds on 
quads and dirt bikes. However, they wouldn't stay on the roads, they 
would ride up washes and onto my private property. I had instances 
where they would ride through open desert not caring whose property 
they were on. We had others in our neighborhood who would allow their 
children to ride unsupervised on paved streets around the neighborhood 
and even one instance where they were using an elementary school bus 
stop as a jump where they would land in a street where cars regularly 
travel between 45-60 MPH.
    When I tried to talk to my neighbors who trespassed or the parents 
of these unsupervised children, though some responded well, we had many 
others who felt if they didn't get caught, it didn't matter what they 
did. One family in would ride daily all over our once quiet 
neighborhood. They would drag race, spit up dirt plumes that could 
literally be seen over a mile away and trespass with regularity. We 
would call the sheriff, who only dealt with trespass and nuisance 
issues. If we mentioned the riders were on the streets, we were told to 
call the highway patrol, who never showed up. When and if deputies 
arrived, often hours later, we were frequently told there was nothing 
they could do because they didn't observe them in the act, even though 
evidence of tracks leading to and from the perpetrators' residences 
were clear and bikes were parked in plain sight. Sometimes they would 
go ``talk'' to the families responsible. When these riders found who 
was calling on them, myself and others were often targeted with 
deliberate trespass where riders would ignore private property signs 
and run over barriers, an act of deliberate harassment. With little 
relief, several families chose to move out rather than deal with the 
constant and daily problems of ORV abuse for almost 3 years.
    I decided to stand my ground and I got active. I started 
documenting evidence and working with a local organized group who 
regularly met with law enforcement and public officials. Because of 
public outcry and protest against ORV abuse, in 2006, San Bernardino 
County passed Ordinance 3973. This ordinance simply outlines the rules 
of ORV use and consequences of ORV misuse in an enforceable format 
under one jurisdiction. Rules are clear about trespass and puts the 
responsibility on the rider, not the property owner. Repeat offenders 
are met with stiffer fines with a fourth offense leading to jail time. 
Since the passage of this ordinance, law enforcement and riders alike 
now have a set of clear rules to follow. Though the law is not perfect, 
as a homeowner I now have the tools to deal with ORV abuse in my 
neighborhood and the number of offenses have dropped significantly.
    Unfortunately, this is just one county and our officers have had 
their work cut out for them. Funding at the state OHV level is highly 
competitive and since the advisory commission has been disbanded due to 
pressure from the powerful OHV industry lobby, we risk losing the 
funding we fight for every year to pay for enforcement, and we are one 
of the better off communities. What about those communities that have 
no clear laws? No education programs? No funding at the state level? 
What about abuses of our public lands? Why is the BLM chronically under 
funded when this is a growing national problem?
    The solution is simple. Just like in a classroom, clear rules and 
consequences for breaking them ensure a well-run class. Abusive riders 
stay away from areas where enforcement maintains a presence and stiff 
penalties for repeat offenders are put into effect. Methods of 
identification such as mandated license plates and training 
certificates with a photo ID help officers do their job. On the other 
hand, abusive riders flock to areas where enforcement is nonexistent 
which often leads to other crimes such as drunken riding, property 
damage, trespass and harassment. American citizens should not have to 
live with this disregard for our quality of life.
    In conclusion, I would like to thank this committee for 
investigating this national issue of Off Road Vehicle Abuse. Please 
continue to represent the majority of American citizens who deserve to 
enjoy their neighborhoods and public lands free from ORV destruction, 
abuse and trespass. This requires active involvement by the public and 
most importantly, by our elected representatives.
                                 ______
                                 
           Statement of Mark E. Heuston, Twentynine Palms, CA

    My name is Mark Heuston, and I live in the unincorporated community 
of Wonder Valley near Twentynine Palms, where I have resided for 25 
years. I am an artist by profession, with an established presence in 
the local art and commercial community. I am a local property owner, 
drawn to this area by it's intrinsic natural beauty and rural 
lifestyle.

                               BACKGROUND

    Off-road recreationists have come to this area for many years, but 
conflict and trespass was rare up until about five years ago when off-
road vehicle (ORV) use in the area began to soar. Increasingly, weekend 
recreationists assembled in large groups at vacation cabins in the area 
with dune buggies, dirt bikes,and quad runners and proceeded to run 
roughshod over local tax payer maintained roads, private property, and 
public lands. Inadequate laws, funding, and staffing contributed to a 
failure by both local and federal (BLM) law enforcement to address the 
growing problem. Emboldened by the apparent lack of enforcement, some 
local ORV enthusiasts began to engage in increasingly abusive riding 
behavior as well.
    Successful enforcement and user conflict resolution is further 
exacerbated by a local land use pattern of interspersed federal (BLM) 
and private land parcels that make jurisdiction determination by law 
enforcement field personnel problematic. Inadequate cooperation and 
coordination between BLM and local county law enforcement managers has 
also contributed to the problem. To make matters worse, a BLM 
management plan (WEMO) has designated riding routes threaded though the 
Wonder Valley community that invite trespass and promote conflict 
between residents and users. Ranger presence is virtually non--existent 
on these new routes, and law enforcement personnel with the BLM Barstow 
office has advised that they will not enforce on these routes even if 
violations are observed.
    All of these factors have combined to reduce residential quality of 
life to the point of hardship. Trespass, vandalism, dust, noise at all 
hours, violence, threats of violence, and harassment have become a grim 
reality for many rural area residents who ask no more than to be left 
in peace and have their property rights respected. Deeply concerned 
about the future of their homes and properties, local residents banded 
together to form Community ORV Watch www.orvwatch.com to better seek a 
resolution to the problem. We quickly discovered that many other 
regional (Morongo Basin) residents were experiencing similar problems, 
and invited their participation and assistance.
    In cooperation with other county residents and the Alliance for 
Responsible Recreation, (ARR) Community ORV Watch urged the San 
Bernardino County Board of Supervisors to pass Ordinance 3973 in 2006. 
This ordinance established new enforcement tools for use by the 
county's code enforcement and law enforcement branches alike in 
providing relief to residents affected by illegal or abusive ORV use. 
Ordinance 3973 has helped, but cannot address ORV abuse on federal 
lands. Some defiant pro ORV activists continue to ride irresponsibly, 
and work actively to weaken or overturn ordinance 3973 as well as 
targeting and harassing any resident they can identify who supports 
ordinance 3973 or publicly advocates for responsible riding. Much 
remains to be done if the rights and well being of area homeowners are 
to be assured.

                  MY OWN EXPERIENCES WITH ORV IMPACTS

    My experiences relating to ORVs over the last few years have been 
educational to say the least. I have learned much about ORV politics 
and how to participate to some degree in local political process. I 
would gladly have forgone this education to focus instead upon the day 
to day matters of family, friends, and work if I'd had the choice; I am 
a reluctant activist.
    I've never been happy with the growing damage to the desert 
landscape I've observed over the last 25 years, but like many folks I 
was too engaged in matters of my own day to day life to get involved 
until the problem (literally) came to me. It wasn't a particular 
seminal moment of awareness so much as a growing realization that I was 
having to deal with trespass more and more often, and with increasing 
frequency having my sleep and other normal life activities disrupted by 
the howl of revving engines tearing across my land or nearby BLM land.
    A nearby cabin owner had long been coming out on weekends to ride 
ORV's with friends and family, but what was previously a minor 
irritation took on new dimensions when he began to show up with 
increasing frequency with larger and larger groups of riders, and 
staying for longer durations. As many as 60 participants would show up 
for as long as five days straight of riding on local roads, private 
lands, and public lands, at all hours with quad runners, dirtbikes, and 
sand rails so powerful that when I took refuge at a friend's home three 
miles away the din was still clearly audible at that distance. I was to 
learn later that the growing ORV staging activity I was observing was 
being repeated all over Wonder Valley and the rest of the Morongo 
Basin.
    I was raised to respect law enforcement as a friend and ally, and 
turned to the local Sheriff for help. My calls for assistance were 
greeted time and again by officers responding hours after the call, and 
usually after the activity had temporarily subsided. Some tried to be 
helpful, some were indifferent, and some openly sympathized with the 
riders. ``There's nothing we can do'' was a common refrain. When later 
I began to contact the local Barstow BLM Office for help, the response 
was much the same with the exception that rangers were not available 
and no response could be expected.
    The riders at the nearby cabin were not pleased by the presence or 
occasional visit of a deputy, and expressed their displeasure with a 
systematic pattern of retaliation: One Deputy appearance equalled one 
(or more) harassing visits, often late at night. Retaliation variously 
took the form of ``donuts'' cut into my driveway or land, a rider 
tearing across my land, late night drive--bys in extremely loud 
vehicles on consecutive nights to assure sleep deprivation, and hostile 
riders parking at my residential or studio (place of work) driveway 
staring, watching, and revving engines. A visit by a county code 
enforcement officer to the staging location precipitated a visit to my 
studio of a group of riders on quad runners who parked nearby and 
treated me to curses, threats and epithets for nearly 10 minutes.
    I've cited the incidents above in some detail as examples, but time 
and space will not permit a detailed narrative of all the examples of 
intimidation or abusive off-road activity my neighbors and I have been 
subjected over the last three years. Suffice to say that threats of 
violence and harassment by off-road advocates have become an unwelcome 
part of my life. As my neighbors and I became more publicly active 
through Community ORV Watch, the harassment has shifted to more public 
arenas such as internet message boards, blog sites, and local papers 
with character assassination and slander of a vile nature an 
increasingly common tool currently being used against us.
    All of this has served to create a climate of fear. Some of my 
neighbors are reluctant to speak out or even to call in a complaint to 
the authorities out of fear of retaliation. Many are elderly, and some 
have disabilities such as asthma, neurological conditions, or COPD that 
are aggravated by the excess dust, noise, or stress abusive riding 
subjects them to. One neighbor is a military veteran with cancer who 
moved here to spend his final years in a peaceful rural setting. He 
also suffers from Post Traumatic Stress, and routinely leaves his home 
for days at a time during ``ORV holidays'' such as Thanksgiving and 
President's Day to escape from the stress and noise.
    Although some progress has been made on a local County level, The 
apparent lack of concern and disregard for the hardship imposed on area 
residents exposed to trespass and disturbance from adjoining BLM lands 
by the BLM Barstow office has been disappointing. Worse than the lack 
of concern has been the active and open deference displayed by the BLM 
Barstow office in favor ORV recreation ``opportunities'' at the expense 
of area residents.
    I participated in a BLM sponsored stakeholder process facilitated 
by BLM employee Russell Scofield three years ago along with other 
community representatives and members of the local Sheriff's Office to 
design an off-road brochure as a public education tool. During that 
process, Scofield severely limited the number of participants from 
Community ORV Watch while inviting a large number of ORV advocates and 
representatives of the ORV business community. Pro--ORV interests 
easily outnumbered all other participants combined.
    Mr. Scofield turned a blind eye to heckling and harassing behavior 
directed repeatedly at me by at least one pro ORV stakeholder, and 
stalled the brochure process for months by variously claiming computer 
glitches, lost documents, and other mishaps that added up to a clear 
pattern of obstruction. This went on for so many months that Sheriff's 
Captain Jim Williams (a stakeholder) finally took matters into his own 
hands to push though the completion and final publishing of the 
brochure without BLM assistance.
    When Roxie Trost came on board as manager for the Barstow BLM 
office she greeted members of Community ORV Watch and other concerned 
residents cordially, and even attended a tour of the local area to view 
and discuss ORV problem spots in Wonder Valley. While initially 
encouraging, her subsequent behavior towards the community has proved 
to be disappointing. Trost indicated to Community ORV Watch and other 
concerned residents both in writing and though oral communication that 
she would work to refill the vacant local district Ranger position, 
which would once again put a ranger presence in the Morongo Basin thus 
restoring regular patrol and a local ranger response. The position was 
filled by Ranger Maclean, but it was not until he had been on duty for 
a number of months that I learned from him that he had not been hired 
as the district ranger, was not expected to patrol our district on a 
regular basis, and was in fact actually hired by Barstow BLM as a 
training officer. I was present at this conversation with Ranger 
Maclean during a meeting with area residents at the Post Homestead. 
Given the circumstances, it is difficult to imagine that Trost's 
misinformation regarding the district ranger position was 
unintentional.
    Under Roxie Trost's administration, Barstow BLM has largely failed 
to address community concerns about continuing ORV damage to the BLM 
Cleghorn Wilderness and ongoing ORV damage to cultural and natural 
resources at the historic Post Homestead. With the exception of brief 
ranger appearances during some ORV Holidays, BLM Barstow has failed to 
effectively address user conflict and trespass from BLM lands and 
designated routes. While some of this might be excusable due to funding 
and staffing limitations, the pattern of misinformation, poor 
communication and poor cooperation with concerned area residents is 
not. For most of us this is our home, and there is too much at stake to 
simply give up and walk away from admittedly uncomfortable issues.

                          POTENTIAL SOLUTIONS

    Having lived close to the problem of ORV abuse for several years, 
it may come as no surprise that I've had the time and opportunity to 
think about the issue at length, and I'm happy for the opportunity to 
share a few ideas that I feel might reduce user conflict and protect 
private property and residential neighborhoods.
    BLM: Better cooperation and communication between Barstow BLM and 
local county law enforcement to resolve local jurisdictional 
enforcement issues.
    BLM: Better cooperation and communication between Barstow BLM and 
area residents adversely affected by ORV activity on BLM managed lands. 
This should include improved communications with ARR and Community ORV 
Watch, both of which represent area residents and advocate for 
responsible ORV use.
    BLM: Cooperate with local residents, ARR, and Community ORV Watch 
to better protect, restore, and interpret local BLM holdings such as 
the Post Homestead and the Cleghorn Wilderness. Local residents 
including Community ORV Watch have expressed willingness to donate 
volunteer hours to assist in directed projects, and Community ORV Watch 
has expressed a willingness to fund projects such as interpretive 
kiosks or picnic tables where BLM budgeting is inadequate.
    BLM: Closure of problematic WEMO routes that go through populated 
rural areas, especially where those routes invite trespass on private 
lands or local taxpayer maintained roads. Future designated route 
considerations should favor siting such routes in Federal land holdings 
remote from residential areas, with preference given to areas already 
impacted by historic activity such as mining. BLM designated routes in 
the old Gold Crown Mining District East of Twentynine Palms are a good 
example of this.
    BLM: Staffing of the former district ranger's position in the 
Morongo basin with a candidate who's primary responsibility will be to 
respond to incidents in district, routinely patrol BLM land holdings in 
the Morongo Basin, enforce federal ORV regulations, and conduct 
educational outreach to ORV recreationists using BLM lands and routes.
    GENERAL: Grant programs to assist local law enforcement with ORV 
enforcement in locations where Riding opportunities on federal lands 
are adversely affecting local communities. Grants should be targeted to 
assure better field coverage by law enforcement as well as educational 
materials to minimize user conflict.

                               CONCLUSION

    A particular recreational activity should not be at the expense of 
private property rights or the rule of law. Federal land managers must 
consider the effects of ORV management decisions on adjoining private 
lands, and be accountable for them. The gratuitous destruction of 
undesignated public lands for mindless entertainment must end. The 
abuse of private lands and subsequent harassment of residents who 
object can no longer be tolerated. To these ends, I humbly request the 
assistance and consideration of this august and distinguished 
committee. Thank you for the opportunity to offer my testimony, and 
thank you for your leadership in considering the important issue of ORV 
abuse.
                                 ______
                                 
          Statement of Mark Menlove, Winter Wildlands Alliance

    I am Mark Menlove. I live in Boise, Idaho and I serve as the 
Executive Director of Winter Wildlands Alliance.
    I submit this statement for the committee record on behalf of 
Winter Wildlands Alliance, a national nonprofit organization with the 
mission of promoting and protecting winter wildlands and a quality 
human-powered snowsports experience on public lands. Winter Wildlands 
Alliance represents the interests of the 18 million Americans who 
Nordic and backcountry ski, snowboard and snowshoe on our nation's 
public lands. We have members in 45 states and a network of 28 local or 
regional grassroots clubs and advocacy groups.
    My concern with off-road vehicle (ORV) management, particularly 
with respect to winter use, is both personal and professional. I grew 
up skiing, hiking and camping in Utah's Wasatch Mountains. My childhood 
time in the outdoors profoundly influenced my life and, indeed, served 
as the basis for my pursuing a career in the outdoor and winter 
recreation industry. Among other recreation jobs, I worked for the U.S. 
Ski Team and served as President of the Utah Ski Association. I've also 
worked as a backcountry ski guide and am a certified avalanche and snow 
safety professional. I was involved, through my role at Ski Utah, in 
the Salt Lake Olympic bid efforts and later had the honor of working 
for the Salt Lake Olympic Committee by running the press operation for 
all of the Olympic events held at Park City Resort.
    Much of my time these days is spent passing on my love of the 
outdoors to my children. Winter weekends find us at our local ski hill, 
Bogus Basin, located on the Boise National Forest, or backcountry 
skiing or snowshoeing into the Sawtooth National Recreation Area. This 
winter, as we do every winter, we made a family trek into one of 
Idaho's backcountry yurts for an overnight stay. I put my five-year-
old-son, Asa, on cross-country skis for the first time and to see the 
sense of accomplishment and sheer joy he got from skiing all the way in 
to the yurt and back out by himself was one of the most rewarding 
parenting experiences of my life.
    I also want to point out I have logged my share of miles on a 
snowmobile. Growing up, my family owned snowmobiles (though those 
machines in the early 1970s bore little resemblance in power and reach 
to today's snowmobiles) and I have fond memories of family outings on 
snowmobiles. Before moving to Boise for my position with Winter 
Wildlands Alliance, my wife and I and our two young children lived for 
three years in a remote cabin at 9200 feet in the Wasatch Mountains. In 
winter we were five miles and several thousand vertical feet from the 
nearest plowed road and so we commuted for six months of each year on 
snowmobile.
    I am well acquainted with snowmobiles both as recreational and 
utilitarian vehicles. My concern is not with the legitimacy of 
snowmobiles, but with the gross imbalance in the current management of 
national forest lands with respect to winter ORV use. While millions of 
Americans turn to national forests for peace and quiet during winter 
months, noisy and polluting snowmobile traffic monopolizes a lion's 
share of forest lands.
    As documented in the attached Winter Wildlands Alliance report* 
analyzing Forest Service data on winter recreation patterns, 
snowmobiles are a minority of those who use national forests in winter, 
yet they dominate 70 percent of the winter forest and 90 percent of 
winter trails. There are many winter trails and slopes where I would 
love to take my family to cross-country ski or snowshoe but to do so 
would put them in the path of machines that weigh up to 600 pounds and 
travel in excess of 100 miles per hour, a speed at which it takes more 
than 200 feet to stop on snow.
---------------------------------------------------------------------------
    * Report has been retained in committee files.
---------------------------------------------------------------------------
    It doesn't need to be this way. The report also highlights 
successful resolution to winter conflict such as the Wood River Valley 
Winter Use Plan on Idaho's Sawtooth National Forest where local skiers 
and snowmobilers sat down and worked out an agreement about which areas 
were best suited for snowmobiles and which were best suited for 
traditional, quiet recreation. After eight years that agreement is 
proving both successful and durable.
    The problem is, since snowmobiles and other over-snow vehicles 
(OSVs) are excluded from the current Travel Management Rule, Forest 
Service regulations actually discourage this kind of citizen 
involvement and collaboration. The 2005 Travel Management Rule, because 
of its exemption of OSVs, represents a missed opportunity to correct 
the imbalance on national forest lands in winter.
    background on over-snow vehicles and the travel management rule
    Since 1972 when President Nixon issued Executive Order 11644, the 
U.S. Forest Service has regulated the use of all ORVs, including 
snowmobiles, on national forest lands on the basis of a uniform set of 
standards. However, in December 2005, the USFS repealed the regulations 
(former 36 CFR Part 295) that, based on EO 11644, provided for this 
uniform system of regulation (70 FR 68264).
    The Department of Agriculture on December 9, 2005 published final 
rulemaking (70 FR 682684) to promulgate revised regulations governing 
travel management on National Forest System lands, specifically to 
clarify policy related to motor vehicle use on Forest Service lands. 
The final Rule requires the Forest Service to designate those roads, 
trails, and areas that are open to motor vehicle use (36 CFR Part 
212.51), and prohibits the use of motor vehicles off the designated 
roads, trails, and areas (36 CFR Part 261.13).
    Although the Secretary states that the Rule is ``consistent with 
provisions of Executive Order 11644 and Executive Order 11989 regarding 
off-road use of motor vehicles on Federal lands,'' Winter Wildlands 
Alliance and our 28 grassroots groups believe the Rule is deeply flawed 
insofar as it exempts snowmobiles and other OSVs from the mandatory 
designation scheme provided under Part 212.51.
    The 2005 Rule requires Forest Service managers to adhere to a 
number of requirements in designating lands as either open or closed to 
motor vehicle use. These include mandatory public involvement, periodic 
revision of designations and, perhaps most importantly, application of 
specific substantive criteria in making designations (e.g., the 
responsible official must act to minimize ``damage to forest resources, 
harassment of wildlife [and] conflicts between motor vehicle use and 
existing or proposed recreational uses''). The Rule does preserve a 
Forest Service manager's ability to allow, restrict or prohibit over-
snow vehicle use (36 CFR Sec. 212.81). However, because snowmobiles are 
exempt from the Rule's designation scheme, none of these otherwise 
mandatory requirements apply to a manager's decision to designate lands 
as open to snowmobiling. The decision is wholly within the discretion 
of the responsible official.
    Even more objectionable, the Rule does require the application of 
the mandatory standards when a land manager desires to close an area 
for snowmobiling. Thus, under the new regulations, opening lands to 
snowmobile use requires no public involvement, no analysis of potential 
damage to soil and other forest resources, and no consideration of 
conflicts between snowmobile use and other recreational uses such as 
skiers and snowshoers. Yet an action to close those same lands to 
snowmobiles would first require a public comment period and all other 
procedural elements of the Rule. Importantly, the Rule contains no 
standards to guide land managers in their decision whether to allow 
snowmobiling. In other words, the regulation contains within it a clear 
preference or bias in favor of unrestricted snowmobile use.
    In addition, the Rule introduces an entirely new definition of 
``over snow vehicle.'' The rule-writers, ``[I]n order to improve 
clarity and ensure equitable treatment of over snow vehicle use,'' 
define over-snow vehicles to include not only snowmobiles but also 
snow-cats, snow groomers and treaded ATVs. While such clarity is 
warranted, the fact remains that these additional vehicles are now also 
excluded from the mandatory regulatory framework of the Rule.
    This exclusion of OSV use from the requirements imposed on other 
motorized uses of national forest lands is in direct contradiction to 
the Executive Orders upon which the Rule is based.

              WHY ARE SNOWMOBILES EXCLUDED FROM THE RULE?

    The Rule provides little insight into why the Department decided to 
exempt snowmobiles and other OSVs. First, the rule-writers agree that 
snowmobiles are ``off-road vehicles'' under Executive Order 11644 and 
thus are subject to ``administrative designation of the specific areas 
and trails on public lands on which the use of off-road vehicles may be 
permitted, and areas in which the use of off-road vehicles may not be 
permitted.'' This would appear to require the regulation of OSVs, but 
instead, the Department ``believes that cross-country use of 
snowmobiles presents a different set of management issues and 
environmental impacts than cross-country use of other types of 
motorized vehicles.''(70 FR 68273). As evidence, the agency offers that 
unlike ATVs, ``over-snow vehicles traveling cross-country generally do 
not create a permanent trail or have a direct impact on soil and ground 
vegetation,'' an assessment that first, ignores the instruction given 
in the Executive Orders to minimize user conflict and second, 
disregards the growing evidence of snowmobile damage to alpine tundra, 
reforested areas (tree-top damage), and stream banks and riverbeds at 
water crossings.
    The rule-writers reach the conclusion that ``the Department expects 
that management of winter recreational use will continue to be an 
important issue on many National Forests.'' But instead of following 
its own logic and folding snowmobiles into the just-introduced 
regulatory framework, the rule-writers decide, ``[T]herefore, the final 
rule exempts snowmobiles from the mandatory designation scheme'' (70 FR 
68273).

        WHY TRAVEL MANAGEMENT PLANNING SHOULD INCLUDE WINTER USE

    While the Travel Management Rule simply ``writes out'' snowmobiles 
from its mandatory designation scheme, Executive Order 11644 provides a 
framework that would seem to compel forest managers to include winter 
travel in their forests' travel planning, under certain circumstances.
    Section 3(a) of the Executive Order requires that regulations be 
based on protection of the resource, promotion of the safety of all 
users, and minimization of conflicts among the various users. 
Specifically, the regulations require that the location of areas and 
trails minimize----

  <bullet> Damage to soil, watershed, vegetation, or other resources;
  <bullet> Harassment of wildlife or significant disruption of wildlife 
        habitats; and
  <bullet> Conflicts between off-road vehicle use and other existing or 
        proposed recreational uses of the same or neighboring public 
        lands.

    The presence of any one or more of these issues occurring during 
winter should compel forest managers to undertake winter travel 
planning. Because of the noise and noxious exhaust fumes they emit, as 
well as their potential to inflict serious injury in the event of a 
collision, snowmobiles are indistinguishable from other ORVs in terms 
of their adverse impacts on non-motorized users of national forest 
lands. The fact that snowmobile tracks are not ``permanent'' (because 
snow melts) is irrelevant if while they exist they have adverse impacts 
in the form of scarring the visual landscape and creating hazardous 
ruts and ridges when the snow melts and refreezes. Similarly, 
snowmobiles have adverse impacts on wildlife and wildlife habitat that 
are no less severe than those caused by other ORVs. And when 
snowmobiles are used in areas with inadequate snow cover--a common 
practice--they do have a ``direct impact on soil and ground 
vegetation.'' In short, the similarities and parallels between 
snowmobiles and other ORVs in terms of their impacts on the natural 
resource values far outweigh the differences between them.
    The social conflict dimension is well documented. The most telling 
characteristic of the conflict between motorized and non-motorized 
recreationists is that the impacts experienced fall disproportionately 
on one type of forest user. That is, the presence of a few skiers or 
snowshoers does not diminish the recreational experience of 
snowmobilers, while the noise, exhaust, tracks and speed of just one 
snowmobiler may significantly degrade the experience of many quiet 
recreationists.

   THE DEREGULATION OF OSV USE ON NATIONAL FOREST LANDS NEEDS TO BE 
                                REMEDIED

    Winter Wildlands Alliance and our grassroots groups believe this 
effective deregulation of an entire class of motor vehicles on national 
forest lands, the result of the 2005 Travel Management Rule, must be 
remedied by putting in place a set of standards for motorized use that 
treats OSV use no differently from the standpoint of resource damage 
and user conflict than other motorized uses. This could be accomplished 
by removal of the exception for OSV use in the 2005 Rule or by 
promulgating a new rule specifically for OSV use on national forest 
lands.
                                 ______
                                 
Statement of Pat Flanagan, Program Coordinator, the Mojave Desert Land 
                         Trust, Joshua Tree, CA

    Thank you and the committee for taking the time to listen and 
consider our experiences with illegal Off-Road Vehicle abuse.
    The Mojave Desert Land Trust is a non-profit land trust whose 
mission is to preserve in perpetuity the Mojave Desert ecosystem and 
its cultural and scenic resources through land acquisition and 
stewardship. The land trust acquires private land through purchase, 
easement or gift. Under land trust ownership, the land is private until 
transferred to a government agency.
    We raise funds through private donations, foundation grants, 
government programs, and membership. Many donations are the modest sums 
that could have filled the tank or purchased groceries but instead feed 
hopes for continuing dark skies, clear air, profound quiet, free 
roaming desert tortoise and miles and miles of open desert land.
    Land Trusts are responsible to their mission, their members and 
funders, the state Franchise Tax Board and the Internal Revenue Service 
to maintain the acquired land or easements for conservation purposes. 
These are responsibilities which drive all trust activities. Failure 
can bring severe consequences including loss of public support, fines, 
and loss of non-profit status.
    The Mojave Desert Land Trust was founded in 2005 and has since 
purchased, with private foundation funds, over 6,000 acres of 
inholdings within the California desert national parks. These 
inholdings will be given to the National Park Service under an 
agreement that they will be maintained for the conservation purposes 
they were acquired. The Land Trust will steward the agreements in 
perpetuity and have trained 40 volunteer stewards for this purpose. We 
are painfully aware that a major threat to our activities is the 
behavior of ORV riders and their belief that they have the ``right to 
ride'' whenever and wherever they choose.
    In 2006, our first capital campaign required us to raise nearly a 
million dollars from all sources to preserve a section of land (640 
acres) providing habitat for big horn sheep, mule deer, multiple bird 
and animal species, and ancient stands of Perry Nolina and Pinyon Pine. 
The section is within the Wildlands-Urban Interface and a high fire 
zone. Although this land will eventually become part of Joshua Tree 
National Park, to date it has always been private land. From the moment 
escrow papers were signed it was essential to invest in a heavy steel 
gate and signage to protect the area from illegal ORV traffic and 
trails. The trails promoted erosion and provided access for illegal 
riding, hunting, target practice and logging of ancient Pinyon Pine 
trees. Currently we have spent nearly $6,000 and many volunteer hours 
to restore the area, maintain the gate, and discourage vandalism. It 
appears our efforts provoke illegal trespass rather than promote 
respect for private property. The land trust is accused of ``closing 
out the public'' but this land has always been private; never open to 
ORV riders or loggers. It has been and remains open to hikers, horse 
riders, and cross country bike riding. Many of these recreational users 
supported the purchase with their dollars and volunteer time.
    We appreciate this opportunity to comment in the belief that 
national awareness of the overwhelming magnitude of illegal OHV 
destruction of private and public lands will promote new control 
efforts at all government levels and increase essential restoration 
programs. Currently, laws which should protect private property rights 
are ineffectual and encourage illegal OHV riding. This lawlessness 
hampers land conservation groups, like the Mojave Desert Land Trust, 
from meeting their mission, honoring their supporters, and complying 
with state and federal tax laws.
                                 ______
                                 
           Statement of the Southern Utah Wilderness Alliance

    We wish to thank you for the holding this oversight hearing on such 
an important and relevant issue as off-road vehicle (ORV) management 
and planning, which impacts millions of acres of public lands across 
the nation. The damage and impacts caused by ORV use on public lands 
throughout the West, particularly in Utah, has led to a great amount of 
recent attention focused on ORV management and the ORV travel plans 
that government agencies are currently drafting. The Southern Utah 
Wilderness Alliance (SUWA), a membership based citizens' group 
dedicated to preserving the wilderness quality public lands of Utah, 
has made ORV travel plans and management a priority in preserving the 
health and quality of Utah's public lands.
    Off-road vehicles have long been acknowledged as the number one 
threat to wilderness quality lands in Utah. The Bureau of Land 
Management's (BLM) management of public lands in Utah, which currently 
allows cross-country travel, in conjunction with skyrocketing ORV use 
has left permanent scars on Utah's fragile desert landscape, and has 
led to increased vandalism and looting of ancient archaeological 
resources. Recently, in conjunction with BLM's revision of its outdated 
Resource Management Plans (RMPs), the agency has drafted ORV travel 
plans for some 11 million acres of public lands that are managed by six 
BLM field offices in Utah--all on the Colorado Plateau. Conservation 
and quiet-use advocates for the public lands in Utah have seen this 
process as a great opportunity for the BLM to effectively address and 
balance various resource issues and needs including: wilderness, 
cultural resource protection, scenic values, traditional recreation and 
access. Despite having taken seven years and spending tens of millions 
of dollars in the process, the Utah BLM has failed to meet its legal 
obligations to produce reasonable, enforceable and protective ORV 
travel plans. Yet the agency is rushing to finalize these inadequate 
travel plans before the final days of the current administration.
    One of the greatest oversights in the agency's proposed ORV travel 
plans is the disregard for lands that BLM, itself, has identified as 
``having wilderness character.'' These BLM Roadless Areas, 
approximately 2.8 million acres, are made up of some of Utah's most 
wild unprotected public lands. Although the agency has officially 
identified and mapped these BLM Roadless Areas, it is proposing to 
designate approximately 1000 miles of ORV routes in these roadless 
areas. Rather than manage for the protection of this special roadless 
resource, the BLM has chosen to disregard its own findings by 
designating official ORV routes in nearly every identified Roadless 
Area. The BLM has the opportunity to protect these roadless areas by 
choosing not to designate a mere 1,000 miles of the nearly 18,000 miles 
of route proposed for ORV use across the 11 million acre planning area. 
This constitutes a relatively small percentage (6%) of proposed route 
mileage and will provide wide-ranging benefits by protecting not only 
wilderness lands, but also cultural and natural resources.
    Preserving the remaining roadless areas will allow BLM to comply 
with federal mandates that apply to public lands management. Federal 
law and regulations require BLM to manage public lands for multiple 
use, but certainly not every use on every acre. In addition, BLM is 
required to protect cultural resources and artifacts as well as the 
natural resources, including wildlife, riparian areas, vegetation, and 
soils, and minimizing impacts of ORV use to other users. (Federal Land 
Policy and Management Act, 43 U.S.C Sec. 1701 et seq. and 43 C.F.R. 
Sec. 8342.1). Preserving the remaining roadless areas is consistent 
with FLPMA's multiple-use mandate as well as the federal regulations 
governing ORV use on public lands.
    Utah's public lands contain vast amounts of historically 
significant cultural resources, but the vast majority (nearly 95%) are 
unsurveyed and unrecorded. Although BLM does not know the location and 
extent of these irreplaceable resources, BLM's ORV travel plans will 
put these treasures at increased risk of vandalism, looting, and 
inadvertent damage as the agency is proposing ORV use in areas that are 
known to contain prehistoric artifacts. Although the National Historic 
Preservation Act requires that BLM conduct meaningful consultation with 
Native American Tribes before taking actions that could effect these 
cultural resources, absent comprehensive surveys, such consultation are 
not complete. Professional archaeologists as well as agency specialists 
agree that allowing ORV use in areas with cultural resources increases 
damages and risks to these important links to the past. Cultural sites 
in close proximity to or within eyesight of ORV routes are at a 
significantly increased risk of vandalism, looting, and other damage.
    We also harbor grave concerns about the future of natural resources 
such as scarce desert streams and wetlands, flora and fauna--all 
heavily impacted by ORV use. Water is the lifeblood of the Colorado 
Plateau including the high arid deserts in Utah. Although riparian 
areas make up only 1-2% of our public lands, they host 75-80% of all 
wildlife. Inexplicably, Utah BLM proposes to designate ORV routes in 
most (if not all) of the riparian areas in the 11 million acres under 
review. There is little disagreement among the scientific community 
that ORV use in riparian areas should be stringently avoided, as such 
use results in significant, long-term impacts to the riparian areas and 
associated ecosystem such as erosion, flooding, flora and fauna loss 
and diminished water quality. In addition, BLM's proposed ORV travel 
plans ignore conflicts with threatened, endangered and sensitive 
species, including both wildlife and plant species.
    User conflict is an important component of the BLM's ORV management 
mandate that the Utah BLM has failed to address. Utah BLM's proposed 
ORV travel plans make available to ORV use 84 percent of public lands 
in eastern and southern Utah (specifically, between 77 and 96 percent 
of public lands depending on BLM Field Office), blanketing the Colorado 
Plateau with a dense, unplanned, and unmanageable network of ORV 
routes. BLM's proposed ORV travel plans essentially adopt local county 
route proposals, fail to state a purpose and need for each route, and 
fail to analyze potential resource impacts for these thousands of miles 
of route. BLM's wholesale acceptance of the counties' proposal of 
``existing'' routes is little, if any, improvement over the status quo, 
which is allowing natural and cultural resources to be irreparably 
damaged, and provides few places for traditional, non-motorized 
recreationists to escape the sites and sounds of motor vehicles. For 
example, in the heart of canyon country near Moab, 84% of the public 
lands will be within 5 city blocks of a motorized route, leaving few 
places where visitors can find a quiet, remote place away from the 
noise, pollution, and other impacts caused by off-road vehicle use. 
BLM's plan to blanket public lands with official off-road vehicle 
routes is at odds with the agency's own visitor survey that revealed 
that only 7% of visitors to Moab's public lands said their main 
activity on public lands was using off-road vehicles.
    With the recent clamor surrounding ORV enforcement nightmares, it 
would be remiss not to address the enforceability of BLM's proposed ORV 
travel plans. However, Utah BLM's draft ORV travel plans are largely 
silent on how the agency intends to manage and enforce ORV use on a 
sprawling network containing approximately 18,000 miles of route. This 
is even more critical, given that 50% of dirt bike riders report that 
they prefer to ride ``off trail, and over 50% of ATV riders report that 
they did, in fact, ride ``off trail'' on their most recent outing.\1\ 
Even with designated, signed and mapped route plans, it is difficult to 
imagine that BLM will be able to enforce the thousands of miles of ORV 
routes and to prevent cross-country travel. Simply stated, fewer 
designated routes and more non-ORV use areas would help ensure 
enforcement of Utah BLM's ORV travel plans.
---------------------------------------------------------------------------
    \1\ Off Highway Vehicle Uses and Owner Preferences in Utah 
(Revised), 2002, Utah Division of Natural Resources, Division of Parks 
and Recreation, Professional Report IORT PR2001-02.
---------------------------------------------------------------------------
    Last, October and again this past March--nearly 100 Members of 
Congress signed letters addressed to Interior Secretary Kempthorne, 
requesting that he personally review these plans for Utah with 
consideration of the concerns raised above. Secretary Kempthorne has 
repeatedly assured Congress that natural resources are being adequately 
protected under these plans and that the process under which the plans 
were produced is in compliance with the law. It is distressing to us 
that BLM continues to ignore and gloss over federal law and regulations 
and is solely focused on finalizing these inadequate plans before the 
current administration departs. The American people are being 
shortchanged by the BLM's failure to protect natural and cultural 
resources and its politically motivated tilt to prevent future 
wilderness designation in Utah.
    There is an easy fix for these plans. By not designating ORV routes 
in Utah's roadless areas that have been identified by BLM, itself, 
until comprehensive surveys and analysis are completed, our natural and 
cultural heritage can be preserved, while motorized recreationists 
continue to have thousands of miles of routes to access public lands in 
Utah's canyon country.
                                 ______
                                 
                                       Safe Kids Worldwide,
                                      Washington, DC, May 30, 2008.
Hon. Jeff Bingaman,
U.S. Senate, Chairman, Senate Committee on Energy and Natural 
        Resources, Washington, DC.
    Dear Chairman Bingaman: On behalf of Safe Kids USA, a member of 
Safe Kids Worldwide, I want to call your attention to the dangerous 
practice of children riding all-terrain vehicles (ATVs). In light of 
your Committee's hearing on June 5th concerning off-highway vehicle 
management on public lands, please know that Safe Kids USA recommends 
that children under the age of 16 never operate all-terrain vehicles of 
any size, including youth-sized ATVs.
    As you know, ATVs are motorized vehicles designed for recreation 
and farm, ranch and industrial work. Each year, an estimated 130 
children under age 16 die and approximately 40,000 are seriously 
injured in ATV-related incidents. ATVs are inherently difficult to 
operate, and children under 16 do not have the cognitive and physical 
capabilities to operate these vehicles safely. In addition, ATV-related 
injuries tend to be serious and, while wearing a helmet can reduce the 
risk of head injuries, there are no safety devices to protect against 
other injuries commonly sustained while riding ATVs. We urge the 
Committee to consider a policy, if not an outright ban, on the use of 
ATVs for children under age 16 on our country's public lands.
            Sincerely,
                                                 Alan Korn,
                       Director of Public Policy & General Counsel.
                                 ______
                                 
               Statement of Jack Duggan, Jacksonville, OR

    I have learned that your Committee is holding a hearing on the 
issue of Off-Highway Vehicles (OHV). I would most like to come to the 
hearing and testify in person, but lack both the time and finances to 
do so. Please accept this letter as one citizen's testimony.
    I was thrilled, as a young Vietnam veteran, recently settled on the 
family homestead (at the head of Forest Creek, in Jackson County, 
Oregon), to purchase a Honda 90 Trailbike. It got me around the 
backcountry between Timber Mountain and Mount Isabelle more often than 
I could ever do on foot. I was not so thrilled, however, to cross the 
saddle between those two mountains and see the hillside ripped and 
torn, bleeding mud downstream. Four roads join on that saddle and the 
four-wheel drive crowd just loved that hill.
    I never considered the impact my little trail bike was having on 
the land. But the evidence of what four-wheel drive recreational 
vehicles could do to a decomposed granite hillside that, left 
undisturbed, had grown trees . . . that evidence was overwhelming.
    That happened on what was then Boise Cascade land. The hillside is 
still a mess today. A lot of the same kind of activity was happening 
then, and is still happening now, on public land.
    For myself, it was a game of cat and mouse along the mile-long road 
that runs the length of our lower parcel. The dirt bikes that came a 
few years after the four-wheelers had chewed up Boise's hillside 
ignored Private Property and No Trespassing signs. While the four-
wheelers had sometimes been a noisy bunch, the roar of the 2-cycle two-
wheelers bounced off every ridge and hillside in every direction. As a 
recent Vietnam veteran, I had more than a few dark times when the 
machine noise overwhelmed the natural sounds that comforted me. Back 
then, though, they were few in number. Eventually, with signs and gates 
and stopping enough of them, very few came through the property.
    In 1983 I left the land to pursue my career in Seattle. I returned 
to the land in 1999.
    The big issue in the Seattle area was jet skis, of which I know 
little. I know little also about snowmobiles or any number of other 
machine recreation tools. But in my frequent visits to the property 
while living in Seattle, I continued to learn about four-wheeler 
recreation and the two-wheelers most frequently called dirt bikes. 
During this time the All Terrain Vehicle (ATV) was introduced as a 
three-wheeler, which quickly proved to be a fundamentally unstable 
design. Within a few years the market had converted to four-wheel ATVs 
and that market continues to grow.
    On my visits from Seattle I encountered continuous incursions as 
new machine recreationists purchased four-wheel drive toys, dirt bikes 
and ATVs. By far the largest number were the dirt bikes.
    The growth in activity in our area, however, really began to climb 
in 1996, following the listing of the John's Peak/Timber Mountain OHV 
Area by the BLM in their 1995 Resource Management Plan. By the time of 
my return to Forest Creek in 1999, the John's Peak/Timber Mountain OHV 
Area had a boundary around it, maps at the Medford BLM office, and was 
listed in the Oregon Department of Parks and Recreation ``ATV Oregon, 
The Official Guide to Oregon Off-Highway Vehicle Recreation.'' Though 
the listing in the 1995 RMP was by name and acreage only, it had become 
a de facto destination for dirt bikes, quads and recreational four-
wheelers. None of the other 290 landowners within those boundaries, my 
family included, had been consulted about making their land a target 
playground for the off-road crowd.
    Today the western drainage of Forest Creek from Mount Isabelle 
contains more than 17 miles of road on public land across a six mile 
area. A user-created staging area on public land, where Forest Creek 
enters the Applegate Valley, has become a popular gathering spot for 
dirt bikers and ATVers. The sound of them echoes up and down the 
drainage nearly every day during spring and summer. Once they become 
familiar with the main roads and trails, they become bored with them. 
Then they start cutting across corners and making new trails. The dirt 
bikers are the worst. They can go anywhere, so they will go anywhere.
    The frequent, brazen and sometimes combative nature of those who 
tried to ride across our land prompted us to completely close our road 
in 2000 after hearing automatic weapon fire there. Still, in the past 
seven years I had a dirt biker try to run me down when I signaled him 
to stop, I've been shot at and often threatened. My sister was 
threatened with a wrench pulled from beneath the seat of an ATV. Within 
sight of my house a dirt biker told me he was on public land. Those who 
do stop plead ignorance to trespass, despite two hardware store's worth 
of signage and gates at both ends of the road. I will treasure forever, 
though, the four-wheel toy driver who argued, ``I can't be trespassing; 
I'm not walking!''
    The off-road crowd, however, have not been idle in establishing 
organizations to further their interests. In 2000 the local Motorcycle 
Riders Association (MRA) sought a five-year permit from the BLM to hold 
three events of up to 500 riders each in the Timber Mountain/John's 
Peak area. While responding to BLM's Environmental Assessment of the 
request, I learned that the MRA had submitted route maps that included 
nearly two miles of Forest Creek Road, a county road, while Jackson 
County remained ignorant of their plans. Route maps also showed trails 
crossing our property. The MRA did not acquire their permit, but they 
have steadily lobbied BLM as well as state and local governments to 
further their use of public land. As the ridership increases, the noise 
and trespass increase as well.
    Machine recreation on public land is increasingly controversial 
because of the damage from erosion, wildlife disturbance, spreading of 
noxious weeds and the presence of machine recreationists driving off 
other recreational uses of public land. But machine recreation on 
public land also directly impacts those of us who are neighboring 
landowners. Through the government's invitation, active or implied, we 
must fight off trespass, noise and the same kinds of negative impacts 
(erosion, etc.) that occur on the public land. The government is 
failing miserably to protect all of its citizens.
    The machine recreation industry has numerous lobbyists who will 
tell you how much money is spent pursuing their activities. I am sure 
that people who bowl for enjoyment could tell you how much money they 
spend, people who hunt or hike could tell you about their investments. 
The government, however, makes no special accommodations for bowlers 
and strongly regulates both hunters and hikers. Why should machine 
recreation be any different?
    We are talking about huge impacts from an optional activity that is 
for play. Even the machine recreationists describe the trailers they 
use to haul their machines as ``toy haulers.'' I ask the government, 
``Should you be making special accommodations for people who play with 
toys?''
    Many will tell you of the destructive nature of this activity. Many 
others, like myself, will tell you the invasive nature of this 
activity. And all will tell you the government, mostly the BLM and 
Forest Service, are woefully behind in addressing the issues.
    Your committee has the authority and the responsibility to take 
action. Right now most public lands are open to motorized recreation 
unless marked closed. That means that two-wheel dirt bikes can tear up 
any part of the public land they wish, unimpeded and without 
consequence . . . at least without consequence to them. Protect our 
public lands and close all lands until the government agencies who 
manage them can make the case for opening them to machine recreation. 
Our forefathers did not fight for their freedom to destroy the very 
resources that give this country its greatness. I did not fight in 
Vietnam to watch the heritage of my citizenship washed away by ruts 
from expensive toys.
    I urge you to close public lands to machine recreation and begin 
addressing the very difficult problem of controlling the impacts. 
Americans should enjoy the freedom to recreate as they wish, provided 
they do it without injuring others. As it now stands, dirt bikers and 
quad riders can injure all of us as they recreate. Please put a stop to 
it.
                                 ______
                                 
                           Albuquerque Wildlife Federation,
                                    Albuquerque, NM, June 16, 2008.
Hon. Jeff Bingaman,
Suite 130, 625 Silver Avenue, SW, Albuquerque, NM.
    Dear Senator: Thank you for providing the public the opportunity to 
discuss OffHighway Vehicle (``OHV'') use on Bureau of Land Management 
(``BLM''), Forest Service, and other public lands. This is certainly an 
issue-relevant to the work of the Albuquerque Wildlife Federation.
    The Albuquerque Wildlife Federation is a hundreds--strong, non-
partisan, all-volunteer group that works to improve conditions for 
wildlife in New Mexico. We are proud to have been founded by 
conservation pioneer Aldo Leopold in 1914. Our membership includes 
biologists, federal land agency employees, state wildlife agency 
personnel, hunters, anglers, bird-watchers, wildlife enthusiasts, and 
outdoor recreationists--as well as Democrats and Republicans.
    The bulk of our organization's work is spent on outdoor projects to 
improve wildlife habitat on public lands across New Mexico. We 
coordinate closely with state and federal wildlife and land agencies on 
these projects. Over decades, our membership has donated thousands of 
hours of sweat-equity every year to improve habitat for New Mexico's 
unique game and fish. We are extremely proud of this service to the 
people of New Mexico and its wildlife.
    Recently our group, like many others around the West, has witnessed 
with growing concern the exponential proliferation of OHVs on public 
lands. Indeed, several of our own completed projects have been damaged 
by OHVs, and have also worked to restore areas where irresponsible OHV 
use has damaged wildlife habitat.
    We have also participated in BLM and Forest Service OHV management 
plan processes. For example, the Forest closest to us, the Cibola 
National Forest, is undergoing such a review now.
    Yet having engaged in these processes we are concerned they are not 
up to the task of reining in OHV damage. We are even more convinced 
that enforcement of whatever OHV rules come out of these planning 
processes will not be adequate.
    We are well-aware of and support the multiple-use aspects of our 
public lands. However, the time has come for us to scale back OHV use, 
as it now significantly disrupts multiple other uses. Given OHV users 
represent only 5% of those who use our BLM, National Forests, and state 
public lands, it is only rational for their impact to be more 
accurately reflected on the land.
    As such, we as consitituents strongly encourage you to use your 
influences as Ranking Member of the Senate Energy and Natural Resources 
Committee to achieve four goals:

          1. Ensure federal and state agencies consider the impacts to 
        natural resources, analysis the cost of developing and 
        maintaining ORV routes and identify the reclamation cost during 
        the process of designating OHV use and non-use areas.
          2. Provide increased protections for important wildlife, 
        water, timber, range, and cultural resources from OHV use.
          3. Provide greater funding and resources for enforcement of 
        OHV management.
          4. Provide appropriations for remediation and damage 
        resulting from OHV use.

    We hope you receive these comments in the spirit they have been 
offered, with respect for New Mexico's beautiful and unique lands and 
wildlife. In considering our recommendations, we offer the guidance of 
our nation's greatest conservation President, Republican Theodore 
Roosevelt:

          There can be no greater issue than that of conservation in 
        this country.

    We again thank you for bringing attention to this issue, and hope 
to be able to contribute to a constructive solution.
            Sincerely,
                                                Gene Tatum,
                                                         President.
                                 ______
                                 
            Statement of the American Academy of Pediatrics

    The American Academy of Pediatrics (AAP) appreciates this 
opportunity to submit testimony for the record of this oversight 
hearing by the Senate Committee on Energy and Natural Resources 
regarding the management of off-highway vehicles on public lands. The 
American Academy ofPediatrics is a non-profit professional organization 
of 63,000 primary care pediatricians, pediatric medical sub-
specialists, and pediatric surgical specialists dedicated to the 
health, safety, and wellbeing of infants, children, adolescents, and 
young adults.
    As the Resources Committee examines the enforcement of laws and 
rules on the use of off-highway vehicles on public lands, the American 
Academy of Pediatrics urges you to consider not only recreational and 
environmental issues, but also health and safety issues for our 
children. All-terrain vehicles (ATVs), minibikes, personal watercraft 
(PWC), snowmobiles, and other off-road vehicles pose unique dangers to 
children who ride or operate them.\1\ In fact, from the perspective of 
injuryprevention, this situation creates the perfect recipe for tragedy 
due to the confluence of multiple high risk factors:
---------------------------------------------------------------------------
    \1\ 

  <bullet> Person Factors:--Children lack the physical and 
        developmental maturity to operate an off-roadvehicle safely, 
        especially in terms of judgement.
  <bullet> Environment Factors:--Public lands are often difficult to 
        access for rescue crews due to distance and challenging 
        terrain.
  <bullet> ``Agent'' Factors:--ATVs, snowmobiles and other off-road 
        vehicles allow high rates of speed, weigh a great deal and 
        completely expose the driver. Some, like ATVs, have a tendency 
        toroll if not used properly. PWC operation is different from 
        other motorized vehicles and can confuse operators, especially 
        in crisis circumstances.

                          ALL-TERRAIN VEHICLES

    The statistics regarding children and ATVs are grim:

  <bullet> Between 1982 and 2006, over 2,300 children were killed in 
        ATV crashes. This is the equivalent of five 747 jets full of 
        children, or 35 fully loaded schoolbuses.
  <bullet> In 2006 alone, at least 111 children perished due to 
        injuries sustained when riding an ATV.\2\
---------------------------------------------------------------------------
    \2\ Consumer Product Safety Commission, 2006 Annual Report of ATV 
Deaths and Injuries, February 2008, Table 3.
---------------------------------------------------------------------------
  <bullet> An estimated 39,300 children were treated in emergency 
        departments for ATV-related injuries in 2006. Serious injuries 
        among children have ranged from over 32,000 to over 44,000 
        every year since 2000.\3\ Since 1990, over 485,000 children 
        have been treated in hospitals for ATV-related injuries- 
        equivalent to the entire population of Atlanta, Georgia.
---------------------------------------------------------------------------
    \3\ Consumer Product Safety Commission, 2006 Annual Report of ATV 
Deaths and Injuries, February 2008, Table 5.
---------------------------------------------------------------------------
  <bullet> Injuries sustained by children riding an adult-sized ATV are 
        often very serious, including severe brain, spinal, abdominal, 
        and complicated orthopedic injuries. ATV riding involves almost 
        twice the risk of injury serious enough to require 
        hospitalization than any other activity studied. This is true 
        even for activities generally considered to be high risk, 
        including football (62% higher risk for ATV riding), 
        snowboarding (110% higher risk for ATV riding) and paintball 
        (320% higher risk for ATV riding).\4\
---------------------------------------------------------------------------
    \4\ Consumer Product Safety Commission, Briefing Package on 
Petition No. CP-02-4/HP-02-1, ``Request to Ban All
---------------------------------------------------------------------------
  <bullet> Children lack the strength, coordination, and judgement to 
        operate ATVs safely. In a Consumer Product Safety Commission 
        (CPSC) study, the primary causes of children's deaths on an ATV 
        were overturning, collision with a stationary object, and other 
        collisions.\5\ Each of these implies the inability to control 
        the vehicle properly.
---------------------------------------------------------------------------
    \5\ 

    Despite the alarming increases in ATV deaths and injuries, 
government regulation continues to be all but absent. No ongoing review 
has ever been undertaken regarding possible additional or revised 
regulations, in spite of changes in the patterns of ATV design and use. 
In 2000, the Academy's Committee on Injury and Poison Prevention 
reviewed the evidence regarding children and ATVs and reaffirmed its 
long-standing recommendation that no child under the age of 16 should 
operate orride an ATV.\6\
---------------------------------------------------------------------------
    \6\ 
---------------------------------------------------------------------------
    The Committee on Energy and Natural Resources has the power to 
reduce ATV-related deaths and injuries among our nation's children. If 
the federal government adopted limitations on ATV use by children on 
public lands, this would serve as both a powerful message and a model 
for states and localities. The attention and publicity generated would 
educate parents, who are often unaware of the safety risks of these 
vehicles. Moreover, this committee could have a significant impact on a 
key issue regarding ATV injuries. When an ATV crash occurs on public 
land in a remote, unpaved, or inaccessible area, precious hours can be 
wasted in locating, reaching, and transporting the victim to medical 
care. Trauma surgeons refer to the ``golden hour'' after injury as the 
critical window for initiating medical treatment. By placing meaningful 
restrictions on the use of ATVs by children on public lands, this 
committee could reduce the likelihood that children would die of 
preventable and treatable injuries.
    Today, the operation of ATVs on federal lands is governed largely 
by the laws of the state in which the land is located. If a park or 
parcel covers portions of more than one state, the laws may 
differdepending upon one's location in the park. For example, 
Yellowstone National Park is set mostly in Wyoming, but also overlaps 
into Montana and Idaho. Idaho requires all ATV riders under the age of 
18 to wear a helmet; Wyoming requires helmets for those under age 18 on 
an ``enrolled road;'' and Montana has no helmet law at all.

                         POLICY RECOMMENDATIONS

    The American Academy of Pediatrics calls upon the Committee on 
Energy and Natural Resources to direct the Department of the Interior 
and the Department of Agriculture to adopt a uniform set of laws and 
guidelines for the operation of ATVs on all federal lands. Rules for 
riding ATVs should not vary depending upon whether one is riding in a 
national park, a national forest, or land controlled by any other 
federal agency. Uniform laws and guidelines would assist rangers in 
their
    Children under 16 should not operate ATVs. An ATV can weigh in 
excess of 500 pounds and travel at speeds of over 60 miles per hour. 
Children do not possess the physical strength, coordination, or 
judgment necessary to pilot these vehicles safely.\7\ When a child 
crashes on one ofthese large machines, it often rolls over them or 
traps them beneath it. The result is devastating injuries, including 
crushed internal organs and multiple broken bones.
---------------------------------------------------------------------------
    \7\ 
---------------------------------------------------------------------------
    A driver's license should be required to operate an ATV on public 
lands. The federal government does not allow children to drive cars in 
national forests or parks. Yet an unlicensed child is permitted to 
drive an ATV at high speeds, without a helmet, on unpaved surfaces in 
those same areas. This situation defies all logic. The safe use of ATVs 
requires the same or greater skill, judgment, and experience as needed 
to operate an automobile. A driver's license should be requiredto 
operate any motorized vehicle on public lands.
    Alcohol use by operators of ATVs should be prohibited, with zero 
tolerance among 16- to 20-year old operators. Just as alcohol- or drug-
impaired operation of automobiles threatens the lives of drivers, 
passengers, and bystanders and is prohibited, operation of any 
motorized vehicle under the influence of alcohol or drugs should be 
forbidden. Young drivers under the influence of alcohol or drugs are 
particularly dangerous because of their relative inexperience and 
poorer judgment. Alcohol use by those under the age of 21 is already 
banned by federal and state laws, and zero tolerance policies for 
underage ATV operators on public lands would strengthen the prohibition 
and send a strong message to parents and adolescents.
    ATV use should be banned on paved roads in public lands. All-
terrain vehicles lack the features necessary to operate safely on roads 
and highways. Most have few or no lights, mirrors, signals orsafety 
features. A significant number of crashes occur on paved roads where 
cars or trucks cannot see the ATV, or where ATV operators make 
unexpected maneuvers. In the CPSC survey on ATV crashes mentioned 
earlier, the highest number of fatalities occurred on paved 
surfaces.\8\ Use of ATVs should be allowed only on designated, well-
maintained trails.
---------------------------------------------------------------------------
    \8\ Consumer Product Safety Commission, Briefing Package on 
Petition No. CP-02-4/HP-02-1, ``Request to Ban All-Terrain Vehicles 
Sold for Use by Children under 16 Years Old,'' February 2005, p.108.
---------------------------------------------------------------------------
    Appropriate protective gear should be required to operate an ATV on 
public lands. Research regarding motorcycles and bicycles tells us that 
helmets save lives and that helmet laws result in greater helmet 
use.\9\ \10\ \11\ The federal government should take a leadership role 
and require ATV riders on public lands to wear a helmet.
---------------------------------------------------------------------------
    \9\ Kraus JF, Peek C, McArthur DL, Williams A. The effect of the 
1992 California motorcycle helmet use law on motorcycle crash 
fatalities and injuries. JAMA. 1994;272:1506-1511.
    \10\ 
    \11\ 
---------------------------------------------------------------------------
    The popularity of all forms of motorized recreational vehicles 
raises serious questions about safety, particularly on public lands. 
The vast majority of concerns elucidated about ATVs also apply toother 
off-road vehicles. It is difficult to overemphasize the risk involved 
in allowing immature children to operate these dangerous machines in 
remote, unsupervised, and potentially hazardous circumstances.
    Carrying passengers on an ATV should be prohibited. The vast 
majority of ATVs are not designed to carry passengers. An ATV's large 
seat is meant to allow a rider to shift his or her weight and maneuver 
adequately. Children can easily be thrown from these vehicles at high 
speeds. The Academy is even aware of cases where parents drive ATVs 
with children strapped onto the rear in a car seat, in the tragically 
mistaken perception that this is somehow safe. In a recent CPSC 
analysis of 184 child deaths involving ATVs, the agency concluded that, 
``CPSC has long recommended against the carrying of passengers on ATVs, 
and yet 24 percent of the deceased children were riding as passengers, 
and 45 percent of the fatalities occurred in multiple rider situations. 
Certainly, if CPSC's recommendations had been followed, the deaths of 
at least 45 child passengers would not have occurred.''\12\
---------------------------------------------------------------------------
    \12\ 
---------------------------------------------------------------------------
    ATVs should not be operated before sunrise or after sunset. ATVs 
are challenging to operate safely even under ideal conditions. Darkness 
adds an unacceptable degree of additional risk, due to both unseen 
hazards and the difficulty of being seen by other vehicles. The use of 
ATVs in lowlight or darkness should be prohibited.

                               CONCLUSION

    In conclusion, the American Academy of Pediatrics urges the 
Committee to support meaningful restrictions on children riding or 
operating ATVs and other off-road vehicles on public lands. Clearly, 
ATVs pose a significant hazard to children who ride them. This fact is 
indisputable. The cost to society is also high, not only in regard to 
loss of life and health but in actual dollars. In 2005, the journal 
Pediatrics published a study which estimated that total hospital 
charges for children's ATV injuries over a two-year period exceeded $74 
million.\13\ If no further action occurs this year, we can expect over 
100 children to die and over 35,000 to be treated in the emergency room 
again next year due to ATV-related incidents.
---------------------------------------------------------------------------
    \13\ 
---------------------------------------------------------------------------
    Our current regulatory systems and educational programs are not 
protecting children from tragic ATV deaths and injuries. The Committee 
on Energy and Natural Resources should take a leadership role on this 
issue and ensure the safety of children on public lands by supporting 
thecommon-sense measures recommended by the American Academy of 
Pediatrics. We appreciate this opportunity to submit testimony for the 
hearing record.
                                 ______
                                 
 Statement of Mike Beagle, Chairman, Back Country Hunters and Anglers, 
                            Eagle Point, OR

    Backcountry Hunters & Anglers is a national organization of outdoor 
enthusiasts who prize the tradition, challenge and solitude of 
America's backcountry. Founded around an Oregon campfire, we now have 
members in 43 states. BHA is a 501c3 nonprofit organization that works 
to conserve big, natural habitat and healthy rivers and streams. We 
work so our kids and grandkids are free to enjoy the high-quality 
hunting and fishing we cherish.
    We believe in access for all, yet understand that healthy wildlife 
habitat, rivers and streams are the foundation supporting the American 
pastimes of hunting and fishing. We believe there is a place for off-
highway vehicle routes on public lands, but that greater controls and 
better enforcement are necessary in the face of growing humanpopulation 
and ever-more-powerful machines. In order to protect the future of 
hunting and fishing traditions we treasure, we want to protect large 
areas of public land completely separate from the noise, disturbance 
and pollution that comes with off-highway vehicles.
    Our members--and many other Americans--are seriously impacted 
byirresponsible and excessive use of off road vehicles. Agency 
statistics show that motorized users are very much in the minority on 
public lands, yet they impact areas orders of magnitude larger than 
folks on foot or horse.
    The latest National Forest Visitor Monitoring Report shows that 
only 5.6 % of visitors to National Forests go there to use an OHV. BLM 
reports they estimate only 9% of their visitors are there primarily to 
use an OHV.
    The irony is that OHV users spoil hunting opportunity for 
themselves as well as for any quiet user within a mile or more of their 
noise. Extensive research over decades has established beyond dispute 
that OHVs impact a wide variety of wildlife and displace game animals. 
In addition, the use of motor vehicles shatters the quiet sense of 
solitudethat traditional sportsmen seek.
    Recent studies in the Madison Range in Montana show that hunters on 
OHVs drive elk from public land and onto private land, while hunters 
accessing similar areas on foot did not displace elk. The end result 
was public game driven off public land and onto private ranch land 
where average hunters are locked out.
    All of our members tell a familiar story - working hard and playing 
by the rules, only to have illegal or inappropriate riders on OHVs 
shatter their experience, scare away the wildlife and damage the 
habitat. It's happening all across the country, over and over again.
    Several of our members are retired federal land managers. They feel 
strongly that irresponsible use of OHVs is out of control largely 
because of lack of agency direction, resolve and fortitude. Too many 
units of the BLM and Forest Service are hand wringing instead of 
acting. The Forest Service is working slowly to complete travel 
management planning but is neglecting authorities they already have 
(such as the Executive Orders) to implement emergency closures against 
off-route travel now.
    We support reasonable controls to protect the water, forests and 
rangelands that are owned by all Americans. We support swift and 
effective enforcement of lawbreakers. We support meaningful penalties, 
such as confiscating machines and taking away huntingand fishing 
privileges of lawbreakers. Specifically we ask Congress to:

  <bullet> direct the Agencies to aggressively accelerate controls, 
        within the rules and resources they now have, of Off Highway 
        Vehicles.
  <bullet> secure necessary funding of OHV controls and enforcement on 
        all public lands.
  <bullet> investigate opening the Recreation Trail Program funds to 
        for OHV management and Law enforcement.
  <bullet> direct the Forest Service and BLM to declare large portions 
        of America's forests, canyons and public land as completely off 
        limits to the noise, disturbance and pollution of off-road 
        vehicles, while providing some designated OHV routes where they 
        will notharm public resources or damage the experience of 
        others.
                                 ______
                                 
               Statement of Eric Hamburg, Los Angeles, CA

    I am a property owner and part time resident of Wonder Valley, 
California who is greatly concerned and personally affected by the 
impact of abusive and illegal Off Road Vehicle (ORV) use. I have 
visited the Morongo Basin in San Bernardino, California frequently over 
the past thirty five years and have been fortunate enough to own my 
home, where I plan to retire, in Wonder Valley since 2002. By 
profession I have been engaged in computer technology as a Chief 
Information Officer in a large law firm and most currently as a 
technology consultant.
    Illegal and abusive ORV use is a on-going and persistent problem 
for me and my neighbors. While many ORV riders are respectful of 
property rights, and of the law, there unfortunately are a significant 
number of riders who feel they can ride with impunity. Despite posting 
``no trespassing'' signs on our land and working to pass effective 
legislation (particularly San Bernardino County Ordinance 3973, enacted 
in 2006 and unanimously reaffirmed by the County Board of Supervisors 
in August 2007) we still experience willful illegal riding. We also 
experience continual harassment from some members of the ORV riding 
community including personal attacks on their websites. Such harassment 
includes what amount to stalking of individuals and our private 
property.
    Illegal ORV riding and riders cause 1) damage to the fragile desert 
ecosystem, 2) trespassing, noise and dust and 3) harassment of citizens 
who are only trying to protect their rights to live in peace and enjoy 
the beauty of the desert
    In my opinion, the solution to this problem lies in enforcing and 
strengthening existing laws as well as providing more resources to 
local law enforcement to implement laws in the vast area that they need 
to cover. The penalties for infractions should be increased, 
particularly for repeat offenders. Law enforcement personnel also need 
to be trained on the importance of enforcing these laws and their 
performance must be assessed based on the effectiveness of their 
enforcement efforts.
    Additionally manufactures and sellers of ORVs should be obligated 
through legislation to assure people purchasing their products are 
educated on safe and responsible riding. Local retailers should be 
obligated to inform their customers where riding is legal and where it 
is not.
    Thank you for inviting the public to testify on these important 
issues. It is encouraging to see that your committee is taking 
leadership to look into these problems. I hope that you will take my 
comments and proposed solutions into account and translate them into 
effective legislation that can be effectively enforced not only in 
mylocal area but in the many areas across the country that are 
adversely affected by illegal and abusive ORV use.

                                    

      

</pre></body></html>
